<html>
<title> - AVIATION SECURITY AND TRANSITION</title>
<body><pre>[Senate Hearing 107-1119]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1119
 
                    AVIATION SECURITY AND TRANSITION

=======================================================================






                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                 U.S. GOVERNMENT PRINTING OFFICE

93-947                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001












       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2002....................................     1
Statement of Senator Allen.......................................     9
Statement of Senator Boxer.......................................    12
    Prepared statement...........................................    14
Statement of Senator Burns.......................................     8
Statement of Senator Cleland.....................................    11
Statement of Senator Dorgan......................................    12
Statement of Senator Ensign......................................    16
Statement of Senator Fitzgerald..................................    19
Statement of Senator Hollings....................................     1
    Prepared statement...........................................     2
Statement of Senator Hutchison...................................    10
Statement of Senator Kerry.......................................     6
Statement of Senator McCain......................................     3
Statement of Senator Nelson......................................    16
Statement of Senator Smith.......................................    15
Statement of Senator Snowe.......................................    18
Statement of Senator Stevens.....................................    30
Statement of Senator Wyden.......................................     5

                               Witnesses

Coy, Craig P., Chief Executive Officer, Massachusetts Port 
  Authority......................................................    79
    Prepared statement...........................................    82
Davidson, Captain Edward M., Director, Flight Safety and Quality 
  Assurance, Northwest Airlines..................................    62
    Prepared statement...........................................    65
Dillingham, Gerald L., Ph.D., Director, Physical Infrastructure 
  Issues, General Accounting Office..............................    30
    Prepared statement...........................................    32
Luckey, Captain Stephen, Chairman, National Flight Security 
  Committee, Airline Pilots Association..........................    68
    Prepared statement...........................................    70
Mineta, Hon. Norman Y., Secretary, Department of Transportation, 
  accompanied by: Michael P. Jackson, Deputy Secretary, 
  Department of Transportation, and Admiral James M. Loy, Acting 
  Under Secretary of Transportation for Security.................    23
    Prepared statement...........................................    26
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............    19
Smith, Hon. Bob, U.S. Senator from New Hamsphire.................    21
Stephens, Richard D., Vice President and General Manager, The 
  Boeing Company, Homeland Security and Services.................    84
    Prepared statement...........................................    86

                                Appendix

Francis II, Hon. Robert T., Executive Vice President, Farragut 
  International, LLC, prepared statement.........................    97
Response to written questions submitted by Hon. John McCain to:
    Admiral James M. Loy.........................................    98
    Dr. Gerald Dillingham........................................   100
    Captain Edward M. Davidson...................................   101













                    AVIATION SECURITY AND TRANSITION

                              ----------                              


                        THURSDAY, JULY 25, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ernest F. 
Hollings, Chairman of the Committee, presiding.

         OPENING STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. The Committee will come to order. We are 
pleased to proceed now with our hearing on aviation security.
    I want to congratulate Secretary Mineta in appointing 
Admiral Loy to take over this Transportation Security 
Administration, in that we're behind the curve. My record shows 
that they've only, in a six-to-seven month period, employed 
some 2,500 screeners. That's grossly, grossly inadequate, slow, 
incompetent.
    What we had, on course, was a mammoth task of privatizing, 
as you were, publicly employing some 40-50,000, whatever, 
screeners and securing these airports, and we even confirmed 
the former head of the Transportation Security Administration 
without a hearing. It was before Christmas, and we all wanted 
to get going, hit the ground running. And instead, we've been 
dragging our feet.
    The Secretaries have showed us at every turn that we're 
right on schedule, we're right on schedule, and I was a little 
dismayed, Mr. Secretary, when, on the House side, you 
complained for the lack of money. You can't catch this Congress 
off base on homeland-security money. This Congress will fight 
you trying to give it more money. Everybody knows we're at war 
and that homeland security is front and center, and everybody 
is voting for the money. So we hadn't heard, at this committee 
level, of any lack of money.
    However, one of the main things I want to touch on, because 
I know Senator Burns and others have bills in with respect to 
the pistols in the cockpit, and we have a bill that's at the 
desk. It wasn't assigned to the Committee, but is at the desk. 
And I want to reemphasize the intent and mission, Senator 
Murkowski, that a commercial airliner would never be used again 
as a weapon of mass destruction. And the only ones we know that 
have ever done that successfully is the Israelis, the El Al 
Airline.
    In fact, where Senator Murkowski is seated, we were seated 
just last September, a group of us senators on the Committee 
with the chief pilot, and the chief pilot allowed that, look, 
once that door is secured, it's never opened in flight. We find 
those now that insist upon pistols, of course, contemplating an 
insecure door, a penetrable door. In fact, our friend, George 
Wills, says there's no such thing as an impenetrable door. I 
refer him to El Al Airlines. It hasn't been penetrated in 30 
years. They have not had a hijacking.
    And that was one thing that this particular senator 
emphasized even before Christmas with the Transportation 
Security Administration. Look, let's--once can fall, get on. 
They told me up in Massachusetts--Senator Kerry testified they 
had a Kevlar door. The Delta folks--airlines, they had a plan 
to do it and everything else like that. Try a penetrable door 
alone. If the door can be broken into, then forget about these 
pistols and everything else like that. The enemy are not 
wandering minstrels. They are karate, judo experts. They'll 
break in the door before you can ever get to your pistol 
strapped in trying to fly a plane. You've really armed the 
terrorists.
    So let's begin, once and for all, to understand that the 
door has got to be fixed, impenetrable and never opened in 
flight. Once that's done, then we'll solve the problems of a 
commercial airliner flying into the Empire State or the Sears 
Building or into a nuclear power plant, we'll solve the problem 
of guns in the cockpit.
    The media is still asking me, ``Well, where is your 
compromise? Would you go along with stun guns rather than''--
they don't understand the problem. The problem is to make sure 
that a commercial airliner--now, these private planes, they can 
run into a building, like down in Tampa, but they don't have 
all that fuel and can really bring the World Trade Towers down 
to the ground like occurred.
    So the whole idea is, once that door is secure, the 
intended terrorist knows that it's going right to the ground 
and law enforcement are taking them off to the jail. Otherwise, 
you don't have this 30 minutes after takeoff remain in your 
seat, that 30 minutes before you land, take on your seat. I 
have to fly a Charlotte connection. And coming back, trying to 
make votes, I'm terrorized that somebody's going to stand up, 
because the pilot warns if you stand up and leave your seat, 
we're going to another airport. I'm going to miss the thing, 
and I'm ready to knock them in the head and put them back in 
their seat right away----
    [Laughter.]
    The Chairman.--because I'm trying to make votes up here. 
We've got ridiculous rules. You don't have to have all the 
planes flying around to shoot people down. The door is secure 
and never opened in flight.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Good morning. We created the Transportation Security Administration 
(TSA) last November to change entirely the way our nation provides 
aviation security. We made fundamental changes, demanding a focus on 
security and recognizing that as a country we were at war. We asked you 
to create from nothing a well trained, motivated work force to screen 
everything going on-board passenger aircraft, and to address other 
parts of the aviation community--general aviation, cargo, flight 
schools, for example--as quickly and effectively as possible. No one 
here, and I think you would agree, wants to see these programs and 
initiatives delayed.
    In providing difficult deadlines, we wanted to make sure that 
everyone understood that our security is a top priority. You have met 
many of the early challenges, but many remain, and it must continue to 
be a top priority. You have two pending deadlines looming--November 19 
(screeners) and December 31 (explosive detection systems). I want you 
to keep your foot on the gas pedal, and don't let up. Where there are a 
few airports with specific problems, tell us--you have a mandate to get 
the job done, and to do it right. The law gives you that ability and 
direction.
    Do not use the budget as an excuse--yes, the Supplemental cuts your 
funding somewhat, but Mr. Danials asked for more than $219 million in 
cuts. You received much of what you requested for this year.
    You have told us all year you will make the deadlines, and we have 
supported your efforts. You also told us ``No'' to guns. Now, I see 
that you may ``reconsider''--under the original bill, we gave you 
discretion to allow guns or even less than lethal weapons, tasers, in 
the cockpit. You said no. I agree with you.
    Under the Act, we also mandated that the cockpit doors be locked at 
all times during flight except for authorized personnel. I want to 
close the door and lock it for the entire flight. I understand, though, 
that right now there are a series of measures on board to make sure 
that if one pilot leaves the cockpit, the integrity of the cockpit is 
not breached. That is a good first step, but as I look at new designs 
for kevelar strips as a second door, or other relatively easy fixes to 
the cockpit, I want you to order the deployment of those doors and 
devices. If we had another billion to spend, which is the initial cost 
of arming the pilots, we could spend it more wisely on new doors. To 
ensure that terrorists are unable to take control of an aircraft I 
introduced, S. 2497, a bill that requires cockpit doors remain closed 
while in flight unless the plane is fitted with mantrap doors that 
provide secure entrance and egress to the flight deck. My legislation 
would bring us in line with the Israeli approach, a layered ``onion'' 
of security, that allows the pilots to focus on flying, and keeps 
potential threats out of the cockpit.
    You will need to lay out for us the time frames you envision to 
hire all of the screeners--right now you have about 2,500 on payroll, 
and another 4,000 about to be hired, as I understand it. You want to 
have on board 35,000 by November. How do you get there? Can you get 
there?
    With respect to the December 31 deadline, you have bought about 800 
of the 1100 explosive detection systems (EDS) and a substantial number 
of the smaller trace detection units. We can not discuss the 
differences in open session, but we all recognize there are substantial 
differences in cost, time and personnel. You also will need to make 
substantial changes to a number of airports, and have hired Boeing, 
along with Siemons to carry out that mission. As I said, for some 
airports, you may need some additional time--take it and do it right. 
For others, deploy it, man it and run it.
    It has been difficult to communicate with the TSA from the start, 
and while I am certain that conditions will improve under Admiral Loy's 
leadership, I must make it very clear that Congress wants to know the 
truth. Congress is here and we are listening. We do not want to hear 
that there is a problem implementing security from the airports or an 
airline--we want to hear it from you. Far too much is at stake to play 
games at a time like this.
    There may have been some changes in the faces at TSA, but the 
challenge remains the same--to develop a system of security which 
justifiably restores the confidence of the American people. We continue 
to expect this challenge to be met. I implore you to work with us, and 
provide straightforward assessments of your efforts as you move 
forward. Without proper communication, questions and doubts will 
continue to shroud the TSA, and no doubt will hinder your ability to be 
successful in this most important of missions.

    The Chairman. I yield to Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I thank you, Mr. Chairman. I thank you for 
holding this very important hearing.
    The Transportation Security Administration is at a crucial 
point in its short history. The agency is working 
simultaneously on several extremely challenging tasks. The TSA 
must purchase and install thousands of pieces of explosive-
detection equipment, hire tens of thousands of passenger and 
baggage screeners at 429 airports throughout the country, all 
in the next few months. At the same time, it must build its own 
massive organization from the ground up.
    If these challenges were not enough, the President has 
recommended that the TSA be moved to another entirely new 
entity--the Department of Homeland Security. And as of last 
week, the TSA now has a new acting leader, Admiral Loy, whose 
accompanying Secretary Mineta today.
    In the midst of all these efforts and transitions, the TSA 
must come to grips with one of its most difficult jobs, dealing 
with a Congress that's pulling the agency in different 
directions. For example, some legislators are trying to move 
the deadline for screening all bags using explosive-detection 
equipment, while others are saying we must keep the pressure on 
and not weaken our security measures.
    The appropriators have substantially limited the total 
number of TSA employees cutting the President's supplemental 
funding request and using earmarks to tie up much of the rest 
of the money.
    Just two days ago, Secretary Mineta testified that the 
amount of money Congress is providing in the Supplemental 
Appropriations Act and the strings attached to that funding 
will not support the mandates and timetables for aviation 
security that Congress set up last year for TSA. We passed a 
law authorizing certain funding. Again, the appropriators have 
now undercut the authorization that was passed by the Senate by 
a 98-to-nothing vote.
    On top of it all, every sector of the aviation community 
seems to be voicing one complaint or another about how security 
is being handled. All of this is making it difficult for TSA to 
do the job we gave it eight months ago to keep our aviation and 
other transportation systems secure.
    I hope that the first panel of witnesses will shed more 
light on some of the issues that TSA faces in the coming weeks 
and months. DOT and TSA have tried to do a good job, especially 
given the circumstances, but it is evident that everything has 
not gone as well as it should. The road ahead is likely to be 
even rougher than the one already traveled. In that regard, I 
know that the GAO will have some important observations about 
where we stand today and what the future may hold.
    Another issue being addressed today is the arming of 
pilots. I'm sure that it is a very important issue, and we will 
have a lot of discussion and debate about it, and I hope we can 
resolve it. But I've got to tell you, Mr. Chairman, we should 
be focusing on how we're going to implement the law that we 
passed eight months ago, which is going to cost billions of 
dollars, tens of thousands of employees, how we're going to 
ensure the safety of every passenger in every plane in our 
aviation system.
    Eight months ago, members of Congress were unable to reach 
a consensus on this contentious issue due, in part, to a lack 
of sound information and analytical data on the issue as well 
as the urgent need to pass the legislation. We placed the 
authority for the ultimate decision with the TSA, which we 
expected to objectively assess the potential benefits and 
hazards of arming airline pilots.
    At our last hearing on aviation security two months ago, 
former Undersecretary Magaw announced that TSA would not 
support the arming of pilots. That decision prompted the 
introduction of several bills in Congress to explicitly allow 
pilots to use firearms. The issue remains contentious, and 
there seems to be little hard analysis on either side.
    Even the GAO recently concluded that without additional 
research, quote, ``The potential benefits, risks, and costs of 
using weapons on aircraft cannot be fully determined.'' 
Therefore, I am anxious to hear from all our witnesses today on 
this issue.
    It's my genuine hope that Congress, the Administration, and 
the aviation community can reach greater consensus and unity of 
purpose in the area of aviation security. Assigning blame and 
finger pointing are easy here in Washington. We shouldn't lose 
sight of the stakes in this fight. Aviation has always been a 
popular target for terrorists, and there is no reason to 
believe that has changed. It's not easy to balance the need for 
greater security with the efficient flow of air commerce that's 
vital to the economy of our country, but the task will be made 
more difficult unless we get a lot more direction and a lot 
less infighting.
    I thank our witnesses for being here. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    Senator Wyden?

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Chairman and colleagues, the House of Representatives 
is now poised to grant extensions of the deadlines with respect 
to the aviation security requirements, and I want to make it 
clear that I will strongly oppose any extensions unless they 
are ones that strengthen the protections for passengers in the 
public, rather than roll them back. Any modifications of the 
law ought to make our system safer rather than less secure.
    And I will tell you, I find it especially troubling that in 
recent weeks the Administration has had to replace the director 
of the Transportation Security Administration. I'm going to ask 
Secretary Mineta this morning why that was done, because 
clearly it does not send a message that the Administration is 
on top of this issue if, in fact, at a crucial time, the head 
of the Transportation Security Administration has to be 
replaced, and I think we need to know what is going to be done 
differently with a new head of that agency.
    Finally, what it all comes down to is that there is an 
indication that this issue is sliding back into the same 
pattern of the last 15 years. For 15 years, the pattern has 
been there would be a significant tragedy, there would be a 
huge and understandable outcry from the American people, and 
Congress would move ahead on reform. After that was done, there 
was all kinds of backsliding, all kind of blame and finger 
pointing. But, for one reason or another, the job didn't get 
done.
    I think--and I want reflect your comments, Mr. Chairman, 
and those of Senator McCain's--the challenge now is to stay at 
it until it's done right. And if that means staying through the 
summer, working with the Administration on issues relating to 
funding, working with the airports on the issues that they have 
with respect to the realignments of their facilities and the 
like, so be it. But I don't think excuses, either from the 
Administration, from the airports, from the Congress or anyone 
else are acceptable at this point, given the understandable 
public concern.
    I look forward to working with you and our colleagues on a 
bipartisan basis.
    The Chairman. Thank you.
    Senator Kerry?

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thank you very much. Thank you 
for holding this hearing, which is obviously important.
    In the last weeks--months, I guess--Americans have lost 
about $1.8 trillion of value in the marketplace. One of the 
elements, certainly only one--there are many, many things going 
on--but everybody would agree that the economy has been 
sluggish, not where we want it to be and that one significant 
component of it that remains affected is tourism, travel, 
people aren't coming here from other countries. I hear this all 
over the nation--tourist places.
    People are scared, afraid of another act of terror in the 
United States, afraid of travel. The full measure of travel in 
our own country remains reduced. And you hear it all the way 
down the economic food chain--taxicab drivers, limousines, 
restaurants, theater, hotels, the people who do the linen for 
the hotels, the people who work at them--all the way through 
the economic food chain, America is impacted.
    And back in September, when we first addressed this issue, 
we knew we were not addressing just the issue of travel, or of, 
airline safety. We were addressing the restoration of 
confidence for the American people in our entire system.
    I regret to say that this spectacle of the leaders of our 
agencies, of our entire airport system, and, to whatever 
degree, the Congress--and I take issue with you, Mr. Secretary, 
that the Congress is responsible for not providing enough 
money, because Mr. Daniels clearly cut significantly from the 
supplemental, as we all know. If the issue were money, all we'd 
have to do is really put it in front of this Committee, and 
this Committee will take care of it in about ten minutes.
    The fact is that there is disarray, in my judgment. And the 
rhetoric of war is far outstripping the response or the results 
in this sector and in other sectors. It is incomprehensible to 
me that given the predicament of flying and what we are asking 
Americans and anybody who gets on an airplane to do with 
respect to baggage inspection, that we are not pushing this at 
the rate that it ought to be pushed.
    Now, I'm pleased to say that the CEO of the Massachusetts 
Port Authority, Craig Coy, will be testifying on the second 
panel. They've made enormous strides in turning MassPort around 
since September 11th. They've turned the bureaucracy around, 
and they've set some goals, and they're meeting them.
    As a result of that effort, Logan Airport is becoming a 
leader in aviation security, and I'm proud to say it has in 
place a plan that will achieve one-hundred percent screening of 
checked baggage by the year's end. And it's also becoming a 
laboratory for emerging security technology. So I think it's 
moving in the right direction, as are some other airports.
    But I regret to say that--you know, when you go to war, you 
go to war. Your purchasing procedures change. You accelerate. 
Your hiring procedures change. You mobilize. And what we're 
witnessing is, sort of, this incredible back-and-forth turf 
struggle, political struggle, confusion, lack of leadership, 
and our economy is going to suffer for it, and the American 
people are going to suffer for it, and I regret that 
enormously.
    So, Mr. Chairman, I think this is the appropriate time to 
have this hearing to measure whether we can do it. And may I 
say we're not measuring this, I think, unfairly. At Mr. Magaw's 
confirmation hearing and in subsequent public statements, the 
Administration itself said, ``We're on track.'' Deputy 
Secretary Jackson told this Committee, quote, ``Secretary 
Mineta has given us a simple mandate with regard to these 
deadlines. Let's figure out how to meet them, because they are 
not negotiable.'' Secretary Mineta himself offered similar 
statements as recently as May.
    So now the rhetoric is changing, as I think everybody is 
aware, and the TSA's ability to meet the deadline is in 
question. Well, I think we have to demand a plan, a clear plan, 
the money it takes, the time it takes, the people it will take, 
and a specific date by which we can expect one-hundred percent 
compliance. And I respectfully say to my colleagues, until we 
do that, I think we're not going to be meeting the full measure 
of responsibility with respect to the economy.
    Finally, with respect to the weapons, you know, I 
understand what our distinguished Chairman and my very, very 
good friend is saying. I understand that. And he's absolutely 
correct. If the doors are secure and there is a procedure, then 
you shouldn't need it. But there are all kinds of scenarios in 
airports and otherwise, even in the air, where who knows what 
may develop. If this gives greater confidence--and that's what 
we're really looking for here, is the question of confidence--
it's very hard to make the argument that a pilot with whom we 
entrust a hundred-million-dollar-plus aircraft and several 
hundred lives, the pilot, who is, in fact, in charge of 
managing what has been turned into a weapon previously and 
could ever, at any occasion, be a weapon again, that that 
plane, which is, in and of itself, we now know, a weapon, can't 
necessarily have a sidearm, which is also a weapon, for some 
contingency.
    And for those who argue that a properly trained pilot, many 
of whom have military experience and background, all of whom 
have enormous clearances and are supposed to be of the highest 
level of responsibility, can't be an adjunct to an air marshal 
or even to the police forces in an airport in order to deter 
whatever violence, as we saw recently in Los Angeles, some mad 
person might engage in. It's very hard to understand how we 
can't set up a protocol of use and training that doesn't meet 
that standard to maximize the confidence. Though I agree with 
my colleague, if the door is locked, that contingency ought to 
be taken care of, but who knows what other contingency may 
arise.
    So, Mr. Chairman, I hope we get this done. I think the 
American people are growing impatient, and the spectacle is not 
a pretty one.
    The Chairman. If we can shorten our opening statements, 
please, we have two distinguished colleagues waiting.
    Senator Burns?

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I'll keep mine very short, Mr. Chairman. I 
just want to thank you for holding this hearing today. 
Understanding the circumstances that surround this and, besides 
that, we can--maybe we can put to bed some of the 
misinformation that seems to swirl around this issue.
    Seventy-nine percent of the public support a voluntary 
program to arm pilots--79 percent. Fifty percent of those 
people said they'd be willing to pay up to $20 more to have 
armed pilots on the flight deck. And another 50 percent said 
they'd switch from their current airline to an airline that had 
pilots who had a deterrent on the flight deck. That's pretty 
overwhelming, when we start taking a look and seeing where our 
policy should be going.
    Many foreign pilots already carry weapons in the cockpit 
when they fly into the United States of America. We allow them 
to do it through an FAA regulation and bilateral agreements we 
have with those countries. S.2554 includes explicit 
indemnification language that exempts the airlines from any 
liability. Further, the cost to train a pilot is so much 
affordable than those costs to train--similar to those costs to 
train an air marshal. Furthermore, in the case of the air 
marshal forced to fire, an intruder trying to break into the 
cockpit, what is his target? What's behind that target? I would 
suggest probably the pilots.
    What about a double-door reconfiguration of aircraft that 
some would suggest? That is not happening, and I have my doubts 
whether it will happen on domestic flights in the United 
States. What will be the cost to the airline if required 
airlines to reconfigure their planes to a double door? What 
would be the cost of revenue to airlines if they had to reduce 
the number of seats on their aircraft? The consumer pays those 
costs, leading to higher airfares.
    Regarding the issue of hardening doors, Congress has 
allocated $25 million to harden aircraft doors. At 35,000 per 
aircraft in approximately 7,000 aircraft in the U.S., that's a 
total cost of nearly $250 million. We haven't allocated enough 
money. And we don't even have a hardened door yet. Testing 
prototypes has led to failure. Sure, we can harden the door, 
but we can still ram a food cart right through it, breaking it 
down--not only the door, but also the frame of the door.
    Now, we're only weeks away from the anniversary, and I 
think what will happen today, Mr. Chairman, both pro and con on 
this issue, we clear the air of some information, and logic 
then will take us to where we want to be as a Congress and also 
with the American people
    So I thank you today for this hearing. I appreciate it very 
much.
    The Chairman. Thank you.
    Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, for holding this 
hearing on aviation security. Many of the comments that have 
been made by you and others, regarding the ramp up of the TSA--
are appropriate.
    There are a couple of issues that I hope we'll address 
here--the problems of building a new agency and flexibility for 
different airports that have different security needs. Not 
every airport is the same. The airports in Missoula are 
different than Richmond, they're different than Dulles, and 
different than Dallas/Fort Worth, and I hope that we'll discuss 
that.
    Another issue that I hope that Secretary Mineta will 
address has to do with the question I asked--when we had a 
hearing on aviation security in this Committee back in May. I 
asked the Secretary about the situation at our nation's capital 
airport, Reagan National Airport and the operation of general 
aviation there. The Secretary assured this Committee that a 
plan would be announced by the end of that month. Again, that 
was May. We're still waiting for a plan. In fact, it's been 
stated that they'll not allow general aviation into Reagan 
National Airport. And I hope that--and I'm very eager to hear, 
about the plans from the Department of Transportation and the 
Transportation Security Administration to remedy this problem. 
I think it's inexcusable that a solution has not been 
identified to allow general aviation back at Reagan National 
Airport.
    On the other issue of this hearing, I look forward to 
listening to witnesses on the issue or arming of pilots. We 
have discussed a variety of different approaches for the last 
nine months. You, Mr. Chairman, and I are in complete agreement 
that the cockpits ought to be as secure as a vault. No one 
should be able to get in. Unfortunately, that is not the 
physical state of cockpits today.
    In the May hearing, then-secretary of the TSA--Under 
Secretary Magaw, when I asked him, ``Well, if the pilots on 
September 11th, had firearms, would that have done any good?'', 
he responded, ``Well, it could not have hurt.'' And then when 
asking him--``What use would it be in the future,'' he could 
not answer.
    But we have to use some common sense. Maybe they can't 
figure it out. While I think GAO reports may be relevant and 
useful, I don't think we really need to rely on GAO reports to 
try to quantify what we know would be beneficial.
    The bill that was introduced by Senators Burns and Smith 
addresses many of the concerns of pilot qualifications and the 
training in a variety of different matters that I think are 
very, very important. Indeed, I think probably the perfect 
world on all of this is that the federal government would 
withdraw its prohibition on pilots being armed with certain 
qualifications and training and so forth and then let the 
marketplace decide. I think the airlines that have pilots that 
are armed would get more customers, because I think more of the 
travelers--consumers--would feel safer.
    That's the ideal, but that's not what we have here. We have 
nothing other than the bill that Senator Burns and others have 
proposed. And not only does it, in my view, address all the 
qualifications, training, competence, and needs, it also 
addresses the concerns of the air carriers' liability, and it 
provides them a very strong shield in the event that the pilots 
have to use, as flight-deck officers, a firearm.
    So I'm very pleased to hear the testimony today. I've 
studied this issue very carefully, listened to people on it, 
and I would like to say, Mr. Chairman, and say this to Senators 
Burns and Smith, thank you for your leadership.
    And I want to sign on as a cosponsor to your bill, because 
I think we need to move forward in this commonsense matter to 
give the flying public greater assurances, and I think the 
pilots can have the training, can do the job, and it's a last 
line of defense that makes a great deal of sense, and I hope 
we'll move forward on that matter, as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I'm very pleased that we're having a hearing that is more 
comprehensive than the House approach has been. I think it is 
way out of line for the House to look at passing an extension 
of the deadlines when we need to address all of the issues of 
Transportation Security Administration.
    We passed a landmark bill, and we gave the Department of 
Transportation a monumental task. We need, through this 
hearing, to get a mid-year update to see what we need to do to 
refine the law, to address issues of concern. We need to hear 
from Secretary Mineta and Deputy Secretary Jackson about the 
problems so that we can address all of them in a comprehensive 
way.
    To suddenly say, in July, we're not going to have deadlines 
for inspecting checked bags, is slightly irresponsible. I think 
we need to ask, are we doing everything possible to screen 
every checked bag? And if it's not with a piece of equipment, 
then how are we going to backstop the lack of equipment?
    I think we should be trying to meet the deadline. If we 
need to prepare it a little, then we should address that in 
September, but now is not the time to do that.
    Second, what are we doing about cargo security? I think the 
top of the airplane is pretty darn safe. We've got more air 
marshals on flights. We've got a better cockpit configuration. 
Passengers are ready to report anything that is amiss and, if 
necessary, to take action. We have better screening, by and 
large, throughout our system. But I think the bottom of the 
aircraft needs to be addressed. So I want to pursue questions 
about cargo and the trusted traveler program. We have a lot 
left to do here.
    I commend Secretary Mineta for replacing the head of TSA. 
It is my understanding that he wasn't satisfied that we were 
making enough progress. That's exactly what you do if you don't 
think the head of an agency is being aggressive enough. And I 
was concerned that Mr. Magaw did not even think a trusted 
traveler program should be attempted. We must ensure safety and 
security, but, at the same time, we can make those lines move 
faster if we use common sense. And I think a trusted traveler 
program is common sense.
    So I thank you, Mr. Chairman, for holding the hearing. And 
mostly, Mr. Chairman, I would ask you if, when we have all of 
the information in this midcourse correction opportunity, that 
we would address it in a comprehensive way and not piecemeal 
and take out a deadline here and a deadline there. I think we 
need to address it in a comprehensive way.
    Thank you, Mr. Chairman.
    The Chairman. Very good.
    Senator Cleland?

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you, Mr. Chairman. I'm just sitting 
here thinking about the difference in intensity between when 
the Committee first met, right after September 11th, literally 
with the smell of war in the air. I can remember, just a few 
days after 9/11, the Committee held an important hearing that 
showed that the market value of the entire United States 
airline industry was little better than junk bonds. That is why 
I supported the $15 billion aid package to American airlines 
and the airline industry. I was willing to do whatever it took 
to increase security for our airline passengers, because I knew 
that was the only way to get people flying again, which, in 
turn, is one of the key ways of restoring our economic health.
    Now that I am concerned the smell of war has been replaced 
by bureaucracy and by what we used to call in Vietnam ``wait a 
minute vines.'' Wait a minute vines were always those things in 
the jungle that just held you up. Every time you turned around, 
there was one more wait a minute vine. And one of the things I 
think has challenged us over the last nine months is a series 
of wait a minute vines. Wait a minute, we don't have enough 
money. Wait a minute, we don't have the regulations in place. 
Wait a minute, we don't have the right person in charge. Wait a 
minute, wait a minute, wait a minute.
    The truth of the matter is, we're still at war. We still 
have many of the same people out there who came after us on 
September 11th. So I don't think we have time to wait a minute. 
I think the intensity that we felt that week after 9/11 ought 
to be present today, and we ought to do whatever it takes to 
restore security for our airline passengers. I think that's the 
only way we're going to get people back in the seats and get 
America in effect flying again, flying in the air and flying 
economically.
    So, Mr. Chairman, I'm here to support whatever it takes 
financially, legally, legislatively, to enhance the security of 
our airline passengers. And representing the busiest airport in 
the world, Hartsfield, and one of the major airline traffic 
carriers in the world, Delta, I think it is in our economic 
interest and our national security interest to do whatever it 
takes to get this ball moving and get away from the wait a 
minute vine.
    Thank you, Mr. Chairman.
    The Chairman. Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I think that security issues 
will always be more important than convenience issues, with 
respect to air travel, and if people feel air travel isn't safe 
and secure, they simply won't use it.
    At the same time, while there's a tension between security 
and convenience, if, ultimately, the security issues cause so 
much inconvenience, people won't fly either. I mean it--I 
landed at an airport on Monday of this week, and I think were 
about 500-plus people waiting in line to go through security. 
And you could see some of them were furious. That is something 
unusual that happened at that airport, but the line stretched 
way outside, and I'm sure a lot of people missed flights as a 
result of that. And I'd bet you a lot of those people are going 
to say, ``Well, if this is the way it's going to look at an 
airport, I ain't gonna be here very soon again.''
    But my point is, there is an urgency here--there's not 
question about that--an urgency with respect to security 
issues, and we ought to address it. I agree with Senator 
Hutchison, let's not talk about extending deadlines until we 
get down the road a ways and find out what we can do.
    And also there's a tension between dealing with things on 
an urgent basis and bureaucracy. Bureaucracy is not, by nature, 
fast. So I think it's really important for us. It's important 
for this industry and for the economy to get this right.
    Let me make one final point. I just want to say thank you, 
as well, to the DOT on one piece of information. You know, 
after 9/11, they put in place rules with parking lots and so 
on, and it was one-size-fits-all. And a 300-foot rule, for 
example, Mr. Chairman, on short-term parking? Well, 300-foot 
happened to take all the parking at Dickenson, North Dakota. I 
mean, that's a small airport with commuter flights.
    So we talked, and DOT made some adjustments and did the 
right thing. You know, they've worked their way through some of 
these things in a thoughtful way in certain areas, and I want 
to say thanks to the folks who had the common sense to do that, 
as well, because there's a lot to criticize, but there's also 
some things to say thanks for thinking through them in a 
thoughtful way.
    Thanks, The Chairman.
    The Chairman. Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman. Can I put my 
statement in the record? And I'd like to summarize.
    The Chairman. Go ahead.
    Senator Boxer. Thank you.
    I wanted to thank you so much, and Senator McCain, for this 
hearing and for you dedication to staying on this subject. It 
is so important, and it's always on the front of my mind.
    And we get closer to the anniversary of 9/11, and I do 
believe that air travel is safer than it's been in a very long 
time, but we have a long way to do. A long way to go. And this 
is not the time to slow down our efforts, to skip deadlines or 
anything else. We need to move forward.
    I'm going to quickly run through the issues of concern. I 
have strong doubts that the air marshal program is as robust as 
it should be. The number of air marshals is classified, but DOT 
must be held accountable on this issue.
    Senator McCain helped me write the provision in the law 
that says that air marshals shall be onboard all high-risk 
flights, with priority given to nonstop long-distance flights. 
There was a reason we wrote that, because those were the 
flights that were targeted by the terrorists. It was the heavy 
fuel load.
    And all I can say is that Senator Burns and I have been 
asking for a briefing on this issue for two full months, since 
the last hearing we had in May. The briefing wasn't scheduled 
until yesterday. And so I say to my Chairman and ranking 
member, thank you for this hearing, because I don't think we 
would have gotten it yet were it not for this hearing.
    Second, our checkpoint screening is still inadequate. On 
July 1, the press reported results of an investigation showing 
that checkpoint screeners at 32 of the nation's largest 
airports failed to detect weapons. Los Angeles and Sacramento 
Airports had failure rates of 41 and 40 percent, respectively. 
In other words, failure 40 percent of the time.
    I learned, when I called those airports, on the heels of 
that USA Today article, that they still had acting federal 
security chiefs. Now Los Angeles has a full-fledged director, 
and I'm very happy about that, but Sacramento does not, and 
this is not good.
    My call to that airport that day gave me little comfort. 
The federal head of security at that airport had to read about 
her airport's failure rate in the newspaper. She said she 
didn't even know that was the failure rate, and she was 
responsible for safety at that airport.
    There are still vulnerable spots at the airports, as 
Senator Kerry said. The breach of security at LAX ticket 
counter, at the El Al ticket counter, is a key example. If El 
Al Airlines, Mr. Chairman, didn't have two security guards who 
were armed at the site of the incident, the death toll would 
have been far more devastating.
    I wrote to Mr. Magaw that day, urging him to help local 
police provide security at these areas of our airport and to 
use the National Guard until that could happen. I never 
received a response to that letter, and there would good 
comments in the paper that this was going to be done, but I got 
an e-mail--when was it--did we get this?
    Staff Member: The following week.
    Senator Boxer.--the following week that said, no. No 
commitment was made. Nothing's been done about expanding 
security to the check-in counters.
    Fourth, the installation of baggage detection machines may 
not be completed. They must be completed, period.
    Fifth, our security system needs to provide protection 
against the use of fake IDs. I was troubled by a CBS news 
investigation that showed people getting through security with 
fake IDs. Mr. Chairman, the technology exists to fix this 
problem, and it needs to be used. It's cheap. It's easy. It 
must be used.
    Sixth, the crews of our airlines need to be prepared as the 
last line of defense against terrorist. Pilots need to know 
what's happening in the cabin in real time. That means a video 
camera in the cockpit so they know what's happening. It's like 
your rearview mirror. Flight attendants need wireless 
communication devices between the cabin and the cockpit. And 
pilots who are fully trained and volunteer should be part of a 
``guns in the cockpit'' program.
    This is something I feel very strongly about, because the 
military is under orders to shoot down a commercial flight if 
it is hijacked. We have a layer of defense in our aviation 
system, as Secretary Mineta has stated many times. Trained 
flight attendants and pilot marshals would be an essential 
layer, a last layer of defense.
    And I do agree with Senator Hutchison that a trusted flyer 
program should be on track. I myself have been frisked 15 
times. Now, I don't care. It's fine. But the bottom line is, 
it's a little bit of a waste of money for a five-foot-tall 
grandma senator. You know?
    [Laughter.]
    Senator Boxer. So there's got to be a way that we can 
concentrate on the bad actors.
    So we need to get a lot done. Let's get it done, and let's 
keep the pressure on, Mr. Chairman, because without you and 
Senator McCain keeping the pressure on with this Committee, I'm 
afraid we'll never have safe skies.
    Thank you.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Good morning. Mr. Chairman, after checkpoint screeners at airports 
in Los Angeles and Sacramento were ranked in the bottom five airports 
for high failure rates earlier this month, I sent you a letter 
requesting a hearing on aviation security--so we could get an update of 
the implementation of the Aviation and Transportation Security Act. I 
appreciate your holding this hearing.
    We are seven weeks away from the one year anniversary of the 
September 11 terrorist attacks on the World Trade Center and Pentagon. 
The terrorists hijacked four commercial jets--all of which were heading 
to California--and 39 Californians on board the planes died.
    As we get closer to that one year anniversary, I can say that air 
travel today is more secure than it was last September. But, it is not 
as secure as it could be. And, now is not the time to slow down or 
delay our efforts to increase and improve aviation security. The job is 
not done and it must be done.
    First, in my opinion, we still don't have enough air marshals on 
planes. I know the number of air marshals is classified for security 
reasons. However, that does not give DOT the right not to be 
accountable on this issue. I wrote the provision of the law that air 
marshals shall be on board all high risk flights, with priority given 
to non-stop, long-distance flights. Yet, Senator Burns and I have been 
asking for a briefing on this issue for two months--since the last 
hearing on aviation security in May. The briefing wasn't scheduled 
until yesterday. I can't monitor DOT's progress on this issue if I have 
to go through such as a hassle to get a briefing.
    Second, our checkpoint screening is still inadequate. On July 1, 
the press reported results of an investigation showing that checkpoint 
screeners at 32 of the nation's largest airports failed to detect 
weapons. Los Angeles and Sacramento airports had failure rates of 41 
and 40 percent, respectively. I learned when I called those airports 
that they still had acting federal security chiefs. Now, Los Angeles 
has a full fledged director, but Sacramento does not and this is not 
good. My call to that airport gave me little comfort. The federal head 
of security at that airport had to read about her airport's failure 
rate in the newspaper.
    Third, there are still vulnerable spots at our airports. The breach 
of security at a Los Angeles airport ticket counter earlier this month 
is a key example. If El Al Airlines did not have two security guards at 
the site of the incident, the death toll would have been far more 
devastating. I wrote to Mr. Magaw urging him to help local police 
provide security at these areas of our airport--and to use the National 
Guard until that could happen. I never received a response and as far 
as I can tell, no action has been taken by this Administration.
    Fourth, the installation of baggage detection machines may not be 
completed by the Congressionally mandated deadline of the end of this 
year. While DOT has met the deadline to screen all checked baggage 
either by bag-match, hand search, or bomb-sniffing dogs, we all know 
that bag matching will do nothing to prevent a suicide bomber. We need 
these machines, and the Administration needs to ensure that these 
baggage detection machines are in place by the deadline. Period.
    Fifth, our security system needs to provide protection against the 
use of fake IDs. I was troubled by a CBS news investigation that showed 
people getting through security with fake IDs. Therefore, I have 
introduced legislation to provide for training of airline personnel in 
the detection of fake IDs and to provide for the deployment of 
technology at airport security checkpoints. I hope the Committee can 
move my bill soon.
    Sixth, the crews of our airlines need to be prepared as the last 
line of defense against terrorists. Pilots need to know what's 
happening in the cabin in real time. Flight attendants need wireless 
communication devices between the cabin and the cockpit. And, pilots 
who are fully trained and volunteer should be part of a guns in the 
cockpit program. This is something I feel strongly about because the 
military is under orders to shoot down a commercial flight if it is 
hijacked. We have a layered defense in our aviation system. Trained 
pilot marshals would be an essential layer.
    I know that we have a lot to get done. We must fulfill our 
responsibility to the American people and the traveling public.
    Thank you, Mr. Chairman.

    The Chairman. Very good.
    Senator Smith?

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Gordon Smith. Thank you, Mr. Chairman.
    I must admit that I was leaning against the guns-in-the-
cockpit idea until, on a recent flight from Oregon to 
Washington, we were supposed to change planes in Chicago, we 
were deterred because of weather and sat on the ground for a 
long time, and I took occasion to go and speak with the pilots, 
and I asked them their opinion, because I truly have an open 
mind on this question. And even still, I do. But they said 
something I'll never forget. Senator Boxer just referred to it. 
It was that, ``Senator, there are armed pilots already, but 
they're armed with F-15s and F-16s. They have instructions to 
shoot us down if we can't control our airplanes. We'd rather 
take the first shot, if it comes to that.'' And I think that 
that's the logic that really is important to remember in this 
calculation. And I'm--I will admit I have some trepidation 
about this, but we're dealing in a whole new world here.
    And, finally, Mr. Chairman, I want to echo the thoughts 
that--of my colleagues who have expressed some concern about 
the efficiency of how we check in security. We need to spend 
the money. We need to do the scans. We need to take the steps 
that are necessary to improve efficiency, not sacrifice 
security, but improve efficiency, or we will continue to retard 
the tourist industry and the business of this nation in a way 
that we have, frankly, difficulty calculating.
    So I hope we will get on with that and keep the pressure 
up, and it's good to be here, and thank you, Mr. Chairman, for 
your attention to this issue.
    The Chairman. Very good.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I'm not going to make a 
speech. I just am looking forward to the uniformity that the 
department will insist on eventually in all of the 
magnetometers, for example. Every time I go through the 
magnetometer here at National, it never sets it off. But with 
the same clothes on when I go through the magnetometer at the 
Tallahassee Airport, it always set it off. In the Tampa 
Airport, it depends, I suppose, on the weather, because some 
days it'll set it off, and some days it doesn't. And so other 
passengers are having that same kind of experience, and it'll 
be good to have the uniformity.
    I would just mention in passing also, on the overall issue 
of airline safety, when we addressed this in our initial bill, 
we put, in this Committee, a provision that said foreign flight 
students would have background checks. When it got to 
conference, it was altered that foreign flight students only 
learning to fly aircraft of 12,500 pounds or more would have 
background checks. And if what we're trying to do is to get at 
the problem of the Mohammad Atta's, we need to change the law 
so that it is foreign flight students, on any kind of training, 
get background checks.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Ensign?

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman, and--for you and 
Senator McCain, for holding this hearing.
    Safety is very, very important. I think we all consider it 
paramount. But we have to do this in a way that, first of all, 
is reasonable. We've heard the deadlines. And if the deadlines 
could be met, physically, they should be met.
    And I'll give you an example, though. McCarron Airport, 
cannot--no matter what they do, they cannot, because if they 
have the machines there, they can't plug them in, because they 
are waiting for a power substation to be built that will not be 
online for at least three months, post-December 31st. So no 
matter what the airport does, they cannot use the machines.
    There are many other examples that we have around the 
country where there are problems. So having a--you know, 
keeping the pressure on, I think, is very, very important, but 
we also have to do it in a way that allows these things to be 
done to where they can be done. And sometimes taking a few 
extra months to do something and doing it right and doing it 
for the limited resources that we have--we do have--we don't 
have unlimited resources, so I think that we need to do it 
right.
    It was mentioned the efficiency, you know, in--and having 
the, you know, screening in a way with the trusted traveler 
program. I'm glad to see that hopefully we're going to be going 
toward that direction, because it is ridiculous--once again, 
when you have limited resources, if you can take 15 to 20 
percent of the people out of going through all of the security 
checks that the general flying public has to go through, that's 
efficient. That becomes more efficient, and it keeps those 
business travelers.
    Right now, if you're a business traveler, if you don't have 
to make that short haul between San Francisco and Los Angeles, 
you don't want to. You just don't want to. It's becoming--and 
when these--the December 31st deadline comes, it's going to be 
worse.
    I want--some of the other concerns that I have--the 40-40-
20 rule. McCarron Airport did a study that if that goes into 
effect, as is currently looking like it's going to, on Sunday 
and Thursday--not on Thanksgiving, not on Christmas, not on 
just the busy holidays, but every Thursday and Sunday are our 
two busy days in and out of Las Vegas. We are the second-
busiest airport in the country when it comes to baggage check. 
It's not like Dallas or Chicago, where a lot of through 
passengers--Las Vegas--Los Angeles is number one, Las Vegas is 
number two, the number of bags checked.
    Southwest Airlines--current, with no increases in passenger 
numbers, the average wait at the Southwest Airlines ticket 
counter is going to be four hours and 18 minutes every Sunday 
and every Thursday, with the--because of the 40-40-20 rules. 
It's going to cause such a backup. What is that going to do to 
our economy?
    And I want to propose something, because of what happened 
in Los Angeles. We're talking about security now. And you 
talked about now wanting security at the ticket counter. What 
we're going to do with this 40-40-20 rule is--on average, 
there's going to be two to three thousand people in the 
terminal now down at the ticket counter in Las Vegas. What 
happens when somebody now takes a backpack bomb or a suitcase 
bomb or an automatic weapon into that crowd? You've just 
created a security problem where we're going to lose more 
people than if they're blown up on an airplane.
    And that's what I'm saying, is we need to think about what 
we are doing here, overall. We can't just look at--you know, 
the flying public thinks of this airplane crashed in--and 
that's great television, and that scares the bejeebas out of 
everybody. But we have to think what the--how a terrorist 
thinks. A terrorist looks for the weakness in the system. Well, 
if you back everybody up at the ticket counter, you've just 
created another weakness in the system, and that's going to 
stop airline travel just as fast as crashing an airplane would.
    And that's why I think that we need to look at these 
things. We need to work with the TSA. Keep the pressure on, put 
the resources in. I agree. We need to put resources to make 
sure that you have plenty of people that check in people and 
get them through as efficiently as possible, because we want to 
have a balance with security, as Senator Smith talked about, 
and getting people through so that if people want to take a 
tourist trip or if they want to take a business trip, that it 
isn't a deterrent.
    You know, because if you have an--even an average of an 
hour wait--if you're taking a business trip, and I know I'm 
going to sit in security for an hour every time, that's going 
to be a deterrence against travel, Mr. Chairman.
    So thank you for holding this hearing, and let's make sure 
that we do this in a balanced way.
    The Chairman. All right, thank you.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. Thank you for 
holding this extremely critical hearing. It comes at a very 
significant time as we try to understand why we haven't been 
able to be as effective as we should be in implementing many of 
the enhancements to our aviation security program. Obviously, 
the status quo before September 11th is now history. And I 
don't think that we can ever think for a moment that we can 
relax our standards and/or our deadlines. I think it sends 
absolutely the wrong message.
    As it is, I think the American public are getting a mixed 
message. You know, we heard last year that the January 18th 
deadline could not be met on baggage match. The bureau was 
created, and the deadline was met. And I think that's 
essentially the same reaction here today, is that we have to 
send a message that we intend to meet those deadlines.
    It seems to me that it's incongruous, at a time in which we 
are proposing and will be voting on the first major 
reorganization in more than 50 years to create the Department 
of Homeland Security, to reorganize 160 agencies at 
approximately $40 billion, and we're saying somehow we can't 
meet these deadlines to uphold aviation security standards. We 
can't vacillate.
    I would hope that we will hear the can-do spirit here 
today, and I'm pleased that Secretary Mineta has selected 
Admiral Loy, because I do believe that he'll bring the same 
can-do organizational and managerial experience to this agency, 
as he did to the Coast Guard as commandant, because that's 
precisely what we will need.
    And what we'll also need is a plan, Mr. Chairman. We need a 
plan. We need to know how the Administration is going to 
approach the baggage screening and the federalizing of all of 
the major airports across this country by the precise deadlines 
that have been stated in law. We need a plan. Because, 
obviously, if there is no plan, it's going to be virtually 
impossible to meet those deadlines as each week passes by.
    So I would hope that, here today, we will hear precisely 
how the Administration intends to uphold these standards and 
how we can help. And, obviously, we have a responsibility, as 
well, to make sure that we're providing the--sufficient 
resources for the Administration, for the Secretary, for the 
Undersecretary of the Transportation Security Agency to meet 
their responsibilities and obligations. It's a failure on our 
part, as well, if we don't provide the necessary resources and 
the funding that's essential to keep them on track to meet the 
deadline.
    We can't continue to lose weeks and months, because the 
first deadline is rapidly approaching. So we have to help, 
consistent with the obligations of the statute that we enacted, 
to help the Secretary and the Undersecretary to meet their 
responsibilities under law.
    But I don't think that we can afford, as a nation, to send 
this inconsistent, vacillating message--we can and we can't, we 
don't know, it's going to be difficult--I mean, what kind of 
message does that send? I mean, time is not on our side. Time 
is our enemy. Time is our enemy. And this is a national 
imperative that requires a national urgency on the part of each 
and every one of us.
    So I think we all have to help, recognizing there are some 
challenges and hurdles to overcome, but that's why a plan is 
essential, to understand exactly what they are, what the time 
table is for manufacturing, the production of the screening 
machines. How can we get these in place? Where are the 
airports? Can they accommodate them? Are they prepared to 
accommodate them? The number of screeners that are essential, 
how are they going to begin to employ the thousands remaining, 
as required by statute, the thousands that are remaining, both 
on the checked baggage and also for security personnel at the 
airports?
    So we need to have a schedule and a program, because it's 
only in that way that we're going to meet our obligations. But 
I don't think that we can afford to take any chances by 
suggesting here today that we should relax our standards.
    Thank you, Mr. Chairman.
    The Chairman. Senator Fitzgerald?

            STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. I have no opening statement, Mr. 
Chairman, so we can--I'll spare everybody any more comments 
from us.
    Thank you.
    The Chairman. Thank you.
    Senator Murkowski, Senator Smith, we appreciate your 
patience, and we welcome you to the Committee.
    Senator Murkowski?

             STATEMENT OF HON. FRANK H. MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you very much, Mr. Chairman.
    I've listened carefully to the presentations by my 
colleagues, and one of the suggestions that came to mind for 
Senator Ensign is if those lines in Las Vegas are four hours, I 
suggest they move them over alongside the one-armed bandits, 
because that might offset some of the economic loss.
    [Laughter.]
    Senator Murkowski. Seriously, Mr. Chairman, I'm here 
specifically to talk about one issue, and that's the arming of 
pilots, and I join with Senator Smith. And I want to point out 
that we have to recognize that this is not necessarily the 
answer. But, by the same token, it is a significant contributor 
to responsible steps being taken from the standpoint of the 
lines of defense that are traditional in evaluating, if you 
will, the risk associated with riding on an aircraft.
    Before September 11th, I think we all had little flashbacks 
that we hoped there wasn't a mechanical problem--hoped there 
wasn't a pilot error, hoped there wasn't an accident of some 
kind. The exposure of terrorism was not in our mentality. It is 
now.
    And I think we have to recognize that we're going to 
continue to have a certain risk in any form of transportation, 
whether it is the train, the bus, or the airplane. You've got 
the mechanical, you've got the accident, you've got the 
terrorist. You can't reduce them all, so you have to keep a 
balance.
    And if this Congress thinks we're going to eliminate all 
the risks associated with terrorism and the exposure, we're 
wrong. We're not. We can reduce risk, but we can't eliminate 
it. That's just the practical reality.
    Now, the Chairman indicated his view relative to securing 
the cockpit. Last weekend, I flew about 8,000 miles, and I flew 
on three airlines. I flew on United, Northwest, and on Alaska. 
And when you're sitting there for six or seven hours, and you 
don't have much to do except read, you begin to take on little 
projects. And one of the projects I took on was the entry and 
exit into the cockpit and how the crew handled it. And it was 
different with every airline.
    One airline, with a Boeing, had taken it upon itself to 
basically arm its own doors. They took conventional doors and 
armed them with mesh and so forth. One of them had a procedure 
that when there was an entry and exit in and out of the 
cockpit, that the cart that goes up and down the aisles 
carrying beverages would block the entry door, with the two 
flight attendants. But there was an average of eight to twelve 
entries and exits during the six-hour flight. They were 
necessitated by providing the crew--the captain and the 
copilot--with food, and obviously relief, because there's no 
relief capabilities in the cockpit.
    So unless you redesign the aircraft, you're going to have a 
real problem with the idea of keeping that door closed through 
the entire flight. It simply is not a practical alternative the 
way aircraft are currently designed. I think we have to 
recognize that.
    Now, it seems to me that what has been presented here, from 
the standpoint of lines of defense, and the realization that 
the word out officially is if an aircraft is taken over by 
terrorists, the United States Air Force, the military, has a 
capability and the authority to shoot it down. Now, that's not 
necessarily, nor should it be, the first and last line of 
defense. You're going to find that cockpit crew fighting, under 
whatever circumstances exist, if that door is penetrated. But 
if you arm them, they at least have an opportunity to fight 
back.
    Now, all aircraft don't have sky marshals. Fewer have them 
than we think. They all carry guns. They're armed. Now, logic 
seems to dictate the reality that if you have a skyjacker that 
comes in and takes over your aircraft, and you have a marshal 
that has a gun, you have, obviously, the exposure for an event. 
What's the difference in that event occurring there and also 
having an additional backup in the cockpit? These pilots are 
trained. Most of them are former military. They know how to 
handle a pistol. They know the character associated with it.
    In my state, Mr. Chairman, all our bush aircraft carry, in 
either the luggage of the captain or in the cockpit, a sidearm. 
It's for a number of purposes--if their aircraft goes down in a 
wilderness area and so forth.
    But I have yet to hear one good reason not to arm the 
pilots. And, you know, the idea that we ought to do some other 
thing, is fine. But the question, I think, that we should 
resolve, is whether it's appropriate to arm the pilots. And I 
have yet to hear a good reason for the pilots not to have that 
additional capability, because, again, Mr. Chairman, if there 
is a break into that cockpit, people will fight. They'll fight, 
as they previously did in the hijacking. But give them an 
opportunity when they hear that door banging open. Because 
they're going to hear an entry. And then they will have an 
opportunity to react. That reaction in a trained individual, I 
think, could be a significant detriment.
    I thank you for the opportunity to be with you this 
morning. I wish you well on your deliberations.
    The Chairman. Thank you.
    Senator Smith?

                 STATEMENT OF HON. BOB SMITH, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Smith. Thank you very much, Mr. Chairman, for 
holding the hearing. I understand that my request for testimony 
from four expert witnesses was denied by the Committee, but I 
would like permission to submit written testimony on behalf of 
those four witnesses.
    The Chairman. Very good.
    Senator Smith. That would be Patricia Friend, the 
International President of the Association of Flight 
Attendants, Captain Tracy Price, the chairman of the Airline 
Pilots Security Alliance, Captain Phillip Buehl, chairman, 
Committee for the Armed Defense of the Cockpit, and Ellen 
Seracini, the wife of the late Captain Vic Seracini, who was 
the pilot on the United Flight 175 that crashed into tower 
two.*
---------------------------------------------------------------------------
    * The information referred to was not available at the time the 
hearing went to press.
---------------------------------------------------------------------------
    Senator Smith. Mr. Chairman, I would just make another 
request of you to allow Ellen Seracini to testify. It's a--
three or four minutes. She's come here at her own expense. 
She's lived through this personally. So, again, I would make an 
appeal to you to reconsider that request.
    The Chairman. Well, we'll look and see. We've got a lot of 
other witnesses. And as you have indicated, there are plenty 
more witnesses that want to be heard. The flight attendants, 
for example, have been left out, and we're possibly going to 
have another hearing. So I would indicate at this point that 
that's what she'll have to do, is appear at that hearing.
    Go right ahead.
    Senator Smith. Thank you, Mr. Chairman.
    I'm honored to testify here on behalf of the pilots, flight 
attendants, commercial airline passengers, and the American 
people who support the idea of arming pilots. They--the pilots 
and flight attendants and others are the experts, and their 
testimony will speak for itself.
    But I want to congratulate Senator Burns and Senator 
Murkowski, Senator Boxer and others for--particularly those 
three--for their leadership and cooperation as we work through 
some issues in trying to get legislation that we could--that we 
could move forward in an expeditious manner to get this 
situation taken care of before another tragedy occurs, and they 
have worked very hard with me in order to accomplish that.
    As you know, Mr. Chairman, the House passed, 
overwhelmingly, a bill, 310 to something, and the 
Administration now is beginning to change its mind, 
fortunately. The American people are overwhelmingly in support 
of it. Pilots are. Flight attendants are. And I appreciate the 
fact that you have held this hearing, and I would hope that you 
would allow for a markup of the bill so that we could deal with 
this quickly--or a bill, if not this particular one.
    I did speak with Ellen Seracini last week at a press 
conference, as did other senators--Senator Burns was there, and 
others--and her husband, Vic, supported, even before this 
incident, obviously, armed pilots in the cockpit. And some say, 
well, maybe had the pilots been armed on that day, we could 
have prevented this tragedy. And I don't know the answer to 
that, but I could ask this question for your consideration, 
``How could it have been any worse if they had been armed?''
    Our nation has suffered a great loss, and not only with the 
pilots, but thousands of people on the ground and the flight 
attendants, as well, and none of us want to see that happen 
again. And I know, obviously, you don't either. But our 
airline--armed pilots are the first line of deterrence and the 
last lien of defense. It's been said here--I'm not going to 
repeat all the comments, because they were all said very 
eloquently, but, in particular, the eloquence of, I believe, 
Senator Allen, when he talked--I'm sorry, maybe it was Senator 
Smith, who talked about the fact that we have to shoot down a 
commercial airliner. That is not a good option, believe me, and 
I would rather take my chances with a pilot.
    Once the pilot--once somebody breaches the cockpit, then 
there's a struggle, at best. And we need to know that anybody 
who comes through that door, or tries to come through that 
door, will be stopped. Now, some argue that less than lethal 
weapons are the answer. I would urge you to look at the tape 
that is--a five or six minute tape that has been prepared by 
the pilots, in terms of the effectiveness of stun guns and 
tazers as opposed to lethal weapons, and you will see that they 
are not the answer. They might be a supplement to a firearm, 
but they're not a replacement. And a firearm is truly the 
proper tool.
    And let me also say, on marshals--we can't go into the 
specifics of how many marshals are there, but obviously there 
are not marshals on every flight. And cockpit doors are not 
reinforced enough to block somebody from getting into the 
cockpit. We shouldn't be even thinking about taking another 
chance that something like this may happen again.
    So these pilots would be trained. Some are already trained. 
They will be trained, Mr. Chairman. And I believe the time is 
now to pass legislation to allow armed pilots in the cockpits 
before we have another incident turning an aircraft into a 
weapon of mass destruction.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Smith.
    And if there are not any further questions, Secretary 
Mineta, we appreciate your patience, and please come forward 
here with the Deputy Secretary Jackson and the administrator, 
Admiral Loy. I'm glad to see Admiral Loy with clothes on.
    [Laughter.]
    The Chairman. I usually see him uniform.
    Well, and Dr. Dillingham they had down there listed panel 
two, but--from the GAO--with the first panel.
    Secretary Mineta, I'll take my text from Senator Cleland, 
``whatever it takes.'' That's the hearing we're having. We're 
all on the same team, and you've found and listened now for the 
past hour about all the flaws that we have, as 17 senators have 
testified, let's hear your testimony and complete the thought, 
``What do you need?'' Tell this Committee, because we haven't 
heard about any needs. We've heard that everything was on 
course, ``We're on schedule. We're going to comply with 
deadlines.'' Now, the ox is in the ditch and we're behind the 
curve, so tell us what you need.

        STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY, 
         DEPARTMENT OF TRANSPORTATION, ACCOMPANIED BY: 
      MICHAEL P. JACKSON, DEPUTY SECRETARY, DEPARTMENT OF 
           TRANSPORTATION, AND ADMIRAL JAMES M. LOY, 
         ACTING UNDER SECRETARY OF TRANSPORTATION FOR 
                            SECURITY

    Secretary Mineta. Thank you very much, Mr. Chairman, for 
holding this hearing. And good morning to you, Mr. Chairman, as 
well as Senator McCain and all the members of the Committee.
    With me today is Deputy Secretary Michael Jackson and 
Acting Under Secretary of Transportation for Security, James M. 
Loy. Today Jim Loy makes his first appearance before the Senate 
as acting head of the Transportation Security Administration, 
which everyone has come to know as TSA. I know that you have 
had the pleasure of working with Jim in his previous position 
as Commandant of the United States Coast Guard. He is an 
outstanding manager with impeccable credentials in security, 
intelligence, law enforcement, and customer service. He has 
deep operational skills and leadership focus. This is his first 
week as acting undersecretary, so I would ask that you welcome 
him to this large task.
    This testimony is an opportunity to provide a status report 
on our work, to build the TSA and to meet the vital objectives 
that Congress set out for this new agency some eight months 
ago. TSA's every step has appropriately been the focus of 
intense scrutiny.
    Now, there is a great deal of concern expressed in various 
quarters about the difficulty of federalizing security at the 
nation's 429 commercial airports. Some are urging Congress to 
revise its mandated deadlines, which were spelled out in detail 
last fall in the Aviation and Transportation Security Act 
legislation. Others seek earmarks or payments of non-federal 
security costs that distract from TSA's core missions.
    The Department of Transportation willingly took on the 
responsibility to implement that law and its ambitious time 
tables. I recruited a superb team that has met literally every 
single one of the many tough congressional deadlines to this 
point, tasks that in normal times would have been the work of 
years of preparation. We have made tremendous progress, but 
there is much more to accomplish.
    Now, my full text of prepared remarks summarizes details of 
how we are standing up the TSA to meet the mandates set by 
Congress. We shouldered this task with enthusiasm for an 
important reason. We are at war against remorseless, 
determined, well-trained terrorists who seek to attack and 
seriously damage our nation and our people. Without doubt, this 
threat has not abated. Just the opposite. The threat is real. 
The war is real.
    So the questions that we meet here today to discuss are 
profoundly important. President Bush has rightly urged the 
American people to return to life as normal. He has encouraged 
us to vacation with our loved ones, to conduct business as 
usual, not to be covered by the evil ones. But make no mistake, 
the TSA employees we are recruiting and training nationwide are 
front-line troops in the war against terrorism.
    Unlike the military troops that our nation sent to meet 
this challenge abroad, at home we began TSA's deployment with a 
blank slate and a clear command, ``Get the job done, and do it 
this year. No excuses.'' And again, we accepted that mandate 
willingly, because I am briefed and read the intelligence 
reports on a daily basis, and I know that the threat is real.
    Today, I will discuss TSA's challenges, seek your counsel, 
report to you what we're doing, and tell you what's working and 
what needs improving. The entire Department of Transportation 
has been focused relentlessly on meeting the ambitious 
deadlines and important mission established by Congress for the 
Transportation Security Administration. We have made tremendous 
progress, and we now have private-sector partners at work with 
us at over 300 airports.
    But the delay in approving emergency funding, the fact that 
the President's emergency request has been cut by one third, 
and the numerous new restrictions imposed on TSA have 
dramatically undermined our ability to meet this goal. And let 
me explain why.
    Four months ago, President Bush asked Congress to approved 
a $4.4 billion emergency supplemental to stand up this new 
agency. Now, I recognize that's a lot of money, but that should 
not be surprising, because the mandates set out in the ATSA 
legislation are ambitious. And we set out to work in good 
faith, launching the massive effort required to meet the 
statutory plan, and we waited for the funding through May and 
June and now July. In the meantime, TSA borrowed money, 
renegotiated payment schedules with our vendors, deferred 
purchase of explosive-detection equipment, and set back the 
pilot testing of various security measures. Now TSA is 
literally days away from running out of money to pay for the 
ongoing work of screeners nationwide.
    Now, we expected active congressional oversight, but we 
also needed Congress' support to fund TSA and to do it in a 
timely manner. The Administration's emergency supplemental 
request was the amount that we needed to do the job--no more, 
no less. Yesterday, Congress voted to cut $1 billion from the 
$4.4 billion requested by President Bush, and then to impose 
new restrictions on our ability to get the job done.
    Here are the five facts about the emergency-supplemental 
conference report. First, it eliminated $550 million right off 
the top. Second, it places $480 million in a so-called 
contingency fund that may not be available to TSA. Third, it 
imposes $445 million in numerous earmarks not requested, nor 
supported, by the Administration. Fourth, it limits the total 
number of full-time TSA employees to 45,000, at least 20,000 
employees short of what TSA needs to meet its statutory 
mission. And, finally, report language severely restricts our 
discretionary authority to manage TSA expenses in a cost-
effective manner. In short, TSA's budget was cut by at least $1 
billion, and possibly up to $1.5 billion, and this is a 
whopping 34 percent cut from the President's request.
    Now, here's the dilemma that Congress has created. Congress 
has not changed TSA's mission, the budget to do the job has 
been radically diminished while new restrictions and mandates 
are being imposed. There are a number of voices in Congress 
calling for more resources or less, maintaining current law or 
seeking flexibility and change in the present law.
    What can be done? The amount of money Congress has approved 
simply will not support the mandates and the timetables for 
aviation security that Congress set last fall for TSA. Less 
money with no flexibility means fewer TSA employees, less 
equipment, longer lines at the airports, delays in reducing the 
hassle factor at airports, and/or diminished security at our 
nation's airports. These conflicting signals have forced us to 
regroup and revise the TSA business plan. And to complete that 
task will probably take several more weeks. It will involve 
complex negotiations with our contractors and vendors and a 
review of literally thousands of TSA commitments and plans.
    We need adequate funds now to continue fighting the war on 
terrorism and protecting the homeland. After the TSA 
reevaluates and revises its business plan to reflect the impact 
of the supplemental funding level, the Administration will 
propose a significant budget amendment for fiscal year 2003 for 
TSA. And even if approved, we are still confronted, however, 
with a load that TSA cannot lift. Such funds will not arrive 
prior to our having to make immediate changes to our existing 
deployment schedule. Congress has given us a strict and 
inflexible mandate and insufficient funds to meet it.
    Now, I want to reiterate that we are not asking for a free 
pass from rigorous oversight or criticism. That is expected. 
Nor am I telling you that everything is perfect. Everything is 
not tidy, but it is unreasonable to expect, from a massive 
standup, the same type of certainty and stability that is 
usually found in long-established programs.
    I have been blunt today about the dilemma that TSA now 
faces, but the circumstances demand no less. I know how 
difficult your job is, and I understand the competing pressures 
all of you face in making sound public policy. And, as a former 
member, I come before you as one who loves this great 
institution, the Congress of the United States. I am a lifelong 
Democrat proudly serving an outstanding Republican President.
    I close with this simple message. There are literally 
thousands of committed TSA employees working furiously to 
improve transportation security. Please support them in their 
mission. Restore the money and allow us the discretion to 
complete our work effectively. Give us the tools and the 
flexibility that we need to build this young organization. We 
will then be able to hand off to a new Department of Homeland 
Security, led by a Cabinet colleague, who, like me, will 
continue to work with you to strengthen the Transportation 
Security Administration.
    Mr. Chairman, I ask unanimous consent to submit my full 
statement for the record.
    The Chairman. It'll be included in the record.
    [The prepared statement of Secretary Mineta follows:]

 Prepared Statement of Hon. Norman Y. Mineta, Secretary, Department of 
 Transportation, accompanied by: Michael P. Jackson, Deputy Secretary, 
 Department of Transportation, and Admiral James M. Loy, Acting Under 
                Secretary of Transportation for Security
    Good morning Mr. Chairman, Senator McCain, and Members of the 
Committee. With me today are Deputy Secretary Michael Jackson and 
Acting Under Secretary James Loy.
    Today Jim Loy makes his first appearance before the Senate as the 
Acting head of the Transportation Security Administration (TSA). I know 
that you have had the pleasure of working with Jim in his previous 
position as Commandant of the Coast Guard. He is an outstanding 
manager, with impeccable credentials in security, intelligence, law 
enforcement and customer service. He has deep operational skills and 
leadership focus. This is his first week as Acting Under Secretary so I 
would ask that you welcome him to this large task.
    This testimony is an opportunity to provide a status report on our 
work to build the TSA and meet the vital objectives that Congress set 
out for this new agency just over eight months ago. TSA's every step 
has, appropriately, been the focus of intense scrutiny.
    There is a great deal of concern expressed in various quarters 
about the difficulty of federalizing security at the nation's 
commercial airports. Some are urging Congress to revise its mandated 
deadlines, which were spelled out in detail last Fall in the TSA 
legislation. Others seek earmarks or payments of non-federal security 
costs that distract from TSA's core mission.
    The Department of Transportation willingly took on the 
responsibility to implement that law and its ambitious timetables. I 
recruited a superb team that has met literally every single one of the 
many tough Congressional deadlines to this point--tasks that in normal 
times would have been the work of years of preparation. We have made 
tremendous progress. There is much more to accomplish.
    We shouldered this task with enthusiasm for an important reason: we 
are at war against determined, well-trained terrorists who seek to 
attack and seriously damage our nation and its people. Without doubt, 
this threat has not abated. Just the opposite. The threat is real; the 
war is real. So the questions we meet here today to discuss are 
profoundly important.
    President Bush has rightly urged the American people to return to 
life as normal. He has encouraged us to vacation with our loved ones to 
conduct business as usual, not to be cowered by the evil ones. But make 
no mistake, the TSA employees we are recruiting and training nationwide 
are frontline troops in the war against terrorism.
    Unlike the military troops that our nation sent to meet this 
challenge abroad, at home we began TSA's deployment with a blank slate 
and a clear command: get the job done, and do it this year. No excuses. 
Again, we accepted that mandate willingly, because I have read the 
intelligence reports, I know the threat is very real.
    Today I will discuss TSA's challenges, seek your counsel, report to 
you on what is working, and tell you what needs improving. The entire 
DOT has been focused relentlessly on meeting the ambitious deadlines 
and important mission established by Congress for TSA. We have made 
tremendous progress and we now have private sector partners at work 
with us at over 300 airports.
    But the delay in approving emergency funding, the fact that the 
President's emergency request has been cut by one-third and the 
numerous new restrictions imposed on TSA have dramatically undermined 
our ability to meet this goal.
    Let me explain why. Four months ago, President Bush asked Congress 
to approve a $4.4 billion Emergency Supplemental to stand up this new 
agency. That is a lot of money, but that should not be surprising 
because the mandates set out in the TSA legislation are ambitious.
    We set to work in good faith, launching the massive effort required 
to meet the statutory plan. We waited for the funding through May, 
June, and now July.
    In the meantime, TSA borrowed money, renegotiated payment schedules 
with our vendors, deferred purchase of explosive detection equipment, 
and set back the pilot testing of various security measures. Now TSA is 
literally days away from running out of money to pay for the ongoing 
work of screeners nationwide. We expected active Congressional 
oversight, but we also needed your support to fund TSA, and to do it in 
a timely manner.
    The Administration's Emergency Supplemental request was the amount 
we needed to do the job. No more, no less. Yesterday, Congress voted to 
cut $1 billion from the $4.4 billion requested by President Bush and to 
impose new restrictions on our ability to get the job done. Here are 
five facts about the Emergency Supplemental Conference report:

  <bullet>  First, it eliminates $550 million off the top;

  <bullet>  Second, it sets aside $480 million in a so-called 
        contingency fund that may not be available to TSA;

  <bullet>  Third, it imposes $445 million in numerous earmarks not 
        requested or supported by the Administration;

  <bullet>  Fourth, it limits the total number of full-time TSA 
        employees to 45,000--at least 20,000 employees short of what 
        TSA needs to meet its statutory mission; and

  <bullet>  Finally, report language severely restricts my 
        discretionary authority to manage TSA expenses in a cost-
        effective manner.

    In short: TSA's budget was cut by at least $1 billion, possibly up 
to $1.5 billion. That is a whopping 34 percent cut from the President's 
request.
    Here is the dilemma Congress has created. You have not yet changed 
TSA's mission, yet the budget to do the job has been radically 
diminished while new restrictions and mandates are being imposed. There 
are a number of voices in Congress calling for more resources, or less; 
maintaining current law, or seeking flexibility in the law.
    What can be done? The amount of money Congress has approved simply 
will not support the mandates and timetables for aviation security that 
Congress set last Fall for TSA.
    Less money with no flexibility means fewer TSA employees, less 
equipment, longer lines, delay in reducing the hassle factor at 
airports, and/or diminished security at our nation's airports. Frankly 
these conflicting signals sent by Congress have forced us to regroup 
and revise the TSA business plan. That will likely take several more 
weeks. It will involve complex negotiations, and a review of literally 
thousands of TSA commitments and plans.
    We need adequate funds now to continue fighting the war on 
terrorism and protecting the homeland. After the TSA reevaluates and 
revises its business plan to reflect the impact of the supplemental 
funding level, the Administration will propose a significant budget 
amendment for FY 2003 for TSA. Even if approved, however, we are 
confronted with a load TSA cannot lift. Such funds will not arrive 
prior to our having to make immediate changes to our existing 
deployment schedule.

    Congress has given us a strict and inflexible mandate, and 
insufficient funds to meet it.

    TSA was poised for achieving tremendous success. We are managing 
two massive roles simultaneously. First, in February, we assumed 
responsibility for the contract screeners formerly employed by the 
airlines. We integrated over 1,000 FAA security employees into the new 
TSA organization. In the short term, TSA has significantly strengthened 
these existing security systems with new tools and techniques. TSA is, 
in other words, maintaining and improving the existing security system 
while we systematically disassemble it.
    Second, we are building from scratch an entirely new transportation 
security organization to support core security tasks at 429 airports 
nationwide. Today we are eight months into implementation, four months 
from the one-year deadline for full Federal staffing of checkpoints, 
and a little over five months from the deadline for installation of 
explosive detection systems. My message to the DOT team has been 
consistent and clear: we will do what it takes to meet all the 
deadlines Congress set in the Act.
    We have set up an unprecedented public-private partnership that is 
supported by comprehensive services from three major contractors each 
of whom is required contractually to complete their work by the 
statutory deadlines--provided we have enough money to pay them. You are 
going to hear from some of these colleagues later today. Our airport 
rollout began in earnest within the last month with these firms being 
deployed nationwide.
    Screener hiring. We have contracted with NCS Pearson to recruit, 
assess and hire about 55,000 passenger and baggage screeners at 429 
airports. By the end of this week, we will have posted job vacancy 
announcements for every airport in the country, and will soon receive 
our one-millionth inquiry for employment with TSA. We have received 
more than half a million applications, and completed the hiring process 
for more than 6,500 screeners so far. By mid-August, we planned to be 
hiring over 4,000 new screeners per week.
    Screener training. We have developed a world-class training program 
with the assistance of the Federal Law Enforcement Training Center and 
leaders from the private sector. This program, which includes 40 hours 
of classroom training and 60 hours of on-the-job training, is being 
delivered by instructors from Lockheed Martin for passenger screeners, 
and by Boeing for baggage screeners. We have ramped up to train more 
than 5,000 screeners per week.
    Overall project coordination and checkpoint re-design. Lockheed 
Martin will upgrade screening checkpoints based on the model we tested 
successfully at Pier C at BWI, a model that significantly decreases 
wait times and prevents costly terminal evacuations. Lockheed is 
already in place in about 250 airports. Their team has built a 
sophisticated, automated system to track over 185,000 discreet tasks at 
the 429 airports.
    EDS installation. Boeing engineers are assessing airport facilities 
submitting design plans, and will soon undertake needed construction. 
As you have heard from your airport constituents, many of these 
projects are complex, though absolutely necessary to meet the 
requirements of the law. Boeing is already at work in about 150 
airports. With this deployment, we are also implementing a four-part 
plan to reduce the hassle factor of airport travel. It includes steps 
to end gate screening, and new tools to identify selectees more 
intelligently.
    I am confident that, with funding, these plans would have enabled 
us to complete the job you gave us. Now much of the program I've just 
described will have to be thoroughly reevaluated in the next few weeks.

    I want to reiterate that we are not asking for a free pass from 
rigorous oversight or criticism--that is expected. Nor am I telling you 
that everything is perfect. Everything is not tidy, but it is 
unreasonable to expect from a massive stand-up the same type of 
certainty and stability found in long-established programs.
    I have been blunt today about the dilemma TSA now faces but the 
circumstances demand no less. I know how difficult your job is, and 
understand the competing pressures each of you faces in making sound 
policy.
    As a former Member, I come before you as one who loves this great 
institution--the Congress of the United States. I am a lifelong 
Democrat proudly serving an outstanding Republican President.
    I close with a simple message. There are literally thousands of 
committed TSA employees working furiously to improve transportation 
security. Please support them and their mission.
    Restore the money and allow us the discretion to complete our 
security work effectively. Give me the tools and flexibility we need to 
build this young organization. We will then be able to hand it off to a 
new Homeland Security Department, led by a Cabinet colleague who, like 
me, will continue to work with you to strengthen TSA.

    The Chairman. We thank you and----
    Secretary Mineta. And I'm happy to respond to your 
questions.
    The Chairman. Good.
    Secretary Jackson, do you have a statement?
    Mr. Jackson. No, sir, I do not.
    The Chairman. How about Secretary Loy?
    Admiral Loy. No, sir, I do not.
    The Chairman. And--all right. I'm trying to find--since we 
say that it's whatever it takes----
    What about Dr. Dillingham? He doesn't have any statement 
right now.
    [Laughter.]
    The Chairman. Whatever it takes--we want to get on and get 
this $1 billion shy that you're talking about, Mr. Secretary, 
and I'm trying to find out from this staff behind me--by gosh, 
they have 480 and all of these other darn figures--are you 
telling the truth on--or, to put it more politely, are you 
accurate or inaccurate on this thing? Because you asked for 
4.4, and the actual figure was 4.95 that the Transportation 
Committee approved as of yesterday. We don't want to get along 
with this here flexibility.
    You haven't justified flexibility. We find needs at the 
airport. We're--other needs and everything else. So this 
Committee is not going along with flexibility. If you justify a 
request, we're going to give it to you. But we're not going 
along with this nebulous--just tell us what you need. That's 
what I want to know. And have you got the figures now, or not?
    Staff Member: I do.
    The Chairman. What?
    Staff Member: They got $3.85 billion.
    The Chairman. You got $3.85 billion. Go ahead.
    That's right. That cut was from the request by Mitch 
Daniels. I suggest you talk to the OMB crowd.
    Secretary Mineta. Well, with all due respect, Mr. 
Chairman----
    The Chairman. Yeah?
    Secretary Mineta.--Mr. Daniels doesn't vote on these 
numbers. It's the Congress. And----
    The Chairman. Well, he carries--if you've been in the 
Congress, for lord's sakes, don't give us that stuff. He says 
the President's going to veto it unless you cut it. You know 
good and well how these markups in conferences work. You've 
been in the Congress--don't tell me he doesn't vote. He's got 
the best vote at the table. He's got the President's vote.
    So that was cut. And then they put in 445 earmarked funds 
all for security, so that was--1 billion. But you put in the 
480 contingency, so you--you want to still contend that you are 
a billion shy. Is that correct?
    Secretary Mineta. Yes, sir. Again, the $480 million 
contingency is not available to us unless the President 
exercises the $5.1 billion total contingency fund. So, to me--
I'm not going to count the $480 million. You know, it's like 
what little I have at home to spend. And if it ain't there, I 
can't spend it.
    And so, again, in terms of trying to be responsible in our 
stewardship of public funds, I cannot commit on the $480 
million and even if I do, the $480 million will still not 
handle the $445 million in earmarks that are in the 
appropriations bill.
    The Chairman. Well, let's say you've got 4.95. That's what 
the Transportation Committee----
    Secretary Mineta. No, sir.
    The Chairman.--marked up. And you need 5.95? Is that what 
you're----
    Secretary Mineta. The 4.95, I believe, might have been what 
was done yesterday.
    The Chairman. Right.
    Secretary Mineta. It's the fiscal year 2003 appropriations 
level, not the fiscal year 2002 supplemental number.
    The Chairman. So the 2002 supplemental needs how much 
money?
    Secretary Mineta. Four-point-four billion is what we 
requested.
    The Chairman. Well, how much more than--actually, the 
President's going to sign the supplemental today. We passed it 
yesterday. So how much more do you need? That supplemental 
provides--how much did it provide?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman?
    The Chairman.--3.85.
    Senator Stevens. Mr. Chairman?
    The Chairman. Yeah?
    Senator Stevens. But he has 30 days to sign the declaration 
of emergency. The money's not available until he signs----
    The Chairman. Well, I'm just trying to find out for the 
Committee just how much we've got to get for him. I mean, the 
gentleman says he's been cut.
    Secretary Mineta. But, again, Mr. Chairman, the 3.895 
figure is the 4.4 billion figure, less the $550 million that 
the Committee took off the top. And then they, as I say, 
earmarked an additional $445 million, and the $445 million is 
still taken from what we needed from TSA other things. We did 
not ask for the $445 million in earmarks.
    As an example, the $231 million for airport security or the 
$125 million in port security funds, and there are a number of 
other items. Those are important items, but they're--it takes 
away from the $4.4 billion that we had requested originally 
that were earmarked for things to make sure that we were going 
to be able to comply with the November 19th date and the 
December 31 date.
    The Chairman. Let me yield to Senator McCain.
    Senator McCain. Mr. Chairman, could I ask, did Dr. 
Dillingham have an opening statement? Doctor, did you have an 
opening statement?
    Dr. Dillingham. Yes, sir.
    Senator McCain. Mr. Chairman, could we----
    The Chairman. Go right ahead. I thought you all came up as 
assistants to the Secretary. I'm trying to move the hearing 
along. Let's hear you.
    [Laughter.]

 STATEMENT OF GERALD L. DILLINGHAM, Ph.D., DIRECTOR, PHYSICAL 
                INFRASTRUCTURE ISSUES, GENERAL 
                       ACCOUNTING OFFICE

    Dr. Dillingham. Thank you, Mr. Chairman, Senator McCain, 
and Members of the Committee.
    I'm pleased to be here this morning to provide testimony on 
behalf of the General Accounting Office. My testimony is based 
on our aviation security work that took place prior to and 
immediately following 9/11 and our ongoing work for this 
Committee.
    I will be focusing on three areas. First, what has been 
accomplished since 9/11? Second, what remains to be done to 
strengthen transportation security? And, third, the challenges 
and opportunities that TSA faces as we move forward.
    Before offering my observations, I want to begin by 
acknowledging the tremendous task that TSA and its employees 
faced. Within a year, they would have to go from being 
nonexistent to a fully functioning agency with tens of 
thousands of employees charged with protecting the security of 
the American traveling public. To accomplish all this in the 
mandated time frames is an unprecedented undertaking. While 
there certainly have been frustrations, the efforts of the DOT 
TSA team are commendable.
    Secretary Mineta has just referred to some of the TSA 
accomplishments. We certainly agree that TSA has made progress 
in meeting some of the deadlines mandated by the act to improve 
security. It is also the case that TSA's initial difficulties 
in hiring and training passenger screeners and providing for 
the screening of checked bags with explosive-detection 
equipment could make it extremely difficult to meet two key 
deadlines by the end of the year.
    TSA's experience with hiring passenger screeners at 
Baltimore-Washington International Airport may be a preview of 
things to come. In that case, not as many people showed up for 
the job as was expected. Only about a third of the applicants 
who had passed the initial screening and who were scheduled for 
pre-hiring assessments reported for that assessment. And of 
those who reported, only about a third passed the assessment. 
As it currently stands, TSA will need to hire and train about 
7,600 screeners per month to staff the commercial airports with 
federal employees by the November 19th deadline.
    In addition, assuming that enough EDS equipment can be 
manufactured, purchased, and deployed to the airports, hiring 
and training the estimated 20- to 30,000 checked baggage 
screeners before the December 31st deadline may be very 
difficult.
    In the area of what remains to be done, perhaps the most 
critical is the enhancement of systems for gathering, 
processing, and using intelligence information. This will 
require TSA to work with other agencies to identify potential 
threats before they reach the airport, before they reach the 
screener checkpoints, and certainly before they board aircraft.
    Another critical security vulnerability is the cargo 
carried by passenger aircraft. Twenty-two percent of all cargo 
loaded in the United States in the year 2000 was carried by 
passenger flights. Following Senator Hutchison, logic suggests 
that there is little point to carefully screening every piece 
of luggage if the cargo placed aboard the same flight is not 
inspected.
    General aviation has also been identified as a potential 
threat area. General aviation includes more than 200,000 small, 
privately owned planes, which are located in every state at 
almost 18,000 airports. There are only a few new guidelines 
related to general aviation. This leaves general aviation far 
more open and potentially vulnerable than the commercial 
sector.
    Additionally, the undersecretary has discretion with regard 
to such matters as how to further secure the cockpit, including 
whether commercial pilots should be armed. These are now 
subjects of pending legislation.
    In the longer term, TSA's challenges include meeting the 
responsibility for all modes of transportation and addressing 
some government-wide challenges. And although TSA is 
responsible for security in all modes of transportation, it has 
initially focused primarily on strengthening certain aspects of 
the aviation security system. And because of the push to meet 
critical aviation security deadlines, TSA has not yet assumed 
full responsibility for the security of other modes of 
transportation.
    TSA also has an opportunity to set a government-wide 
standard by establishing an organizational culture where the 
focus is on performance at every turn. The act requires the 
undersecretary to establish a results-based management system 
that sets measurable goals and standards. Ultimately, by 
measuring performance in such a way, the undersecretary would 
be able to quickly spot any problems TSA would have in carrying 
out its mission. This would reduce the chance that terrorists 
could exploit weaknesses at any point in the system.
    Mr. Chairman, in the final analysis, if the question were 
asked today, ``Is air travel more secure than it was on 9/11?'' 
I would answer yes, with a ``but.'' The fundamental long-term 
challenge is when this Committee holds future hearings on the 
subject. We hope that the answer to the question would be a 
simple and emphatic yes, with no ifs, ands, or buts.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Dillingham follows:]

 Prepared Statement of Gerald L. Dillingham, Ph.D., Director, Physical 
            Infrastructure Issues, General Accounting Office

    Mr. Chairman and Members of the Committee:

    Nearly a year has passed since the terrorist attacks of September 
11 turned commercial aircraft into missiles, killing thousands of 
people, destroying billions of dollars' worth of property, and 
realigning our national priorities. With these attacks, the safety and 
security of the nation's civil aviation system assumed greater 
importance, and efforts to strengthen the system were the subject of 
much congressional attention. Through dozens of reports and testimonies 
published since the early 1990s (see app. I), we have contributed to 
the national discussion on aviation security and to the reforms enacted 
last November in the Aviation and Transportation Security Act (the 
act).\1\ Among these reforms was the creation of the Transportation 
Security Administration (TSA), which was assigned responsibility for 
security in aviation and other modes of transportation. The act also 
set forth deadlines by which TSA was to implement specific improvements 
to aviation security.
---------------------------------------------------------------------------
    \1\ P.L. 107-71, November 19, 2001.
---------------------------------------------------------------------------
    We are pleased to be here today to discuss TSA's progress in 
enhancing aviation security and in implementing the act's provisions 
for addressing security weaknesses in aviation and other modes of 
transportation. Our testimony, which is based on our prior work as well 
as our ongoing work for this Committee, includes observations about (1) 
what TSA has done since September 11 to strengthen aviation security, 
(2) what immediate challenges TSA faces to strengthen transportation 
security, and (3) what longer-term challenges TSA can anticipate as it 
organizes itself to enhance security in all modes of transportation.

    In summary:

  <bullet>  Since September 11, TSA has assumed responsibility for 
        aviation security and focused on meeting congressionally 
        mandated deadlines for strengthening aviation security. TSA's 
        accomplishments to date include developing plans and 
        implementing procedures for using federal workers to conduct 
        security screening at 429 commercial airports; hiring and 
        beginning to train almost 4,000 key security personnel; and 
        implementing more rigorous background checks of employees with 
        access to secure areas of airports. TSA faces an extraordinary 
        challenge in hiring and training 33,000 federal workers to 
        conduct passenger security screening by November 19. As of July 
        13, TSA had hired only 2,475. In addition, deploying explosive 
        detection systems to screen all checked bags by December 31 
        poses major challenges. Of approximately 1,100 explosive 
        detection systems and 6,000 explosive trace detection machines 
        TSA plans to purchase and deploy at 429 airports, only 200 
        explosive detection systems and 200 trace detection machines 
        were in use at 56 airports as of June 12, 2002. It is currently 
        uncertain whether, by December 31, TSA can purchase the 
        remaining equipment and hire enough staff to operate and 
        maintain the equipment, whether airports can complete and pay 
        for any modifications required to install the equipment, and 
        whether the equipment will operate as intended.

  <bullet>  TSA faces immediate challenges in assuming responsibility 
        for security in other transportation modes, in improving 
        screeners' performance, and in addressing aviation security 
        issues not covered by the act's current-year deadlines. First, 
        while TSA has begun to coordinate and cooperate with DOT's 
        modal administrations and with other federal agencies, most of 
        the work with these agencies lies ahead. Second, other aviation 
        security challenges facing TSA include improving screeners' 
        ability to detect weapons and explosives and to conduct 
        screening in accordance with federal requirements. Recent TSA 
        tests showed, for example, that screeners at 32 of the nation's 
        largest airports failed to detect fake weapons and explosives 
        in almost a quarter of the tests, and observations by the DOT 
        Inspector General found that contract screeners were not 
        consistently following federal screening requirements. While 
        newly hired federal screeners are being trained to follow these 
        requirements, contract screeners are still conducting screening 
        at most U.S. airports and have not received upgraded training. 
        Third, other actions are required or have been proposed: for 
        example, the act requires TSA to improve cargo security, and 
        proposed legislation would require TSA to authorize the arming 
        of pilots.

  <bullet>  TSA faces several longer-term challenges as it organizes 
        itself to protect the nation's transportation system. These 
        challenges include strategically managing the workforce, 
        controlling costs, and sharing threat information. TSA is 
        charged with creating a federal screener workforce to replace a 
        private workforce that had been plagued by performance and 
        retention problems. In addition, long-term attention to strong 
        systems and controls for acquisition and related business 
        processes will be critical both to ensuring TSA's success and 
        to maintaining its integrity and accountability. Such attention 
        includes establishing cost control mechanisms and monitoring 
        contractors' performance with respect to cost, schedule, and 
        quality. This is particularly important because of TSA's large 
        acquisition and personnel needs. Finally, the agency depends on 
        access to timely, accurate information about threats, but 
        information sharing among agencies that gather and maintain 
        such information has been hampered by organizational cultures 
        that make agencies reluctant to share sensitive information and 
        by outdated, incompatible computer systems.
Background
    The task of securing the nation's aviation system is unquestionably 
daunting. The enormous size of U.S. airspace defies easy protection. 
Furthermore, given this country's hundreds of commercial airports, 
thousands of planes, and tens of thousands of daily flights, as well as 
the seemingly limitless means terrorists or criminals can devise to 
attack the system, aviation security must be enforced on numerous 
fronts. Safeguarding airplanes and passengers requires, at the least, 
ensuring that perpetrators are kept from breaching security checkpoints 
and gaining access to aircraft. The Federal Aviation Administration 
(FAA), which was responsible for aviation security before TSA was 
created, developed several mechanisms to prevent criminal attacks on 
aircraft, such as adopting technology to detect explosives and matching 
boarding passes to identification cards at the gate to ensure that 
passengers are positively identified before boarding a flight.
    Despite the development of these preventative measures, we and 
others often demonstrated that significant, long-standing aviation 
security vulnerabilities existed. These vulnerabilities included 
inadequate controls for limiting access to secure areas at airports, 
failure to detect threats when screening passengers and their carry-on 
bags before they board aircraft, and the absence of any requirement to 
screen checked baggage on domestic flights. As we reported in May 
2000,\2\ our special agents used counterfeit law enforcement badges and 
credentials to gain access to secure areas at two airports, bypassing 
security checkpoints and walking unescorted to aircraft departure 
gates. The agents, who had been issued tickets and boarding passes, 
could have carried weapons, explosives, or other dangerous objects onto 
aircraft. In addition, FAA's tests of screeners found that their 
abilities to detect test threat objects located on passengers or 
contained in their carry-on luggage declined during the 1980s and 
1990s, and this problem persists today.
---------------------------------------------------------------------------
    \2\ See U.S. General Accounting Office, GAO-OSI-0010, Security: 
Breaches at Federal Agencies and Airports (Washington, D.C.: May 25, 
2002).
---------------------------------------------------------------------------
    Over the years, plans were developed to address some of these 
vulnerabilities, but they were not implemented promptly or at all. For 
example, the Federal Aviation Reauthorization Act of 1996 authorized a 
certification program that would have established performance, 
training, and equipment standards for screening companies, but FAA 
never issued final regulations for the program. In addition, many 
initiatives were not linked to specific deadlines, making it more 
difficult to monitor and oversee their implementation.
    On November 19, 2001, the Congress passed the Aviation and 
Transportation Security Act, which created TSA within the Department of 
Transportation (DOT) and defined its primary responsibility as ensuring 
security in all modes of transportation. The act also shifted 
responsibility for the security screening of air passengers and their 
baggage from the airlines to the federal government, making TSA 
responsible for overseeing screeners. Finally, the act established a 
series of requirements for the new agency with mandated deadlines (see 
app. II), the most important of which are:

  <bullet>  to deploy federal screeners at 429 commercial airports 
        across the nation by November 19, 2002, and

  <bullet>  to have explosive detection systems in place at these 
        airports for screening every piece of checked baggage for 
        explosives not later than December 31, 2002.

    Recent proposals would move TSA to the proposed Department of 
Homeland Security.
    To help fund its security initiatives, the act authorized air 
carriers to collect a fee for passengers of $2.50 per flight segment, 
not to exceed $5.00 per one-way trip or $10.00 per round trip. In 
addition, the act authorized the Under Secretary of Transportation 
Security to impose a fee on air carriers if revenues from the new 
security fee were insufficient to meet the needs mandated by the act. 
For fiscal year 2002, TSA is seeking a total of $6.8 billion in 
appropriated funds--$2.4 billion of which has already been appropriated 
and an additional $4.4 billion in supplemental funding.
TSA Has Begun to Address Known Weaknesses in Aviation Security but Is 
        Having Problems Meeting Key Congressional Deadlines
    TSA has begun addressing weaknesses in aviation security but may 
encounter problems in meeting key congressional deadlines. In the 10 
months since September 11, TSA has focused on meeting congressionally 
mandated deadlines for assuming security responsibilities, upgrading 
aviation security measures, and reporting to the Congress on its 
progress. Among other accomplishments, TSA has assumed responsibility 
for overseeing security screening at 429 commercial airports, 
established qualifications for federal screeners, developed a plan to 
hire and train federal screeners, contracted with companies that screen 
passengers, and overseen the implementation of a variety of federally 
approved methods to check all bags for explosives. As of July 13, 2002, 
TSA had also hired about 4,000 staff, including nearly 2,500 passenger 
screeners, 1,034 former employees of FAA, and 529 other staff. These 
other staff included federal security directors for airports, 
attorneys, program analysts, computer information technology 
specialists, personnel specialists, and administrative staff. In 
addition, TSA has made significant progress in expanding the federal 
air marshals service.\3\ Finally, TSA has worked with airlines to 
implement critical interim security measures, such as strengthening 
cockpit doors.
---------------------------------------------------------------------------
    \3\ Because the number of federal air marshals is classified 
information, their numbers are not included in the total for employees 
hired by TSA.
---------------------------------------------------------------------------
    However, TSA has encountered problems in responding to the 
congressional mandates that it federalize the screener workforce by 
November 19, 2002, and provide for screening all checked baggage using 
explosive detection systems by December 31, 2002.
Difficulties in Hiring and Training Passenger Screeners Pose Challenges 
        for TSA
    Initial difficulties in hiring and training the passenger screener 
workforce will make it challenging for TSA to meet the deadline for 
federalizing this workforce. According to TSA's estimates, this effort 
will involve hiring and training an estimated 33,000 passenger 
screeners so that 429 commercial airports can be staffed with federal 
screeners. TSA planned to hire 3,700 passenger screeners and 
supervisory screeners during May and projected that it would then need 
to hire and train more than 5,000 passenger screeners a month from June 
through November. As of July, TSA had hired only 2,475 screeners in 
total. Because of delays, the DOT Inspector General now estimates that 
TSA will need to hire 7,600 passenger screeners each month to meet the 
deadline.
TSA Faces Difficulties in Meeting Baggage Screening Deadline
    TSA faces several challenges in trying to provide for screening 100 
percent of checked baggage using explosive detection systems by the end 
of calendar year 2002. To accomplish this mandate, TSA plans to 
purchase and deploy an estimated 1,100 bulk explosive detection systems 
(EDS) and 6,000 explosive trace detection machines (trace devices). The 
installation of the large EDS equipment may require significant 
modifications to airports. As of June 12, 2002, 200 EDS and 200 trace 
devices were being used at 56 airports to screen checked baggage. To 
expedite installations at other airports, TSA has hired the Boeing 
Service Company to (1) conduct site assessments at over 400 airports, 
(2) submit proposals to TSA on what equipment each airport will have 
and where that equipment will be installed, (3) modify facilities to 
accommodate this equipment, (4) install and make the equipment 
operational, (5) maintain the equipment, and (6) train approximately 
30,000 screeners to operate the equipment. Given the magnitude of this 
task, it is unclear whether enough bulk EDS machines can be 
manufactured, deployed, and operationally tested and whether enough 
staff can be hired and trained to use the bulk EDS and trace devices by 
the deadline. Finally, the performance of the existing technologies for 
detecting explosives has been less than optimal: for example, the 
machines frequently sound false alarms. Furthermore, TSA's decision to 
deploy a combination of bulk EDS and trace devices could have long-term 
budgetary implications. Although funding is available for airports to 
purchase the equipment, no specific funding has been provided for 
airport modifications. These modifications are expected to cost 
millions of dollars at some major airports. In addition, TSA's plan to 
install bulk EDS in airport lobbies first and then to move them to the 
baggage handling areas at certain airports will involve additional 
costs. It is unclear how much this relocation will cost or who will pay 
for it. Furthermore, the initial procurement costs may quickly be 
overshadowed by the costs of the personnel needed to operate the 
equipment, which might exceed $1.6 billion each year.
    Given the cost of procuring, installing, and operating bulk EDS and 
trace devices to examine all checked baggage, some security experts and 
academicians have suggested that an alternative be considered. These 
individuals advocate adopting a risk-based approach that would match 
resources to risk levels by establishing a screening process that 
begins with passengers and concludes with baggage. First, with the use 
of computer-assisted passenger screening,\4\ they believe that 
passengers could be sorted into different risk groups, such as those 
who might represent a threat, those about whom little is known, and 
those about whom enough is known to make them low risk. Second, 
baggage-screening resources could be targeted according to risk. The 
passengers who might represent a threat, for instance, could be 
personally screened, and all available tools (such as explosive 
detection equipment and manual searches) could be used to ensure that 
no explosives were present in their checked baggage. The stated 
advantage of such an approach is that fewer expensive bulk EDS may be 
needed and the costs may be lower than TSA is projecting. In addition, 
advocates believe that more cost-effective decisions can be made to 
replace equipment as newer technologies become available. Conversely, 
concerns have been raised by TSA and others that the suggested approach 
increases the risk of not detecting explosives because, for the first 
level of screening, it uses technology that can screen large numbers of 
passenger bags quickly but may be less effective in detecting 
explosives.
---------------------------------------------------------------------------
    \4\ Computer-assisted passenger screening is an automated procedure 
that reviews data in airline passenger records to identify passengers 
who might present a risk.
---------------------------------------------------------------------------
Many Immediate Challenges Remain to Improve Transportation Security
    Many immediate challenges remain for TSA to improve both the 
security of other modes of transportation and to strengthen aviation 
security in areas not covered by specific deadlines. TSA has not yet 
assumed full responsibility for the security of other modes of 
transportation, such as highways, railroads, mass transit, ports, and 
pipelines; however, it has established a number of functions to 
collaborate and communicate with the DOT agencies responsible for these 
other modes, as well as with other government agencies. For example, 
TSA officials told us that the agency has created a broad memorandum of 
understanding with the U.S. Coast Guard that will serve as a template 
for such agreements between TSA and other agencies, including the 
Federal Transit Administration (FTA) and the Federal Bureau of 
Investigation (FBI). In addition, other DOT modal agencies have various 
initiatives under way to improve security during this transition 
period. FTA has, for example, launched a multipart initiative to assess 
the security of over 30 transit agencies, provide free emergency 
preparedness and security training for transit agency personnel and 
first responders, and make grants available for organizing and 
conducting emergency response drills. Similarly, the U.S. Coast Guard 
has acted as a focal point for assessing and addressing security 
concerns for the nation's ports.
    Other challenges also confront TSA as it attempts to strengthen 
aviation security. Passenger screeners still fail to detect weapons and 
other threat objects (e.g., knives, scissors, and sharp objects) at 
unacceptable rates, and enhanced screening procedures are unevenly 
applied among airports. In November 2001, staff from the DOT Inspector 
General's office observed private contractors carry out screening at 58 
security checkpoints and concluded that they were not consistently and 
uniformly following FAA's screening requirements. For example, in some 
cases screeners were not checking passengers' identification against 
their boarding passes, were not adequately screening carry-on bags for 
threat objects, and were not performing continuous random secondary 
screening measures, such as manually searching carry-on items or using 
wands to screen passengers. Recent TSA testing found that screeners at 
32 of the nation's largest airports failed to detect fake weapons 
(guns, dynamite, or bombs) in almost a quarter of the undercover tests 
at screening checkpoints. Since TSA took over aviation security 
responsibilities on February 17, 2002, discoveries of guns, knives, and 
other potential weapons on passengers who had passed security 
checkpoints have prompted evacuations at 124 airports and resulted in 
631 flights being called back to terminals so that passengers could be 
searched again.
    Furthermore, the enhanced security procedures have contributed to 
longer waits and congestion at airport terminals. TSA's goal is to 
process passengers through security in 10 minutes or less, but airlines 
have reported significantly longer waits during peak times at a number 
of the nation's major airports. These conditions can discourage air 
travel and adversely affect the travel industry.
    Finally, the challenge of identifying and removing airport workers 
who cannot meet new requirements for background checks continues. Last 
October FAA ordered background checks on an estimated 750,000 airport 
and airline employees with access to secured areas of airports. By 
April 28, 2002, federal law enforcement officials had arrested or 
indicted more than 450 workers at 15 airports for being in the United 
States illegally or using phony social security numbers. These workers, 
who were employed by private companies that clean airplanes, operate 
airport restaurants, and provide other airport services, had security 
badges giving them access to planes, ramps, runways, and cargo areas. 
Completing these background checks will enhance aviation security.
    Some other immediate challenges, such as the security of cargo and 
general aviation, were discussed in the act itself, and more recent 
legislative proposals have raised these and other outstanding aviation 
security issues. To address these issues, bills have been introduced to 
arm pilots, enhance cargo security, require background checks for all 
foreign applicants to U.S. flight schools, prohibit the opening of 
cockpit doors during flights, train airline personnel to conduct 
passenger identification checks, make it a criminal penalty to 
intentionally circumvent airport security, and provide whistleblower 
protection for air carrier and airport security workers. (See app. III 
for a summary of pending legislation on aviation security.) All of 
these are complex and controversial issues. In moving forward, TSA must 
work with stakeholders to assess the risks and vulnerabilities of the 
various options and carefully weigh both the policy implications and 
the implementation strategies required for their success, keeping in 
mind the long-term implications of short-term decisions.
    To illustrate the challenges and complexities TSA faces in 
attempting to strengthen aviation security, we examined some of the 
issues raised by proposals to arm pilots; establish a ``trusted 
traveler'' program, which would use biometric identifiers to expedite 
security checks; and enhance cargo security.
Arming Pilots
    Last month, at the request of this Committee's Chairman, we 
provided information on, among other things, reasons for and against 
arming pilots and questions to be addressed if pilots were to be 
armed.\5\
---------------------------------------------------------------------------
    \5\ Information Concerning the Arming of Commercial Pilots (GAO-02-
822R, June 28, 2002).

  <bullet>  Proponents of arming pilots cited the potential deterrent 
        value of firearms, their usefulness as a last line of defense, 
        and past regulatory precedents, while opponents cited the moral 
        dilemma pilots would face if they were prohibited from leaving 
        the cockpit, as they would be by the legislation, when 
        passengers or crew members were being threatened in the cabin. 
        Opponents also said that arming pilots would introduce another 
        10,000 to 100,000 guns into our society, which they believe 
---------------------------------------------------------------------------
        would have negative effects.

  <bullet>  Questions to be addressed if pilots were to be armed 
        included (1) who would regulate and oversee pilots' carriage of 
        weapons; (2) what qualifications and training pilots would need 
        to carry weapons; (3) what types of weapons would be carried 
        and how they would be maintained, stored, and transported; (4) 
        what aircraft modifications would be required; and (5) how much 
        it would cost to arm pilots.
Trusted Traveler
    TSA has not yet completed its evaluation of the benefits and 
disadvantages of a trusted traveler program. Such a program, if 
successfully implemented, could reduce airport waits and speed security 
checks for passengers who voluntarily submit information about 
themselves and undergo background checks. It could also minimize the 
economic disruption caused by congestion at the terminal by allowing 
airline and TSA staff to focus more attention on lesser known 
passengers who could present greater security risks. However, such a 
program has the potential to increase the system's vulnerability by 
using reduced security measures for some passengers. If terrorists were 
to steal the identities of trusted travelers, the consequences could be 
particularly dire.
    The trusted traveler concept presents many procedural questions 
that would need to be answered before a decision could be reached on 
implementing the program. Such questions include which passengers would 
be eligible to enroll, what information would be collected, how 
frequently their status would be updated, what entity would run the 
program, and what biometric identifiers would be used to positively 
identify the passengers.
Aviation Cargo Security
    Both the act and recent legislative proposals have raised the 
security of aviation cargo as an issue. The act requires that all cargo 
transported in all-cargo aircraft be screened as soon as practicable, 
but it is silent on how best to accomplish this screening. TSA has not 
announced how it plans to meet this requirement, in part because it has 
focused most of its efforts on meeting the deadlines for screening 
passenger bags. Two recent legislative proposals (S. 2668 and S. 2656) 
call for enhancing aviation cargo security by tightening the security 
of the ``known shippers'' system--the major system currently used to 
ensure aviation cargo security. The DOT Inspector General and others 
have identified gaps in this program, which allows shippers who meet 
DOT's requirements to ship their cargo without inspection. The proposed 
legislation calls for investigating known shippers more thoroughly to 
ensure they are who they say they are, establishing a documentary 
``chain of custody'' for all shipments, and inspecting a greater 
percentage of cargo than is currently done. These legislative proposals 
are intended to address the most difficult problem in ensuring cargo 
security--screening the vast amount of cargo without major disruptions 
in service--by increasing the level of scrutiny on shippers, middlemen, 
and recipients.
TSA Faces Longer-Term Institutional Challenges
    TSA faces several longer-term challenges as it organizes itself to 
protect the nation's transportation system. These challenges include 
strategically managing its workforce, controlling costs, and sharing 
threat information.
Strategic Human Capital Management Is Essential for Maximizing TSA's 
        Performance
    A human capital strategy is critical for TSA, which may have a 
workforce as large as 70,000. To assist agencies in managing their 
human capital more strategically, GAO has developed a model of 
strategic human capital management that identifies cornerstones and 
related critical success factors that agencies should apply and steps 
they can take.\6\ Our model is designed to help agency leaders 
effectively lead and manage their people and integrate human capital 
considerations into daily decision making and the program results they 
seek to achieve. In ongoing work for this Committee, we are reviewing 
aspects of TSA's implementation of results-oriented practices, such as 
human capital management. Today we would like to share some preliminary 
observations on TSA's progress in this area.
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, A Model of Strategic Human 
Capital Management, GAO-02-373SP (Washington, D.C.: March 2002).
---------------------------------------------------------------------------
    TSA's success in protecting the nation's transportation system 
depends in large part on its ability to recruit, train, and retain key 
people. Our prior work on aviation security identified problems with 
the training and retention of contract screeners. TSA has been charged 
with hiring and training a federal screener workforce and has 
encountered unexpected difficulty in doing so, especially in large 
metropolitan areas. For example, at Baltimore-Washington International 
Airport--the first of 429 airports to be staffed with federal passenger 
screeners--TSA's hiring of screeners was delayed because high 
percentages of applicants did not show up for or did not pass their 
prehiring assessment. Only about a third of the qualified applicants 
who were contacted to schedule an assessment reported for their 
assessment, and of those who reported, only about a third passed. If 
TSA experiences similar problems in trying to staff other airports, 
then the hiring challenge facing the agency is daunting.
    A critical success factor in human capital management is to tailor 
human capital approaches to meet organizational needs by using the full 
range of tools and flexibilities available to an agency under current 
laws and regulations. The act allows TSA to use and modify the 
personnel system established by FAA, which is exempt from many federal 
personnel provisions. To meet its need for talented resources quickly, 
TSA officials told us that they made use of flexibilities such as 
temporary hiring authority, on-the-spot hiring authority, and the 
authority to use detailees from other agencies and executives on loan 
from the private sector. TSA is also basing its compensation system on 
FAA's pay banding approach, which allows the agency to hire employees 
anywhere within broad pay bands for their positions. For example, the 
pay band for screeners ranges from $23,600 to $35,400 (from about $11 
to $17 per hour).\7\ Pay banding is one approach that can support a 
more direct link between pay and an individual's knowledge, skills, and 
performance if an agency's performance management systems can support 
this link.
---------------------------------------------------------------------------
    \7\ Before TSA assumed responsibility for oversight of screening, 
contract screeners' pay was much lower, ranging, for example, from $7 
to $10 per hour.
---------------------------------------------------------------------------
    Another critical success factor is linking individual performance 
to organizational goals. The act requires TSA to establish a 
performance management system and performance agreements, with 
organizational and individual goals for employees, managers, and 
executives. TSA has made progress in setting up the performance 
management system. The agency has drafted but not approved an interim 
employee performance management system for the current fiscal year. The 
system lays out the processes and procedures for establishing 
performance agreements that include organizational and individual goals 
and objectives, measuring and monitoring performance, determining 
employees' development needs, and appraising and rewarding employees. 
Until the interim system is approved, TSA has implemented a temporary 
performance agreement for newly hired screeners and supervisory 
screeners. The temporary performance agreement contains a general 
description of duties and the manner in which the duties should be 
performed; it does not include specific individual and organizational 
goals. Finalizing a performance management system linked to 
organizational goals is critical to motivating and managing staff, 
ensuring the quality of screeners' performance, and, ultimately, 
restoring public confidence in air travel.
Cost Controls and Contractor Oversight Are Critical for Ensuring TSA's 
        Success
    Federal organizations have a stewardship obligation to acquire 
goods and services at reasonable prices; expend federal tax dollars 
appropriately; ensure financial accountability to the President, 
Congress, and American people; and prevent waste, fraud, and abuse. 
Long-term attention to cost and accountability controls for acquisition 
and related business processes will be critical both to ensuring TSA's 
success and to maintaining its integrity and accountability. Such 
attention includes establishing cost control mechanisms and monitoring 
contractors' performance with respect to cost, schedule, and quality. 
This is particularly important because of TSA's large acquisition and 
personnel needs.
    TSA oversees many large-dollar contracts; however, according to the 
DOT Inspector General, it could improve its controls over these 
contracts, which total $3.1 billion in fiscal year 2002. For example, 
TSA initially budgeted $2,500 per screener for background checks but 
was able to reduce this estimate to $200 per screener after the 
Inspector General expressed concern. This change is projected to save 
the agency approximately $95 million in fiscal year 2002 alone. 
According to the Inspector General, although TSA has made progress in 
addressing certain cost-related issues, it has not established an 
infrastructure that provides an effective span of control to monitor 
contractors' costs and performance.
    Cost controls are also important in establishing employee 
compensation levels and controlling salaries. While pay banding can be 
used to ensure that salaries are commensurate with position duties, it 
should not be used to arbitrarily set salaries higher than comparable 
positions in other agencies. For example, TSA is hiring law enforcement 
officers from a number of other law enforcement agencies. TSA's 
starting salary for most federal air marshals is $36,400, which is 
supplemented by a 25 percent law enforcement pay differential that 
raises it to $45,500. In contrast, the starting salaries for law 
enforcement employees at the Defense Protective Service, the U.S. 
Capitol Police, and the Federal Protective Service--where some of the 
new federal air marshals previously worked--are capped at $37,000, in 
part because they do not include this pay differential.
    Further cost reductions due to efficiencies and economies of scale 
may be possible if TSA is moved to the proposed Department of Homeland 
Security. Costs reductions might be possible by consolidating 
administrative, technical, or other types of staff. As a result, TSA 
should exercise caution in staffing certain positions, such as creating 
its own criminal investigative workforce, when such functions might be 
merged with an already existing workforce. For example, under the 
President's proposal, Customs and the Immigration and Naturalization 
Service (INS), which have a combined criminal investigative workforce 
of about 5,000, would join TSA in reporting to an Under Secretary for 
Border and Transportation Security.
Information Sharing and Coordination Among Agencies Are Crucial for 
        Threat 
        Identification and Response
    Timely, accurate information about terrorists and the threats they 
pose is vital to TSA's mission. Such information is gathered and 
maintained by numerous law enforcement and other agencies, including 
the Federal Bureau of Investigation (FBI), INS, the Central 
Intelligence Agency (CIA), and the State Department. Timely information 
sharing among such agencies has been hampered by organizational 
cultures that make agencies reluctant to share sensitive information 
and by outdated computer systems that lack interoperability. For 
example, INS, FBI, and the State Department all need the capacity to 
identify aliens in the United States who are in violation of their visa 
status, have broken U.S. laws, or are under investigation for criminal 
activity, including terrorism. In the immediate aftermath of September 
11, it was reported that the computerized database systems of INS and 
State were incompatible, making data sharing difficult and cumbersome.
    Increased coordination among agencies with responsibilities for 
national security is called for in the act, as well as in proposals for 
the creation of a new Department of Homeland Security. Specifically, 
the act established a transportation security oversight board, which is 
responsible for (1) facilitating the coordination of intelligence, 
security, and law enforcement activities affecting transportation; (2) 
facilitating the sharing of threat information affecting transportation 
among federal agencies and with airlines and other transportation 
providers; and (3) exploring the technical feasibility of developing a 
common database of individuals who may pose a threat to transportation 
or national security. The board includes representation from the DOT, 
CIA, National Security Council, Attorney General, the Departments of 
Defense and Treasury, and the Office of Homeland Security. Similarly, 
proposals to create a new Department of Homeland Security include 
provisions to share and coordinate intelligence information among many 
federal agencies. Moving TSA and agencies with responsibility for 
border protection, such as INS, into the proposed Department of 
Homeland Security may provide the opportunity for increased information 
sharing using state-of-the-art technology to manage threat information.
Closing Observations
    Mr. Chairman, it is worth repeating the two central issues 
confronting TSA as it strives to improve aviation security: it must 
meet mandated deadlines and demonstrate results swiftly while it 
creates a federal agency whose plans, policies, and procedures 
generally ensure long-term success. Achieving either goal would be 
challenge enough; to accomplish both simultaneously requires truly 
extraordinary efforts. Carefully considering how it strategically 
manages its large workforce, controls costs, and coordinates with other 
agencies to share threat information will help it meet its mission both 
now and in the future.
    This concludes my prepared statement. I will be pleased to answer 
any questions that you or Members of the Committee may have.
                                 ______
                                 
Appendix I
Selected GAO Reports and Testimonies on Aviation Security
Aviation Security: Information Concerning the Arming of Commercial 
    Pilots. GAO-02-822R. Washington, D.C.: June 28, 2002.
Aviation Security: Deployment and Capabilities of Explosive Detection 
    Equipment. GAO-02-713C. Washington, D.C.: June 20, 2002. 
    (CLASSIFIED)
Aviation Security: Information on Vulnerabilities in the Nation's Air 
    Transportation System. GAO-01-1164T. Washington, D.C.: September 
    26, 2001. (NOT FOR PUBLIC DISSEMINATION)
Aviation Security: Information on the Nation's Air Transportation 
    System Vulnerabilities. GAO-01-1174T. Washington, D.C.: September 
    26, 2001. (NOT FOR PUBLIC DISSEMINATION)
Aviation Security: Vulnerabilities in, and Alternatives for, Preboard 
    Screening Security Operations. GAO-01-1171T. Washington, D.C.: 
    September 25, 2001.
Aviation Security: Weaknesses in Airport Security and Options for 
    Assigning Screening Responsibilities. GAO-01-1165T. Washington, 
    D.C.: September 21, 2001.
Aviation Security: Terrorist Acts Demonstrate Urgent Need to Improve 
    Security at the Nation's Airports. GAO-01-1162T. Washington, D.C.: 
    September 20, 2001.
Aviation Security: Terrorist Acts Illustrate Severe Weaknesses in 
    Aviation Security. GAO-01-1166T. Washington, D.C.: September 20, 
    2001.
Responses of Federal Agencies and Airports We Surveyed about Access 
    Security Improvements. GAO-01-1069R. Washington, D.C.: August 31, 
    2001.
Responses of Federal Agencies and Airports We Surveyed about Access 
    Security Improvements. GAO-01-1068R. Washington, D.C.: August 31, 
    2001. (RESTRICTED)
FAA Computer Security: Recommendations to Address Continuing 
    Weaknesses. GAO-01-171. Washington, D.C.: December 6, 2000.
Aviation Security: Additional Controls Needed to Address Weaknesses in 
    Carriage of Weapons Regulations. GAO/RCED-00-181. Washington, D.C.: 
    September 29, 2000.
FAA Computer Security: Actions Needed to Address Critical Weaknesses 
    That Jeopardize Aviation Operations. GAO/T-AIMD-00-330. Washington, 
    D.C.: September 27, 2000.
FAA Computer Security: Concerns Remain Due to Personnel and Other 
    Continuing Weaknesses. GAO/AIMD-00-252. Washington, D.C.: August 
    16, 2000.
Aviation Security: Long-Standing Problems Impair Airport Screeners' 
    Performance. GAO/RCED-00-75. Washington, D.C.: June 28, 2000.
Aviation Security: Screeners Continue to Have Serious Problems 
    Detecting Dangerous Objects. GAO/RCED-00-159. Washington, D.C.: 
    June 22, 2000. (NOT FOR PUBLIC DISSEMINATION)
Computer Security: FAA Is Addressing Personnel Weaknesses, but Further 
    Action Is Required. GAO/AIMD-00-169. Washington, D.C.: May 31, 
    2000.
Security: Breaches at Federal Agencies and Airports. GAO-OSI-00-10. 
    Washington, D.C.: May 25, 2000.
Aviation Security: Screener Performance in Detecting Dangerous Objects 
    during FAA Testing Is Not Adequate. GAO/T-RCED-00-143. Washington, 
    D.C.: April 6, 2000. (NOT FOR PUBLIC DISSEMINATION)
Combating Terrorism: How Five Foreign Countries Are Organized to Combat 
    Terrorism. GAO/NSIAD-00-85. Washington, D.C.: April 7, 2000.
Aviation Security: Vulnerabilities Still Exist in the Aviation Security 
    System. GAO/T-RCED/AIMD-00-142. Washington, D.C.: April 6, 2000.
U.S. Customs Service: Better Targeting of Airline Passengers for 
    Personal Searches Could Produce Better Results. GAO/GGD-00-38. 
    Washington, D.C.: March 17, 2000.
Aviation Security: Screeners Not Adequately Detecting Threat Objects 
    during FAA Testing. GAO/T-RCED-00-124. Washington, D.C.: March 16, 
    2000. (NOT FOR PUBLIC DISSEMINATION)
Aviation Security: Slow Progress in Addressing Long-Standing Screener 
    Performance Problems. GAO/T-RCED-00-125. Washington, D.C.: March 
    16, 2000.
Aviation Security: FAA's Actions to Study Responsibilities and Funding 
    for Airport Security and to Certify Screening Companies. GAO/RCED-
    99-53. Washington, D.C.: February 24, 1999.
Aviation Security: FAA's Deployments of Equipment to Detect Traces of 
    Explosives. GAO/RCED-99-32R. Washington, D.C.: November 13, 1998.
Air Traffic Control: Weak Computer Security Practices Jeopardize Flight 
    Safety. GAO/AIMD-98-155. Washington, D.C.: May 18, 1998.
Aviation Security: Progress Being Made, but Long-Term Attention Is 
    Needed. GAO/T-RCED-98-190. Washington, D.C.: May 14, 1998.
Air Traffic Control: Weak Computer Security Practices Jeopardize Flight 
    Safety. GAO/AIMD-98-60. Washington, D.C.: April 29, 1998. (LIMITED 
    OFFICIAL USE--DO NOT DISSEMINATE)
Aviation Security: Implementation of Recommendations Is Under Way, but 
    Completion Will Take Several Years. GAO/RCED-98-102. Washington, 
    D.C.: April 24, 1998.
Combating Terrorism: Observations on Crosscutting Issues. T-NSIAD-98-
    164. Washington, D.C.: April 23, 1998.
Aviation Safety: Weaknesses in Inspection and Enforcement Limit FAA in 
    Identifying and Responding to Risks. GAO/RCED-98-6. Washington, 
    D.C.: February 27, 1998.
Aviation Security: FAA's Procurement of Explosives Detection Devices. 
    GAO/RCED-97-111R. Washington, D.C.: May 1, 1997.
Aviation Security: Commercially Available Advanced Explosives Detection 
    Devices. GAO/RCED-97-ll9R. Washington, D.C.: April 24, 1997.
Aviation Safety and Security: Challenges to Implementing the 
    Recommendations of the White House Commission on Aviation Safety 
    and Security. GAO/T-RCED-97-90. Washington, D.C.: March 5, 1997.
Aviation Security: Technology's Role in Addressing Vulnerabilities. 
    GAO/TRCED/NSIAD-96-262. Washington, D.C.: September 19, 1996.
Aviation Security: Oversight of Initiatives Will Be Needed. C-GAO/
    TRCED/NSIAD-96-20. Washington, D.C.: September 17, 1996. 
    (CLASSIFIED)
Aviation Security: Urgent Issues Need to Be Addressed. GAO/T-RCED/
    NSIAD-96-251. Washington, D.C.: September 11, 1996.
Aviation Security: Immediate Action Needed to Improve Security. GAO/
    TRCED/NSIAD-96-237. Washington, D.C.: August 1, 1996.
Aviation Security: FAA Can Help Ensure That Airports' Access Control 
    Systems Are Cost Effective. GAO/RCED-95-25. Washington, D.C.: March 
    1, 1995.
Aviation Security: Development of New Security Technology Has Not Met 
    Expectations. GAO/RCED-94-142. Washington, D.C.: May 19, 1994.
Aviation Security: Additional Actions Needed to Meet Domestic and 
    International Challenges. GAO/RCED-94-38. Washington, D.C.: January 
    27, 1994.

Appendix II


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Appendix III

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Dr. Dillingham, I'm used to comptrollers 
giving us audited figures. How much money, between now and the 
end of the fiscal year, is needed, and how much do you have?
    Dr. Dillingham. For?
    The Chairman. How much do you intend to spend, or hope to 
spend, between now and September the 30th, the end of this 
fiscal year? And how much money do you have? I'm trying to get 
to the shortage. We want to correct this.
    Dr. Dillingham. I think that's--Secretary Mineta is 
probably better able to answer that. I'm with the General 
Accounting Office, not TSA.
    The Chairman. But you don't have an accounting of the 
figures at all.
    Dr. Dillingham. No, sir. We have not looked at it.
    The Chairman. Senator McCain?
    Senator McCain. Thank you, Mr. Chairman. Thank you, Dr. 
Dillingham. It's very interesting figures that you do cite, and 
I'd like to ask Secretary Mineta.
    Secretary Mineta, Dr. Dillingham just stated that you have 
to hire 7,600 people per month between now and the deadline for 
screening and security, as I understand it. You're going to 
have to hire and train 30,000 people to man the explosive-
detections systems. Are you going to be able to meet those 
deadlines?
    Secretary Mineta. In terms of our hiring program for both 
passenger screeners and baggage screeners, there is a plan that 
was devised. If I could just back up a little bit----
    Senator McCain. You know, I don't have a lot of time----
    Secretary Mineta. Okay. All right.
    Senator McCain.--but I would appreciate----
    Secretary Mineta. Well, then let me say----
    Senator McCain. But take the time----
    Secretary Mineta.--yes, we are on----
    Senator McCain.--whatever time you need.
    Secretary Mineta.--we are on schedule. In terms of the plan 
that we had for hiring screeners, it's one of these programs 
where you start out slowly, and then you start increasing the 
number of people who are recruited, tested, trained, and 
deployed. And we look at what we're doing on a regular 
timetable basis, and we are on schedule to make sure that we 
have a sufficient number of people on the 19th of November for 
passenger screening and the number of people for baggage 
screening by December 31.
    Now, someone said, ``Well, we hear that there are only 
2,500 screeners that have been hired so far.'' That is not 
correct. It's well over double that figure. But again, what 
we're doing is building up this force.
    Dr. Dillingham is absolutely correct in terms of the people 
we're recruiting and the people who then report to the 
assessment center. Remember, to apply for a job, you either 
dial 1-800, or you get onto the internet. And then, once they 
do that, then we tell them to report to the assessment center. 
And that's the percentages that Dr. Dillingham was talking 
about.
    Senator McCain. Dr. Dillingham----
    Secretary Mineta. But we are on schedule right now, 
Senator.
    Senator McCain. Thank you, Mr. Secretary.
    Dr. Dillingham, are you optimistic about their ability to 
make those--meet those deadlines?
    Dr. Dillingham. Senator McCain, I think the jury's really 
still out. It is the case that the hiring has increased 
significantly over the last few weeks. They're moving faster. 
But it's also true that they're having a tremendous amount of 
difficulty finding screeners in the big metropolitan areas, as 
well as finding an appropriate number of female screeners to 
match up with the searches of female passengers.
    So a couple of weeks from now is a better time to see if 
that prediction will hold true.
    Senator McCain. Maybe we ought to have you back.
    Mr. Secretary, what is the effect of the appropriators 
putting a cap on the number of full-time employees that TSA can 
have?
    Secretary Mineta. Well, first of all, we have four major 
contracts, in terms of recruiting for people to do site 
assessments at airports for placement of equipment and where 
are the check lines going to be. We have----
    Senator McCain. My question is what is the effect----
    Secretary Mineta. The effect is that, with the lack of 
money, we are now going to have to tell these contractors, 
``We're going to have to cut you off.'' And so that's why I say 
if it's the NCS Pearson contract that's going out and 
recruiting people, if we have to cut off that contract, we will 
not have a sufficient number of people to be able to do the 
screening for us. And that's what's going to happen to us, in 
terms of each contract, whether it be for NCS Pearson to bring 
people in, whether it's the Boeing Siemens contract that goes 
out to the airports to do the site assessments, or the 
Lockheed-Martin contract that does the hiring and the 
training----
    Senator McCain. So you will not be able to carry out your 
assigned mission with this provision in the appropriations 
bill.
    Secretary Mineta. Given what our plan was and given where 
we are with the supplemental appropriation, we will not be able 
to hire the numbers that we planned to do.
    Senator McCain. And, therefore, unable to carry out your 
mission.
    Secretary Mineta. The obligation----
    Senator McCain. Did you want to add to that, Mr. Jackson?
    Mr. Jackson. Yes, sir. We would struggle to get to the end 
of this fiscal year under that 45,000 cap while hiring both 
passenger screeners and baggage screeners. And the real 
difficulty comes instantly in September. We are going to 
project to go over that--over that 45,000 cap in our total 
employment. This includes the air marshal program, and it 
includes the overhead, it includes the support for ports and 
other issues. So this is the entire TSA. Our hiring is going 
to, in September, punch over that cap, and if we are operating 
under a CR, for example, in October, we've hit the wall. We 
have to just stop.
    Senator McCain. Do you agree, Dr. Dillingham, with that 
assessment?
    Dr. Dillingham. As much as we've looked at the numbers, Mr. 
McCain--or, Senator McCain, I'm sorry--we would agree with 
that.
    Senator McCain. Senator Ensign is going to voice this 
concern to you far more emphatically than I will, but there is 
a concern that if you meet these deadlines--suppose you had the 
equipment, suppose you had the proper number of employees, you 
still would have inordinate delays in major airports across 
America--Sky Harbor, McCarron, et cetera. How do you respond to 
that, Mr. Secretary?
    Secretary Mineta. Well, I guess, first of all, it goes 
airport by airport. But I think, within the last probably 
couple of weeks, we have said that there will be difficulty 
with about 20 to 30 airports across the country.
    Senator McCain. Well, then should there be some exemption 
for them?
    Secretary Mineta. That's something that we've talked about 
in-house, and we haven't come to any determination between our 
department and the White House on what we ought to be doing 
on----
    Senator McCain. Well, please keep us informed as soon as 
possible----
    Secretary Mineta. Oh, absolutely. I mean----
    Senator McCain.--as to what decisions you make on that.
    Well, I see that my time is expired, and I don't want to 
overrun. But this is a--this is an important issue, obviously, 
in major airports around America, and I hope you'll come to a 
decision on that as quickly as possible.
    Welcome, Admiral Loy. We appreciate your willingness to 
serve and we appreciate your past service to the nation, and we 
look forward to working with you.
    Thank you, Mr. Chairman.
    The Chairman. Let the record show that the Committee was 
furnished last evening an updated figure of TSA occupation 
employees--certain directors, attorneys, law-enforcement 
officers, and investigators. Under ``screeners,'' it said 
screeners, 759; supervisory screeners, 1,725, for a total of 
2,484. Mr. Secretary, that's where the record is as of--
furnished to the Committee, as of last evening.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Secretary, I've made a priority to focus on the 
performance of screeners at the airports, and particularly 
through undercover audits. And it is very troubling to see the 
results thus far. We, for example, have seen 30-40 percent 
failure rates at airports, where apparently the testers didn't 
even do anything fancy to conceal large weapons, and yet they 
all seemed to get through.
    And I guess I'd like to start by asking you, will the 
results of these audits have consequences? What's been done to 
date with respect to these airports with these huge failure 
rates with respect to weapons getting by the screeners?
    Secretary Mineta. Well, first of all, I want you to 
recognize that probably 95 percent of the screeners that are in 
the workforce right now were the ones who were there prior to 
the 11th of September. Under the law, we took over all of the 
contracts on the 17th of February from the screening companies. 
We have three airports right now that are totally federalized 
with federal employees.
    Now, the report that was referred to in USA Today, that was 
a leaked report that was conducted by our own TSA investigation 
people. And so there are two responses: One is in terms of 
overall, across the system, getting to everybody--the interim 
security directors and the federal security directors at all of 
the airports--in terms of the deficiencies that they're going 
to have to pay attention to regarding their on-job training, to 
tell their screeners what has to be improved. The second aspect 
is the specific airport where those violations occurred, to go 
ahead and make sure that they're corrected. And to the extent 
that they're not corrected, or if we find a pattern of under-
performance, then those folks have been released. But----
    Senator Wyden. Has that happened to date? I mean, what I 
want to----
    Secretary Mineta. Yes, sir. Yes, sir.
    Senator Wyden. It has.
    Secretary Mineta. Yes, sir.
    Senator Wyden. How many airports, for example, did you put 
in place changes with respect to making sure that screening 
performance changed?
    Secretary Mineta. Well, I can think of one FSD that we've 
replaced. And, as I recall, that original report had four or 
five airports, and----
    Senator Wyden. Well, I will move on, but I'd like you to 
furnish----
    Secretary Mineta. Sure.
    Senator Wyden.--for the record what have been the 
consequences of these significant audit failures. I mean, this 
is a very real problem, and I will tell you, I want to meet you 
halfway, but you have to show us that there are consequences 
when there has been failure.
    Senator Wyden. Now, let me move.
    Secretary Mineta. Do you want--do you want----
    Senator Wyden. I'd like to ask about another----
    Secretary Mineta. We'll submit it for the record.
    Senator Wyden. Thank you, that'll be fine.
    Set aside, for a moment, personalities and working style 
and those sorts of issues. What was deemed not done on Mr. 
Magaw's watch that concerned you? I'd like to know why you 
replaced him and----
    Secretary Mineta. Again, I think there----
    Senator Wyden.--get that on the record.
    Secretary Mineta.--are two things there. One is replacing 
Mr. Magaw. Mr. Magaw submitted his resignation because of his 
health. He had--I believe it was, four or five months ago, a 
stent put in his--I guess it's----
    Senator Wyden. Mr. Secretary----
    Secretary Mineta.--I'm not sure what the----
    Senator Wyden.--we know about his health problems. What----
    Secretary Mineta. Okay. There was a problem----
    Senator Wyden.--was not being done?
    Secretary Mineta.--there was a problem in terms of his 
health, and he submitted his resignation, because when you're 
standing up this kind of an agency, this is a very long working 
day, and he was, frankly, not up to working those long days. 
And so, to the extent, then, that long days are not possible, 
then his attention was not being put on the job.
    Senator Wyden. So he was doing everything, in terms of the 
specific functions and activities that you wanted, and the only 
thing that concerned you was his health.
    Secretary Mineta. No, there was performance issues.
    Senator Wyden. What were those, Mr. Secretary? This is the 
third time now I've asked the question.
    Secretary Mineta. All right. Just as an overall, I would 
say he was not engaged as a person who is in a leadership 
position of a new, stand-up agency.
    Senator Wyden. Mr. Loy, you're starting. What's going to 
change? I mean, I am trying to get from the Secretary the 
specifics, for example, about what happened during those first 
six months, because I do think it was more than personalities 
and health issues. And we all want to be sensitive to someone's 
health concerns. But I want to know what policies specifically 
are going to change now at the Transportation Security 
Administrator on your watch. You're starting. What do you want 
to change?
    Admiral Loy. Senator Wyden, this is my third day on the 
job. Each of these first two----
    Senator Wyden. Tell us what you'd like to change.
    Admiral Loy.--have been about a month long in the efforts 
focused on exactly what your question is. I'm going to make a 
concerted effort to communicate better with stakeholders. I 
think there were some problems associated with reaching 
airlines, with reaching airports, their directors, many of the 
other stakeholders that are so important in this business, to 
make this a collaborative effort to engage and produce the 
security paradigm at our airports that we need to do.
    Second, I think there are challenges associated with many 
balls in the air at the same time. This team that has been put 
together by the Secretary, Senator Wyden, really has a superb 
business plan in place to get done what needed to get done, but 
we also need to be responsive to the feedback that is 
forthcoming, not only from the Congress, but from airport 
directors on an individual basis. If there is a problem in an 
airport, we need to engage that airport and have them feel that 
their engagement on the other end is going to get something 
accomplished.
    Another issue is simply correspondence communication. 
Senator Boxer, earlier in her opening statement, was concerned 
about writing a letter and not getting an answer. Well, that's 
not an adequate situation for us to engage in. So the simple 
leadership and management skills associated with making, not 
only a new organization stand up, but focusing on a mission 
which is perhaps as important to this nation as any other is 
going to get my full time and attention.
    Senator Wyden. Is there a uniform list today on what items 
passengers can carry onboard a plane? I am told by passengers 
that they are told a variety of different things about what 
they are allowed to carry onboard a plane. Could you tell us, 
is there today a uniform list in this country for what 
passengers can bring on?
    Admiral Loy. Can or cannot?
    Senator Wyden. Can.
    Admiral Loy. I think the list is probably much more 
discrete as it relates to what they cannot bring on, Senator 
Wyden, but I will find that list for you and get it to you, or, 
if there is a need to create one, we will do that.
    Admiral Loy. Constancy throughout the--throughout each and 
every one of those screeners saying the same thing to our 
flying public is enormously important.
    Secretary Mineta. Senator, if I----
    Senator Wyden. My time----
    Secretary Mineta.--if I might add?
    Senator Wyden. Mr. Secretary?
    Secretary Mineta. One of the things that--for instance, 
that we experienced recently--cigar cutters are allowed to go 
onboard the airplane. Yet there is now a new cigar cutter 
that's come out, and it looks like a bullet, and it has a very 
sharp instrument inside. And so that cigar cutter is not 
allowed on the airplane. And so there is a list, and, as the 
Admiral has indicated, items are on the prohibited-list side, 
in terms of length, but there are two lists.
    Senator Wyden. Just on this point, there's a----
    Admiral Loy. It's on the Web site, sir.
    Senator Wyden.--you're saying there now is one list in this 
country for what you can bring on and what you cannot bring on. 
Mr. Jackson is shaking his head. I mean, this, Mr. Secretary, 
is what troubles people. I mean, this should be--and I'm very 
sympathetic to this point about cigar cutters. And certainly 
the terrorists are not technological simpletons. They are 
always going to be trying to find new approaches. But, for the 
life of me, I can't figure why there isn't a list of what you 
can bring on and what you can't bring on. And Mr. Jackson, as 
far as his response, says that that list doesn't exist today. 
Is that right, Mr. Jackson?
    Mr. Jackson. Our approach has been the negative, what you 
are prohibited from bringing on. The list of what you're 
prohibited from bringing on is posted on our Web site, it's 
communicated to our employees, and it's available at each of 
the airports.
    Senator Wyden. Everything else you can bring on.
    Mr. Jackson. Well, a list of what you could bring on--a 
book, a magazine, a fan to fan yourself in the plane--is as 
vast as the imagination of the American people, and we're not 
trying to limit what you can bring on. We're trying to say, 
``Here are dangerous, prohibited items. Those cannot come on.'' 
As the Secretary has said, that list is constantly changing, 
because the creativity of the bad guys is significant, as well.
    Senator Wyden. My time is up. I'll just tell you that the 
passengers are confused, and the airports are confused. I'm 
going to look at your list. I'm anxious to work with you in a 
cooperative way on it.
    Thank you.
    The Chairman. Senator Burns?
    Senator Burns. Thank you, Mr. Chairman, and I'll move right 
along here, because I'm not going to dwell on how the 
department is getting along, because of the TSA.
    I want to move into this--the question of armed pilots. So 
shift gears here just a little bit, and I'd like to get some 
answers from the Transportation Department. I want to know 
right away that--we've noticed that recently the Administration 
announced they would reexamine the existing policy for arming 
pilots. I welcome that. Saying that it has a new director--and, 
Admiral Loy, we welcome you, and we're heartily supportive of 
you--if you have any thoughts on this--personal thoughts, or 
whatever--and if you do, how long will it take you to make a 
decision?
    Admiral Loy. Sir, it was just two days ago that the 
Secretary asked me to take on this review, which I will do. I 
have already directed our technical center up in Atlantic City 
to look at some possibilities, because I need to learn about 
this and get up the learning curve very quickly. I can't----
    Senator Burns. What's your personal feeling?
    Admiral Loy. I think I would be remiss if I offered those. 
I can say that on the--you know, on the upshot, I'm hesitant, 
but I'm also being directed to conduct a review, and I will do 
that. The--I am as concerned about elements in the House bill 
as I am in the basic question, and I think that is worth 
discussion with the Secretary and yourself, as well. But I----
    Senator Burns. Well, we'll be looking forward to the----
    Admiral Loy.--have to make this decision in the wake of the 
review, and I want to be objective in that regard.
    Senator Burns. Well, I think some of these cases, whenever 
we start talking about homeland security, they have to be based 
on--sometimes on gut feeling and----
    Admiral Loy. Sure.
    Senator Burns.--some of these things, and I think we'd 
better start making these decisions right away. You probably 
have some personal feelings on this, but I will not go into 
that at this time.
    Has the TSA reviewed the FBI's feasibility study on 
cockpit-protection program and its research for its 
determination viability of that program? I mean, I'm asking the 
same--I'm asking the same question again. Is this study 
underway?
    Admiral Loy. I'm not sure if the FBI--let me----
    Mr. Jackson. Senator, if I can interrupt, is this the study 
on the non-lethal weapons that you're----
    Senator Burns. On any kind of a weapon, I would imagine. 
It's a----
    Mr. Jackson. There is----
    Senator Burns.--feasibility on cockpit protection.
    Mr. Jackson. There is a National Institute of Justice study 
with regard to----
    Senator Burns. Is that the same thing?
    Mr. Jackson. I don't know if that's the one you're 
referring to, sir.
    Senator Burns. Just on sidearms.
    Mr. Jackson. Yes, there is----
    Senator Burns. On sidearms.
    Mr. Jackson.--there is a NIJ study on sidearms in the 
cockpit. And what they have done is to issue--I believe it was 
in April--a report relating to lethal weapons.
    Admiral Loy. Non-lethal.
    Mr. Jackson. Oh, I'm sorry, non-lethal. And so that's the 
extent of what the National Institute of Justice--of the 
Department of Justice--has provided us.
    Senator Burns. Well, the--but have they done anything on 
lethal weapons?
    Mr. Jackson. I'll have to ask----
    Secretary Mineta. Not to my knowledge.
    Mr. Jackson. Not to our knowledge, sir.
    Admiral Loy. No, sir.
    Senator Burns. The new congressionally mandated reinforced 
cockpit doors are supposed to be installed and operational on 
all commercial aircraft by April of 2003. Is there an FAA-
certified cockpit door available for installation right now?
    Secretary Mineta. Yes, sir, there are, two doors for 
certain classes of aircraft.
    Senator Burns. On--for every make--for every make or model?
    Secretary Mineta. Not for every make. Not for every make, 
but there are two doors that would be applicable, as I recall, 
for 737s, 727s, air bus----
    Senator Burns. How many airliners are subject to that FAA 
requirement for enhanced cockpit doors, do you know?
    Secretary Mineta. They're all--all U.S. airlines, and that 
totals about 6500 aircraft, plus all aircraft that come into 
the United States from foreign ports--from foreign airlines 
will have to comply with the April 9, 2003, date.
    Senator Burns. Is that possible?
    Secretary Mineta. Well, we just met with the Air Transport 
Association the other day, and we didn't hear anything 
differently, at least from the Air Transport Association 
carriers.
    Senator Burns. Well, now, it sounds like, to me--now, I 
don't know if--if we go along the same--at the same pace that 
we've been going on on the airport security and talking to the 
people from Boeing and the people who make these airplanes, I 
think that's--I think that you're pretty optimistic, maybe a 
little overly optimistic, by April the 3rd. Now, we're only--
we're only nine months away, Mr. Secretary.
    Secretary Mineta. But, again, remember, this is not----
    Senator Burns. Let the record show he's nodding his head.
    Secretary Mineta. This is not a TSA--a TSA responsibility 
in terms of doing the work. The doing of the work is still the 
manufacturers and the airlines. And, in this instance, the 
certification comes from FAA. FAA does the certification of the 
redesigned cockpit area.
    Senator Burns. Okay, now, let's just--if it's not--if it's 
not your responsibility, it's the manufacturer's----
    Secretary Mineta. Well, it's still our responsibility to 
ensure this--within the department.
    Senator Burns. Okay. Well, I'm saying----
    Secretary Mineta. Not TSA.
    Senator Burns.--I'm saying, then, in your own--in your own 
estimation, are--will we make that deadline?
    Secretary Mineta. Well, that's what we've been told.
    Senator Burns. John Mica, the Chairman of the Aviation 
Subcommittee on Transportation and Infrastructure made--
currently 12 foreign airlines allow their pilots to carry guns 
into the United States. How many foreign airlines do that 
today. Do you know?
    Secretary Mineta. No, sir, I do not.
    Senator Burns. We've been told that Korean Airlines, SAS, 
Lufthansa are allowed to carry weapons on the flight deck. And 
you don't know how many of those you have agreements with?
    Secretary Mineta. I do not.
    Senator Burns. Well, I'm sitting here looking for some 
information, and it doesn't sound like that we've got the 
information that we're going to need. And I would tell you that 
the study--and I think we've got to make these decisions right 
away. It appears to me that even though it's optimistic, at 
best, to complete our task at the airports, then we must act on 
the next line of defense. And I would say, even--it may not be 
on a permanent basis. Who knows? But I'm saying we've got to 
move forward as a Congress and as a government to make sure 
there is a first line of defense or maybe a second line of 
defense. I do not like the F-16 and the F-15. I think we can do 
better than that, asking the American people--that this is--
this is an alternative that we have. That--I think that that is 
just absolutely outrageous. That is not my United States of 
America. And--but I'm just--I'm just saying we have asked for 
some reports, asking for briefings. We didn't get them until 
this week. And we will continue to do so.
    I have more questions, and I'm looking forward to the next 
panel, because I want to hear some--I want to hear some meat 
about this. We know what your challenge is, and we--and we're 
probably pretty sensitive to your--to what you're trying to do, 
but we talked about this--less than a year ago, we were talking 
about this legislation.
    Secretary Mineta. Senator Burns, one of the things that, as 
Secretary of Transportation, I don't want to be caught in is 
the same position with the Aviation and Transportation Security 
Act. It's a great piece of legislation, but I don't want to be 
in the position of having armed pilots and then all of a sudden 
facing a bill of $850-to $900 million in terms of the startup 
costs, the training, getting the weapons for 85,000 pilots, and 
then incurring $250- to $260 million in annual costs to do 
quarterly recurrent training.
    No one, from what I can see, has really talked about the 
cost. And having gone through my experience with the Aviation 
and Transportation Security Act, I don't want to go down that 
alley again.
    Senator Burns. Well, I would suggest----
    Secretary Mineta. I want people to recognize----
    Senator Burns. Then I would suggest you stick around----
    Secretary Mineta. Oh, that's--no, no, I'm----
    Senator Burns.--and listen to the next panel----
    Secretary Mineta. That's fine.
    Senator Burns.--of testimony, because I think you'll find 
you'll learn that we can do it a lot better and a lot cheaper.
    Secretary Mineta. I learn all the time, sir.
    The Chairman. Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    I want to talk about the screening of checked bags and the 
measures that you're putting in place to assure the best 
performance that we can possibly have in that area. And I would 
like for you to talk about positive bag-match, and the fact 
that it is not required on connecting flights. You do have a 
pilot program in place, according to your testimony on our last 
hearing, to see if it is feasible to do bag match on connecting 
flights. So I want to know if that study has come back and what 
you are doing in that area?
    Secretary Mineta. First of all, that pilot program is going 
on, and it would be one of the areas that I would look to for 
implementation in order to meet the December 31 date. Maybe I 
can have Deputy Secretary Jackson expand more on the pilot 
program and inform you as to where we are on it.
    Mr. Jackson. We did a test of two airlines--United and 
American--in Chicago using hub connections, and they had 
somewhat significantly different types of technology in place 
to manage positive passenger bag-match for connections at those 
two airports, and it gave us a highly automated test and a very 
manual test. We have had a preliminary set of recommendations 
to us. We're still in negotiations and discussions and an 
assessment phase with the two affected airlines.
    The punch line from their perspective is the implementation 
of this procedure on a national basis would produce a 
significant number of delays and disruptions to the schedule, 
which would compel them to re-stack their schedules at major 
hub airports in order to be able to implement this. They 
pointed to the high cost of it. These are, I think, 
historically the concerns of the airline industry. We're going 
to have to balance, especially, the new circumstances that the 
Secretary talks about, the tool kits that we're going to have 
available to us to work the baggage-screening problem in light 
of the $1 billion to $1.5 billion reduction that we're facing.
    So it's an important part of our ongoing assessment. We 
don't have a final conclusion. We are looking at it very 
closely.
    Senator Hutchison. If you have the money you need, and that 
you are going to be able to hire the people you need, will you 
be able to make a December 31 deadline for some form of 
screening or checking checked bags on every flight?
    Mr. Jackson. We have, in the budget that we proposed as 
part of the $4.4 billion, a layered approach to this issue that 
is divided into two parts--one, what's appropriate for the all-
cargo carriers; and, two, what's appropriate for the passenger 
carriers that also carry cargo. A cornerstone of what we were 
hoping for was a very material enhancement of the known shipper 
programs, and we had asked for additional bodies--I believe 200 
individuals--to work those types of audits, assessments and to 
work the supply chain backwards to give us greater rigor and 
discipline in managing that cargo work. We had asked for 
technology in the airports, which we would use for walk-up 
customers.
    We're underway with the review at the postal service of 
possibly trying to allow for screening of postal cargo over 16 
ounces, and we've done a study with the postal service and with 
the air carriers to evaluate those issues.
    So there are multiple tracks to do this. There is no single 
piece of technology, machine, or equipment that we could drop 
on the table in the next few months that simply gives us the 
same level of scrutiny in the same mechanized way that we are 
trying to put in place relative to the bags. But we do believe 
we can materially improve it, strengthen it, and that's an 
ongoing commitment of TSA for the years to come, too.
    Senator Hutchison. Well, do you think that you will be 
able, by December 31, to have a sufficient coverage until you 
get the actual machinery in place?
    Mr. Jackson. Sufficient coverage is an elusive judgment. I 
think that----
    Senator Hutchison. Some coverage?
    Mr. Jackson.--we are constantly trying----
    Senator Hutchison. Some coverage?
    Mr. Jackson. Coverage, yes. More coverage than today. 
Better coverage than today. Is it going to satisfy us? No, 
we're not going to be satisfied until we feel like we've 
totally ``nailed'' this issue, but we have put very significant 
steps in place, a plan in place to do this, and I would welcome 
your further thoughts and assessment of that with us. That is 
an area where we want to focus more attention and need to focus 
more resources.
    Senator Hutchison. Since you mentioned cargo, Senator 
Feinstein and I have introduced a bill that would require cargo 
inspection on all passenger flights and a strong chain of 
custody for all cargo shippers. My bill would require a 
comprehensive system for certifying the known shippers, 
assigning an encrypted identifier to that known shipper. I 
don't know if you've looked at my bill, but I would like to ask 
you if you think we need to strengthen security in that area, 
and, if you've looked at my bill, does it address all of the 
issues in a comprehensive manner?
    Secretary Mineta. We have looked at your bill, and, again--
I guess one of the big things that I want to make sure is that 
specifications that we put out are general enough to be able to 
be inclusive of vendors and yet be exclusive enough to do a 
good job in terms of the security responsibility that we have. 
And that's the nature of what we're looking at in your 
legislation. And, frankly, I'm not sure, as we look at your 
legislation, what ``encrypted identification'' means, and if 
that is something that might become a sole-source kind of a 
problem for us.
    Senator Hutchison. Well, we're trying to have an identifier 
that could not be tampered with or----
    Secretary Mineta. And there are----
    Senator Hutchison.--counterfeited.
    Secretary Mineta. There are many ways of doing that, and 
that is something that we want to pursue.
    And, interestingly enough, if I might note, one of the 
things that we wanted to do with transportation workers was to 
start with an identification card for transportation workers, 
and that would be encrypted. But we have now been precluded 
from obligating any funds to pursue a transportation-worker 
identification card. Now, frankly, that was a precursor to 
seeing whether or not we would take that onto a trusted 
traveler program. But we can't even now work on a 
transportation-worker identification----
    Senator Hutchison. Are you talking about language in the 
Supplemental Appropriations bill?
    Secretary Mineta.--card.
    Secretary Mineta. Yes.
    Senator Hutchison. All right. Well, Mr. Chairman, I would 
just say I hope we're going to have a comprehensive bill. I 
hope it will address cargo as well as these other screened-
baggage deadlines. I think it is incumbent on us to do that and 
try to take away some of these barriers you're bringing up.
    Thank you, Mr. Chairman.
    The Chairman. Very good.
    Senator Allen?
    Senator Allen. Thank you, Mr. Chairman.
    The last time we were here, Secretary Mineta brought up 
several different things, and Mr. Magaw was here in those days, 
as well. There are two things I'm going to bring up, just to 
get your mind ready. One is going to be the, in my view, 
commonsense approach to providing a last line of defense 
airplane security, and the other is going to be Reagan National 
Airport.
    As I had mentioned back then, in May, on American Airlines, 
Flight 77, here you had one of the pilots, Captain Burlingame, 
U.S. Naval Reserves, had fought in Operation Desert Storm, and 
the question I posed was, well, if he had a firearm, would that 
have not been helpful in deterring these terrorists from taking 
over that aircraft? And the response was--``Well, things are 
better now than they were then.'' But still, there are efforts 
to continue to improve in a variety of ways. And I'm not going 
to criticize you all for this ramp-up of the TSA. To me, it is 
as if we're at halftime of a football game, and sometimes you 
have to make adjustments and realize that some things weren't 
going as planned, and I want to work with you to get that done, 
and there's no reason to be beating you all up unnecessarily in 
that regard.
    But, I sense at least a difference in perspective on the 
idea of arming pilots who are properly trained. You talked 
about how elaborate the training was and all the precautions 
and the safety for federal air marshals and is seems to me that 
there is at least some sense or recognition that having pilots 
properly trained with a firearm as a last line of defense is 
something that--does have a valid, logical commonsense approach 
to it.
    Secretary Mineta. Well--and I think, from a commonsense 
perspective, I want to look at whether or not we want lethal 
weapons in the cockpit. Can it be non-lethal? And, in terms of 
85,000 commercial airline pilots, do we give all of them arms? 
Or do we put the arms in a safe in the cockpit itself? On the 
other hand, if we're going to go non-lethal, then there are a 
number of different technologies that exist, whether they be 
tazers or going with----
    Senator Allen. Stun guns, yeah.
    Secretary Mineta.--the hard rubber bullets. And so, again, 
that's something we want to explore. But I'm--I just want 
everyone to keep in mind that there are costs associated with 
this program, as with others. And I just want to make sure that 
we are adequately funded to pursue whatever program we're going 
to be adopting.
    Senator Allen. Fine. I would say, Mr. Secretary, that all 
of those considerations are fine. If we're going to be arguing 
over costs when we're already spending billions of dollars on 
security, it makes sense that this added sense of security is 
very cost justified. I think it would give passengers a greater 
sense of security, and I think it--I do think it ought to be 
lethal----
    Moreover, the issue of whether they're all locked up in the 
cockpits or whether the pilots can carry them through the 
airport and so forth is another matter, but that's not 
necessarily addressed in the bill, other than the--bill, as I 
understand it, the firearms would be in the cockpit, although 
there could be situations, such as LAX, where, if somebody was 
attacking--and John--Senator Ensign will bring this up--
hundreds and thousands of people--could feel safer knowing that 
you see pilots going through airports. Right now, that 
deterrent of armed employee is only at E1 A1. And if they had 
gone and I'll not mention a domestic airline, but that person 
could have emptied out every single one of his bullets in his 
cartridge--and there would have been--many more people killed 
on account of that. So if cost is a concern, I think we can 
make a strong case that those lives lost were worth a great 
deal more than the cost of arming pilots.
    Now, on to Reagan National Airport. The last meeting, as 
you recollect, you lifted my hopes in saying that a plan would 
be announced for the reopening of general aviation at the end 
of that month of May. Obviously, it continues to be completely 
shut, other than for a few governors, I suppose, to general 
aviation.
    Secretary Mineta. And members of the House and Senate.
    Senator Allen. And members of the House and Senate.
    [Laughter.]
    Senator Allen. Well, I would like to see it opened to more 
than governors and a few members of the House and Senate.
    It seems to me that you have the right attitude on it. I 
know that Jane Garvey had similar sentiments, and I do want to 
commend her for many years of outstanding service. And I 
recognize you have conflicting people all together trying to 
give you different types of information, and, if it were up to 
some of them, Reagan National Airport would not even be open 
today for commercial aviation.
    What progress report can you give us at this hearing now, 
in July, as to the prospects of having heightened specialized 
security so that general aviation can, maybe at least on a 
limited basis, return to Reagan National Airport?
    Secretary Mineta. As you will recall, Senator--and I've 
enjoyed working with you on this subject--I believe it was on 
the 23rd of June that we were going to be opening up Ronald 
Reagan National Airport, but in the interim, from the time of 
the latter part of May to the time that--as we were getting 
closer to opening it up to general aviation, I was starting to 
see intelligence reports that said maybe we ought to take 
another look at this.
    And so last--I believe it was last Thursday or Friday--I 
met with all of the general aviation groups and gave them the 
opportunity to hear, not classified information, but 
information that gave more life to the subject matter. And what 
I would like to do, Mr. Chairman, is to offer to all of the 
Committee members, if we could arrange a time, for a security 
briefing, an intelligence briefing, of why I decided not to 
move forward on opening up Ronald Reagan National Airport, and 
I would be willing to do it for the Committee members or, you 
know, who----
    The Chairman. Yeah, we'll be glad to do it. We've got a 
roll call on in five bells, Senator Allen, and I want to give 
Senator Ensign a chance.
    Senator Allen. Sure. Well, I would like to have that 
briefing.
    Secretary Mineta. We would be more than happy to set it up.
    The Chairman. I think we ought to have another hearing here 
after we come back in September.
    Senator Ensign?
    Senator Ensign. Thank you, Mr. Chairman.
    I had a couple of questions, then I'll try to sum up my 
remarks so there's as much time to answer as possible. And, 
Admiral Loy, if you want to--I don't know if you know anything 
about these, but if you want to comment, I'd appreciate any 
thoughts that you have.
    If you're familiar with the 40-40-20 rule, I mentioned that 
at the beginning. It's the step to--especially before some of 
the bags are gone through. I just want to read you McCarron 
Airport's statistics on this if the 40-40-20 rule goes into 
effect, as is proposed. ``Currently, average''--or I'll just 
read you the peak times. Peak times at McCarron Airport for 
Southwest Airlines right now, a 43-minute wait at the ticket 
counter. Under the 40-40-20 rule, that peak time goes to four 
hours and 18 minutes. America West goes from an hour and 12 
minutes to three hours and 54 minutes. Delta Airlines goes from 
37 minutes to two hours and 23 minutes. And on and on.
    They've come up with--or they've at least proposed several 
other different scenarios. One would be a 70-30 rule where--to 
just read briefly, ``70 percent of the bags would be ETD 
screened, 30 percent of the bags are selectee or random-
selected, go directly to the EDS system, a hundred percent 
exterior protocol applied to 70 percent, and average time per 
bag would be about 30 seconds.''
    Just to compare if that scenario was used instead, which 
that should qualify--because the 40-40-20 was not in our 
legislation; that was done administratively--the 70-30 peak 
time at Southwest Airlines--actually, under this scenario, 
because of modern technology that's going to be applied at the 
airports, the peak time for Southwest will actually go down 
from what it is today. Instead of going up to four hours and 18 
minutes, it'll be an hour and 17 minutes. America West, instead 
of being three hours, 17 minutes, will be about two hours and 
11 minutes.
    So all--bottom line is--and that's under current; that's 
not under growing conditions. That's under current traffic 
passenger counts. The question was asked, ``Are we better--do 
we have better security today,'' and I think the answer is yes, 
everybody agrees we have better security. To eek out that last 
little bit, is it worth--and my question to the panel--is it 
worth four-hour waits? And what would four-hour waits do to the 
economy of a tourist destination?
    Secretary Mineta. Well, first of all, let me indicate that 
the charge we have--that we all have from the President's State 
of the Union message was to win the war against terrorism, at 
home and abroad, protect the homeland, and, thirdly, help 
revive the economy. Again, all three of them fit Transportation 
and TSA. And so we look at these things in terms of the impact 
on the airport, impact on the airline, the passenger, right on 
down the line.
    And I'm willing to take a look at the benefit of the 
airport's experience or yours or whomever's to select from 
what's been said--a commonsense perspective--which way we ought 
to be going. But, no, again, those are--we don't want to do 
anything to impact adversely on tourism----
    Senator Ensign. Well, and----
    Secretary Mineta.--the airport, or the----
    Senator Ensign.--it's not just affecting the economy. The 
scenario that I pointed out--when you get those kinds of waits 
in our airport, the crowds--now, you've just made vulnerable 
point.
    Secretary Mineta. Absolutely.
    Senator Ensign. And so you've hurt security instead of 
helped.
    Secretary Mineta. No question about it. No question.
    Senator Ensign. That's what I'm saying, is that if you look 
at these--and that's why, Admiral Loy, I want you to take a 
close look at some of the other alternatives that they've come 
up with that would give us the security we need without 
creating these huge long lines and--we already have a--even 
with the lines that we have with this increased security, we 
already have somewhat of a problem, but when they see thousands 
of people waiting there, you know, and then--they're just going 
to see we need security to get into the airport, and then you 
just back--you just keep backing up the security checkpoints 
and back up the vulnerability points.
    Admiral Loy. Senator Ensign, absolutely I will look at it, 
and those are unacceptable numbers, and we would never impose 
those on McCarron. I'd like to think of that rule, by the way, 
as 20-40-40 rule, as opposed to the other way around, based on 
object searches first and then open bag and closed bag.
    But when 36 million go to Las Vegas on an annual basis, and 
18 million of them come and go through that particular airport, 
we understand there are out-of-the-ordinary challenges with a 
volume flow through McCarron. And at the same--to go to the 
same point with respect to a power supply with respect to 
machines on 12-31, we will be reasonable in terms of working 
with the airport director and with the mayor and with whoever 
is necessary to produce the right kind of a profile that is 
appropriate for McCarron. And I look forward to getting back to 
you, sir, with respect to this particular issue.
    Secretary Mineta. Senator, let me ask about that power-
supply issue. Was that all being driven by security equipment?
    Senator Ensign. Yes. Those are the EDS machines. Those are 
the EDS machines that are necessary. In other words, if they 
have them----
    Secretary Mineta. And that's--and that's driving the 
necessity for a new substation?
    Senator Ensign. Yes. Yes, they have to do that. They have 
to have that for the new substation.
    Secretary Mineta. It's not because of other expansion and 
other things going on?
    Senator Ensign. No.
    Secretary Mineta. Hard to imagine that.
    Senator Ensign. Well, put it--put it this way. If they have 
the new--I mean, they are in an expansion right now, but if 
they--well, actually, they just finished some expansion--if 
they have the machines--from what they tell me--I'm just going 
on what they tell me; I'm not an expert on power supplies and 
all that--if they had the machines on location today, they 
could not plug them in.
    Admiral Loy. Sir, one of the sources of the Secretary's 
thought process there is, of $200 million set aside as an 
earmark in the--you know, in the supplemental, that's $231 
million that was--probably found its way in there as a result 
of concerns expressed by airports or whomever is going to 
benefit from those dollars. To the degree they are not 
available to us to design that right security system, including 
power plants, as appropriate, but let the--let the right player 
be producing the dollars for the right segment of their 
responsibility in that formula. That's where we need to go at 
the other end of the day.
    Senator Ensign. And just lastly, Mr. Chairman, I want to 
make a strong push for the trusted traveler program. I know our 
previous director was against the trusted traveler program, 
because he thought somehow that that would, you know, benefit 
the rich. It benefits everybody if you get people out of the--
you know, if you can actually make sure that they're secure, 
but you get them out of the lines, that benefits the people 
that are currently standing in lines, and so it just makes 
common sense.
    Admiral Loy. Absolutely, sir. There are very serious issues 
associated with designing it right. And, as the Secretary was 
proper to point out, our inability to press forward on the TWIC 
Card is going to put an impediment in the process of gaining 
progress toward a trusted travel program that I, too, agree is 
a very sensible approach.
    The Chairman. Very good, Mr. Secretary. And thank you and 
the panel for your appearance here this morning before the 
Committee.
    Two things, one, we just got through marking up the 
emergency supplemental. We thought we had done more than was 
needed, in that the director of the Office of Management and 
Budget, Mr. Daniels, cut us $250 million on the premise that, 
look, you couldn't possibly spend it, and everything else of 
that kind. Now, you appear before the Committee, and you say 
you are a billion dollars shy in the next two months, between 
now and September the 30th.
    So the only remedy to that situation is if you can get 
Mitch Daniel to ask us for another little emergency 
supplemental singularly for this billion, we can pass it 
through quickly, in 24, 48 hours, I can guarantee you, because 
that was the attitude and mindset of the House member and 
senators, bipartisan. Otherwise, on the 2003 budget that we 
just reported out, we increased that some 150 million more than 
the President requested, again. And so we're over here trying 
to get you more money. The OMB Office is saying, ``Cut back. 
Cut back. They can't even spend it.'' And let's get that 
cleared up, because we've got to keep moving.
    Secondly, with respect to--irrespective of how the fight 
comes out about pistols, guns, stun guns or otherwise, we 
cannot come off with a secure door. See if you can accelerate 
that. If I was a pilot, other than guns and all this other kind 
of argument and everything else like that, I would want that 
proof positive, tried and tested system of keeping that door 
absolutely secure in flight going right straight down to the 
ground. Now, let's get and see if we can do it faster than 
2003.
    Delta is way ahead, some of these other airlines, to 
protect their pilots, have got that in mind. But once that door 
is secure, you don't have to worry about taking off from Reagan 
and going into the White House. You don't have to worry about 
going into these buildings, the Empire State or otherwise, you 
don't have to worry about going into a power plant, you don't 
have to worry about all this 30 minutes after takeoff, 30 
minutes--that solves a heck of a lot of problems, and let them 
have this intermural on guns. But once that door is secure, 
they can shoot each other or whatever, take practice--or 
whatever they want to do.
    But I can tell you, if Secretary Mineta and Senator 
Hollings were in that cockpit, and we were both strapped in, 
and that door wasn't secure or even secure, we thought, and the 
steward hollered that, ``He's got me by--he's choking me. Open 
the door. Open the door.'' I'm sitting there. I'd say, ``Norm, 
you open the door.''
    [Laughter.]
    The Chairman. Because when you open that door, you might 
get off one or two shots, but I can tell you those terrorists 
are coming in, and they've got me, the pilot, and that plane is 
going into another building. We're talking about real life.
    Thank you all very much, and we asked the Committee to be 
at ease to receive the second panel.
    [Recess from 12:03 to 12:13 p.m.]
    Senator Burns (presiding). Okay, here we go. Those outside 
that want to come in, all aboard and get aboard. If you can't 
get a board, get a plane.
    [Laughter.]
    Senator Burns. We have, on our second panel--and I was 
hoping that we would get to them just a little bit--a little 
bit quicker, but nonetheless, everybody wanted to talk about 
airport security, and I want to talk about airplane security, 
and we're going to do that.
    We have with us Dr. Gerald--no, we've already taken--seen 
him--Dr. Richard Stephens, vice president and general manager 
of Homeland Security Services of the Boeing Company; Craig Coy, 
CEO, Massachusetts Port Authority; Captain Steve Luckey, 
chairman of the National Flight Security Committee; and Captain 
Ed Davidson, director of Flight Safety at Northwest Airlines. 
Can I trade you all your miles on your airline, Captain?
    Captain Davidson. Any time, Senator.
    Senator Burns. If I could do that----
    We welcome you here this morning, and I'm going to start 
with Captain Davidson, of Northwest Airlines, and I'm just 
going to go that way, and then we'll have a little dialogue on 
arming the pilots, if they so choose, on the flight deck of our 
airliners.
    Captain Davidson, welcome.

   STATEMENT OF CAPTAIN EDWARD M. DAVIDSON, DIRECTOR, FLIGHT 
        SAFETY AND QUALITY ASSURANCE, NORTHWEST AIRLINES

    Captain Davidson. Thank you, Senator.
    Chairman Hollings, Ranking Member McCain, Senator Burns, 
and other members of this distinguished Committee, thank you 
for the opportunity to testify today.
    My name is Ed Davidson, and I have been a commercial 
airline pilot for 24 years. For the past 13 years, I have 
served as a captain for Northwest Airlines, and I am currently 
the airline's director of Flight Safety and Quality Assurance. 
My flying career, that includes more than 20,000 flight hours, 
began with service in Vietnam as a U.S. Navy pilot. In 1994, I 
retired as a commander in the U.S. Navy Reserve.
    Mr. Chairman, I couldn't agree more with your opening 
statement. Let's ensure that the cockpit door is the shield we 
need so we can concentrate on our principal job, flying. And I 
appreciate the chance today to explain why in the real world of 
a cramped cockpit, where there is no margin for error, 
permitting commercial pilots to carry and use lethal firearms 
threatens the safety of the traveling public.
    I'd like to explain how pending legislation undermines 
Congress' original intent to use hardened cockpit doors as a 
protective shield enabling flight crews to safely land a 
threatened aircraft as quickly as possible. Simply put, S. 2554 
raises more troubling safety questions than it provides 
security answers.
    At the outset, let me thank the Committee and the Congress 
for your ongoing efforts to improve aviation security. Quick 
passage of the Aviation and Transportation Security Act of 
2001, after the horrific events of September 11th, was a great 
comfort to the traveling public and particularly those of us 
who work onboard commercial aircraft.
    Mr. Chairman, as a professional commercial airline pilot, 
when I am on duty, my singular focus is and always must be the 
safe operation of my aircraft. And I fully subscribe to the 
view that my colleague, Captain Duane Worth, expressed in 
testimony before this distinguished Committee last fall when he 
said, and I quote, ``We can't be sky king and Wyatt Earp at the 
same time,'' unquote. The two roles cannot coexist without 
compromising a pilot's duty to safely operate his or her 
aircraft.
    Now, I understand that reasonable can differ on important 
issues, and I respect the fact that some of my fellow 
commercial pilots, including Captain Worth, whose position has 
now changed, have a different view of this legislation. And I 
believe congressional supporters of S. 2554 are certainly well-
intentioned. However, the unintended consequences of arming 
pilots in a confined cockpit are too alarming and potentially 
disastrous to disregard.
    I have several concerns. First, this legislation completely 
undermines Congress' intent to make hardened cockpit doors an 
unbreachable line of defense so flight crews with a threatened 
aircraft can safely land as quickly as possible. Second, it 
compromises the safety of the cockpit. And, third, it 
contradicts key provisions of last year's security law.
    As Congress envisioned, the cockpit door has become a 
significant line of defense. And, in fact, I feel much more 
secure in the flight deck today as a result of hardened cockpit 
doors, which are now being installed, and tough protocols that 
severely restrict those times when the cockpit door can be 
opened.
    This bill, however, would create a dangerous breach. Having 
a firearm in the cockpit creates a temptation, and more likely 
an imperative, for flight crews to open the flight deck door in 
dangerous and chaotic cabin situations. That is exactly the 
wrong direction for this Congress to give flight crews. These 
are precisely the times that the cockpit should remain closed 
while the pilots land the aircraft as quickly as possible. Your 
conclusion that hardened cockpit doors are the most effective 
way to protect the cockpit remains valid today.
    In case you haven't been in a cockpit of a commercial 
aircraft, it's extremely cramped quarters. Pilots are literally 
shoe-horned in among equipment and monitors from floor to the 
ceiling. The legislation would add a lethal firearm to this 
proverbial China shop. What happens if a firearm discharges in 
the cockpit inadvertently or otherwise? Bullets could kill or 
incapacitate members of the cockpit flight crew, or they could 
strike one of the critical systems required for safe flight.
    Mr. Chairman, I concede that these are worst-case 
scenarios; however, I am trained, and I train other pilots, to 
address worst-case scenarios. That is the most effective way to 
ensure the passengers arrive safely at their destinations.
    By no means, however, are these scenarios farfetched. 
According to at least one study, 21 percent of police officers 
killed with a handgun were shot with their own service weapon. 
Struggles for control of firearms are not uncommon and, sadly, 
neither are accidents involving firearms.
    Contrary to the intent of heightened screening directives 
in the new law, the legislation will lead to a proliferation of 
firearms being carried into the sterile security areas of 
airports and onboard aircraft. It could have the unintended 
effect of drawing a road map where terrorists could procure 
lethal weapons. Any pilot in uniform would be viewed as being a 
potential repository of a lethal firearm.
    Air marshals, on the other hand, do not present the same 
threat, because they are anonymous. Onboard the aircraft, the 
legislation would simply draw a road map straight to the 
cockpit for terrorists seeking lethal weapons. Simply put, 
there is not guarantee that firearms are brought to the airport 
and into the cockpit will remain in the hands of the guys with 
the white hats.
    Before I conclude my remarks, I want to address a specific 
argument that's been made by the proponents of arming pilots. 
As a former Navy aviator and a commercial airline captain, 
there is nothing I want more than to prevent a scenario in 
which the military might be called upon to shoot down a 
commercial aircraft. I would suggest, however, that the 
objective of security legislation be to prevent any loss of 
life onboard aircraft or on the ground resulting from 
terrorism-related activity or our responses to it. We need to 
carefully and thoughtfully heighten security without creating a 
greater risk than the one we seek to address.
    Mr. Chairman, let me conclude by again thanking you and 
your senators for the opportunity to speak before you today, 
and I certainly would be happy to take questions.
    [The prepared statement of Captain Davidson follows:]
  Prepared Statement of Captain Edward M. Davidson, Director, Flight 
            Safety and Quality Assurance, Northwest Airlines
    Chairman Hollings, Ranking Member McCain, and other Members of this 
distinguished Committee, thank you for the opportunity to testify 
today. I appreciate the chance to explain why, in the real world of a 
cramped cockpit where there is no margin for error, permitting 
commercial pilots to carry and use lethal firearms threatens safety 
more than it potentially will improve it. Moreover, I am grateful for 
the opportunity to explain how the legislation undermines Congress' 
intent to make hardened cockpit doors an impenetrable protective shield 
for flight crews, and how it dangerously contradicts a flight crews' 
first responsibility to give its undivided attention to safely land a 
threatened aircraft as quickly as possible. Simply put, S. 2554 and 
H.R. 4635 raise more troubling safety questions than they provide 
security answers.
    My name is Edward Davidson and I have been a commercial airline 
pilot for 24 years. For the past 13 years, I have served as a Captain 
for Northwest Airlines and I currently am its Director for Flight 
Safety and Quality Assurance. I also presently serve as an Instructor 
Pilot and Check Airman for the Airbus 320 aircraft and previously 
served in a similar capacity on the MD-80, DC9 and B-727. My flying 
career, that includes more than 20,000 flight hours, began with service 
to our Country in Vietnam as a U.S. Navy pilot. In 1994, I retired as a 
Commander in the U.S. Naval Reserve.
    At the outset, let me thank the Committee and the Congress for your 
ongoing efforts to improve aviation security. Quick passage of the 
Aviation and Transportation Security Act of 2001 after the horrific 
events of September 11 was a great comfort to the traveling public, and 
particularly those of us who work onboard commercial aircraft. The 
Committee's continuing vigilance to ensure the new security law is 
fully and thoughtfully implemented is greatly appreciated.
    Mr. Chairman, I am a professional commercial airline pilot. When I 
am on duty, my singular focus is, and always must be, the safe 
operation of my aircraft. Commercial pilots operate in an environment 
where there is zero margin for error. It is a demanding profession 
where the failure at any time to give one's undivided attention to the 
safe operation of one's aircraft can have catastrophic consequences. I 
fully subscribe to the view my colleague, Captain Duane Woerth, 
expressed in testimony before this distinguished Committee last Fall--
``We can't be Sky King and Wyatt Earp at the same time.'' The two roles 
cannot coexist without necessarily compromising a pilot's paramount 
duty to safely operate his or her aircraft.
    Reasonable people can differ on important issues. I respect the 
fact that some of my fellow commercial pilots, including Captain 
Woerth, whose position has changed, have a different view of this 
legislation. I also believe Congressional supporters of S. 2554 and 
H.R. 4635 are well-intended. However, the unintended consequences of 
arming pilots in a confined cockpit are too alarming and potentially 
disastrous to disregard. In my professional judgement, the reduction in 
safety that undoubtedly will result from blurring the flight crews' 
singular focus on the safe operation of its aircraft will make the 
skies more dangerous rather than safer.
    Let me now turn to the most significant and troubling unintended 
consequences of this legislation that strongly cut against its 
enactment. These include the fact the legislation (1) completely 
undermines Congress' intent to make hardened cockpit doors an 
impenetrable line of defense so flight crews with a threatened aircraft 
can safely land the aircraft as quickly as possible at the nearest 
airport feasible, (2) increases the probability of operational errors, 
(3) compromises the safety of the cockpit and (4) undermines key 
provisions of last year's security law.
    First, the legislation undermines this Committee and Congress' 
intent in the new security law to make secured cockpit doors the best 
line of defense against an aircraft being commandeered for terrorist 
purposes. Your conclusion that hardened cockpit doors are the most 
effective way to protect the cockpit remains valid today. In fact, I 
feel much more secure in the flight deck today as a result of hardened 
cockpit doors which have been installed and tough protocols that 
severely restrict when the cockpit door can be opened. As Congress 
envisioned, the cockpit door has become a significant line of defense. 
Importantly, relying on this approach, the goal of protecting the 
cockpit has been accomplished in a manner that does not produce 
unintended dangers for passengers, the aircraft itself and the flight 
crew.
    The legislation would create a dangerous breach in the hardened 
cockpit door line of defense you championed last year. It also directly 
contradicts a pilot's first priority to safely land a threatened 
aircraft as quickly as possible at the nearest airport feasible which 
hardening of cockpit doors was intended to facilitate. Specifically, by 
having a firearm in the cockpit, it creates a temptation, and more 
likely an imperative, for flight crews to open the cockpit door in 
dangerous and chaotic situations. That is exactly the wrong direction 
for Congress to give flight crews in such circumstances. Those are 
precisely the times a cockpit door should remain closed and act as an 
impenetrable shield so the pilots can safely land the aircraft as 
quickly as possible. There is a more effective and safer alternative to 
lethal firearms in the cockpit. It is reasonable cockpit door 
protection which you identified and mandated last year, and it is a 
prudent solution that is working.
    Second, arming pilots will erode their ability to operate aircraft 
at the same level of safety that exists today. Human performance 
studies by NASA Ames Research and other academic bodies consistently 
show that the more you add to a pilot's workload and create variances 
from his or her normal routine, the higher the likelihood for human 
error in all aspects of that pilot's performance. In a profession where 
human mistakes today account for 60 percent of all air carrier 
incidents and accidents, the safety of the traveling public demands 
this potential negative impact of the legislation on operational errors 
not be glossed over.
    Mr. Chairman, despite all the high technology and automation in 
today's commercial aircraft, humans operate them. The airline pilot's 
job is a demanding one. Modern jet aircraft present complex systems and 
management demands of their pilot operators in variable environments. 
Workload is further intensified by adverse weather, heavy traffic 
density and the need for accurate communications. Add to that mix 
multiple time zones, complex reasoning and rapid decision-making with 
life or death consequences and the result is a recipe for human beings 
experiencing mental and physical stress. This is especially the case 
during takeoff, approach, landing and abnormal operations or with 
inoperative equipment. Like any human, airline pilots are the most 
operationally reliable and least prone to error when experiencing only 
a minimal to moderate workload.
    Studies show time after time that human performance and error 
reduction depend on the stability of the workload as much as the level 
of workload. Workload stability is critical. This is why all airlines 
attempt to stabilize workloads and decrease the likelihood of 
unexpected demand on crews as much as possible by employing pre-
designed checklists and procedures and training on workload management 
techniques. These safeguards are designed to decrease unexpected pilot-
required input and thereby create a structure intended to minimize the 
occurrence of human operational errors. The effectiveness of these 
measures has been impressive as accidents and incidents attributable to 
pilot errors continue to decline substantially.
    The potential addition of firearms to the flight deck turns these 
efforts on their head. It would create workload instability and 
sacrifice predictability by creating the opportunity for a whole new 
series of demands on pilots. New decisions such as determining if a 
life-threatening event is occurring, whether to open the cockpit door 
to confront suspected air terrorists, and whether to draw the weapon 
and on whom and when to fire undoubtedly would present a potentially 
significant new and unpredictable increase in workload. Keep in mind, 
these disruptions in workload stability occur at the very time a pilot 
simultaneously is trying to safely operate the aircraft. To call the 
magnitude of this adverse impact on routine workload management 
overwhelming would be a gross understatement. In my judgment, the 
resulting potential increase in operational errors could jeopardize 
safe aircraft operations to a greater extent then the threat to the 
flight deck crew, cabin crew and passengers this legislation is 
intended to address.
    Mr. Chairman, there are some pilots who might say carrying a 
firearm is not a big deal. They also might dismiss my admonition and 
say the red flag I raise today about negative cascading impacts on 
operational errors is unwarranted. However, I believe it to be self-
evident and incontestable that carrying and potentially using a lethal 
firearm in a crowded and potentially chaotic setting aboard a 
commercial airliner while piloting that aircraft across the skies at 
hundreds of miles per hour would undeniably add both stress and 
instability to a pilot's workload. Common sense and scientific studies 
confirm that scenarios such as this have the potential to impact 
overall performance and increase the possibility of human error. 
Authorizing a dual law enforcement role for a pilot, even if he or she 
does not believe it is a big deal, has the high likelihood of 
negatively impacting safety performance.
    Third, there are potentially grave unintended consequences and 
risks inherent in having a lethal firearm in the flight deck. For good 
reason, there has been considerable discussion of the dangers of pilots 
and highly trained air marshals discharging firearms in the passenger 
cabin of commercial aircraft. The threat to innocent passengers of 
being inadvertently shot must be considered very carefully. So too 
should the potential harm to the structural integrity of the aircraft 
if it is pierced by a bullet. Today, however, I would like to focus on 
the area of aircraft I know best, the flight deck.
    In case that you have not been in the cockpit of a commercial 
aircraft, it is extremely cramped quarters. Pilots are literally shoe-
horned in among equipment and monitors from the floor to the ceiling. 
The legislation would add a lethal firearm to this proverbial ``china 
shop.'' This is where the unintended consequences of the legislation 
become especially frightening.
    What happens if the firearm discharges in the cockpit? Irrespective 
of whether the gun is inadvertently discharged, accidentally fired 
during a wrestling match with an inebriated passenger or deliberately 
fired at an assumed attacker, every scenario is potentially ominous for 
passengers and the survivability of the aircraft. Bullets could kill or 
incapacitate all members of the cockpit flight crew rendering them 
unable to fly the aircraft. They could pierce the flight deck windows 
creating a potentially catastrophic cockpit decompression rendering it 
impossible for the flight crew to control the aircraft. They could 
strike one of the many multi-functional instruments putting at risk 
numerous safety critical systems. Or, a stray bullet through the floor 
could strike critical electronic navigation equipment located beneath 
the flight deck.
    Mr. Chairman, I concede these are worse case scenarios. I am 
trained, and train others pilots, to address worse case scenarios. That 
is the most effective way to ensure passengers arrive safely at their 
destination. By no means, however, are these scenarios far-fetched. 
According to at least one study, 21 percent of police officers killed 
with a handgun were shot with their own service weapon. Struggles for 
control of firearms are not uncommon. Sadly, nor are accidents 
involving firearms.
    As a Captain, given the delicate and cramped confines of the 
cockpit, it is the last place on an airborne commercial aircraft where 
I would want a wrestling match to occur, much less one involving the 
potential for stray bullets being fired. The inherent risk that the 
legislation compromises the safety of the cockpit reinforces my belief 
the proposed legislative response may well create greater risk for 
passengers, crews and innocent people on the ground than the threat it 
is intended to address.
    Finally, I wish to take the opportunity to identify implications of 
the legislation that may inadvertently undermine the multi-layered 
security system the new security law seeks to enhance. Specifically, I 
am referring to the implications of the legislation for airport and 
onboard security.
    As I understand, the principal objective of the new security law 
was to ensure the sterile areas in the air travel security chain are in 
fact free of lethal and potentially lethal weapons that diabolical 
people could use to wreak death and destruction. Yet, the legislation 
pending before you could have precisely the opposite effect. In fact, 
it could lead to a proliferation of firearms being carried in the 
security sterile areas of airports and onboard aircraft. The Committee 
should carefully consider both the ramifications this might have and 
the consequences that might result from it.
    As we tighten security at screening checkpoints to ensure lethal 
weapons do not pass into security sterile airport areas beyond them, 
the legislation could have the unintended effect of drawing a roadmap 
where terrorists could procure lethal weapons inside the sterile area. 
Any pilot in uniform would be viewed as being a potential repository of 
a firearm. Air marshals do not present the same threat because they are 
anonymous. Pilots could be followed and their flight bag could be 
stolen or taken by force. If this seems unrealistic, just consider how 
often you see pilots at airports put down their flight bag to use the 
restroom or make a telephone call.
    This legislation also has the potential to make airports armories 
for pilot firearms. Where will pilots store their firearms? Do you 
expect pilots to leave their weapons at the airport or take them to the 
crew hotel? If the former, would it promote or rather threaten 
passenger safety to have a stockpile of weapons stored at the airport? 
I believe these are questions the Committee needs to carefully 
consider.
    Onboard the aircraft, security has been based on the premise that 
we want to keep lethal weapons off aircraft. An exception to this 
general rule was understandably made for air marshals who are highly 
trained and, more importantly, singularly focused on law enforcement 
responsibilities. This legislation dismisses this principle and in its 
place welcomes lethal weapons onboard commercial aircraft under the 
apparent belief that they would be used solely to protect passengers. I 
wish we could make that assumption with certainty but we cannot. 
Firearms can and do end up in the wrong hands. As I mentioned earlier, 
one study shows that 21 percent of police officers killed with a 
handgun were shot with their own weapon. Simply put, there is no 
guarantee that firearms brought into the cockpit will remain in the 
hands of the ``good guys'' and be used to protect passengers.
    Like the airport scenario I described a moment ago, another area of 
concern is that the legislation would inadvertently draw a roadmap 
straight to the cockpit for terrorists seeking lethal weapons onboard 
the aircraft. Whether or not a particular flight crew has volunteered 
to participate in the program, there will be the general perception 
that firearms may be available in the cockpit. In the spirit of 
thwarting efforts by terrorists, we could inadvertently be presenting 
them with an opportunity.
    Before I conclude my remarks, I want to address a viscerally 
powerful argument made by proponents of arming pilots. This is the 
argument that if Congress fails to arm pilots it increases the risk 
that the military will be called upon to shoot down a commercial 
aircraft. As a former Naval aviator and a commercial airline Captain, 
there is nothing I want more to prevent than that scenario. I would 
suggest, however, that the Committee should broaden and reframe the 
issue. The objective should be to prevent any loss of life onboard 
aircraft or on the ground resulting from terrorism-related activity or 
responses to it. If we put in place an unwise and dangerous measure 
such as arming pilots with lethal firearms that leads to a wrestling 
match in the cockpit and a resulting crash, loved one's of lost 
passengers, crew and fatalities on the ground would grieve no less. We 
need to carefully and thoughtfully heighten security without creating a 
greater risk than the underlying one we seek to address.
    Mr. Chairman, let me conclude by again thanking you for the chance 
to testify today. Also, let me reiterate my appreciation to you, 
Ranking Member McCain and this distinguished Committee for your 
leadership and diligence on aviation security matters. I urge you to 
very carefully consider the proposal before you that would permit 
commercial pilots to carry and use lethal firearms. Upon full and 
careful review, I believe the facts and serious questions that arise 
will lead you to join me in concluding that S. 2554 should not be 
enacted because it threatens air safety more than it potentially would 
improve it.

    The Chairman. Very good.
    Captain Luckey?

        STATEMENT OF CAPTAIN STEPHEN LUCKEY, CHAIRMAN, 
      NATIONAL FLIGHT SECURITY COMMITTEE, AIRLINE PILOTS 
                          ASSOCIATION

    Captain Luckey. Yes, sir, good morning.
    Mr. Chairman, Senator Burns, distinguished members of the 
Committee, I'm Captain Steve Luckey, and I'm chairman of the 
National Flight Security Committee of the Airline Pilots 
Association. And in that capacity, I represent the security 
interests of some 67,000 pilots that fly for 43 airlines in the 
United States and Canada. I have submitted a written statement 
for the record, by the way.
    My comments today reflect the feelings of pilots beyond the 
scope of this membership. And I guess disagreement is healthy. 
We have a very different approach and a very different 
viewpoint of the--addressing the threat.
    Protecting the aircraft is a team effort. It's something 
that both the flight attendants and the pilots need the proper 
tools, and the training, and the tactile knowledge to 
effectively address the threat. Today I want to address the 
protection of the cockpit, the arming of pilots, a little bit 
about verification, and also something about--address the cargo 
security issue.
    I'm confident that I can build a strong case for our 
position and clear up many misconceptions regarding the armed-
pilots issue. First of all, we're not trying to put guns out 
into society and arm the general population or anything like 
that. What we're going to do is--what we're proposing to do is 
to arm sworn federal law-enforcement officers that just happen 
to be pilots. They will be there for the limited defense of the 
cockpit proper. That weapon will not be used in any way, shape, 
or form outside of the cockpit, and it will be used as a last 
line of defense to get the aircraft on the ground in the event 
of an intrusion.
    It may be of interest to you that in the 1970s I was 
selected and trained by the FBI as a pilot to carry firearms 
onboard an aircraft. It was a very small program, very elite. 
It was something that was requested by the president of our 
airline. It was--I was trained by the FBI. It was approved by 
the FAA at that particular time. It was not always a pleasant 
experience. Custodial responsibility of a firearm--I've been 
carrying it for many, many years--is definitely something 
that's very serious. I thoroughly believed in the concept at 
that time. I thoroughly support it now, and I believe that we 
need it in this day more than we have ever needed it before.
    We never recommended arming all the pilots. That's not what 
we want to do. As a matter of fact, only probably a small 
percentage would ever go through the process. It's--the 
statistics indicate that about--somewhere between 75 and 80 
percent of the people support it that fly. That's an 
overwhelming majority of numbers. The public supports it, and 
you heard the statistics today.
    The pilots would go through a brief but very exacting 
training program. The selection process would be very much like 
that for the recruitment of any other federal agent. You would 
go through a selection process. First of all, it's completely 
voluntary. The volunteers would be subjected to an interview, 
background check, and suitable training for that to see if 
they're suitable for the particular task at hand.
    Do we need this capability? I think we must be able to 
predictably protect the cockpit from terrorist attack. We need 
a central piece of emergency equipment. And that's all this is, 
is a piece of emergency equipment. Its purpose is to defend 
against a demonstrated threat, or the alternative is to be shot 
down by an F-15 or F-16. I think we need something between that 
door, which--there isn't a barrier in the world that cannot be 
defeated by a dedicated individual who is willing to pay the 
ultimate price to get through that barrier. That's been 
demonstrated successfully many, many times.
    I believe that the armed cockpit program will create a high 
level of deterrence. I think it's efficient, and I think it's 
relatively economical, when you look at the costs that we're 
talking about here and the money and the budget and--been 
mentioned this morning. Pilots are exceptionally well-suited 
for the task, and the public definitely, overwhelmingly 
supports this particular concept.
    Some argue that the new doors, the federal air-marshal 
program, the improvements in the security program negate the 
need to arm aircraft. I disagree with that wholeheartedly. I 
think that that's a misconception, and it's a very dangerous 
thing, tactically, to assume something that this particular 
element can very well address, and that is to ultimately 
guarantee that, in the event that that door is breached--and 
doors aren't always closed; they're opened--and if you look at 
the Israeli concept, it's easy to see that the new proposed 
door does not in any way address the Israeli tactical concept 
of having the double doors with the mantrap concept in between, 
and the submarine tactic whereby only one door is opened at any 
one time. They have a marshal on every aircraft. We don't have 
that luxury. We have them only on a small percentage. And they 
also have a kill zone in front of that door. They're very 
pragmatic. It's been my experience that we're not quite ready 
to go there, where the Israelis are. They put the oil on the 
squeak. We're not quite ready to do that.
    All layers of security contain some level of--and these 
levels need to be increased. They need to be more dedicated. 
They need to be more finite as you approach that principal 
point of protection, which is the cockpit. We have to, at all--
to use all methods and all capabilities and all tactics and all 
tools to adequately address this threat. It's a very pervasive 
issue, and, you know, it's something I've very passionate 
about, as you can see.
    Since 1987, ALPA has worked very hard to establish access 
control verification in our system, and we've developed--worked 
with a company in Minneapolis to develop a very economical 
system to do this. The card's about 50 cents, and it costs less 
than two cents per transaction. But we don't know right now 
that the armed--the guys getting on the airplanes with guns are 
who they say they are. The GAO study in 2000, you know, they 
breached 19 federal buildings and, you know, two airports with 
bogus IDs.
    We are recommending that we establish an independent, not-
for-profit organization to handle this particular thing, like a 
transportation-workers identification card, the TWIC. We also 
strive for one level of security, that one level of security is 
the same, it should be, on passenger or cargo aircraft. Cargo 
aircraft are vulnerable right now. Terrorists have been known 
to occupy containers and ship themselves onboard vessels. 
There's nothing to prohibit that they couldn't do that on a 
particular aircraft in our business. The known shipper concept 
just doesn't quite--it's not enough to adequately address the 
screening of cargo.
    Thank you for allowing me to present the cockpit 
perspective and helping us to acquire the tools, the training, 
and the tactical knowledge to return to our families alive. 
That's what we want to do. Eight pilots didn't make it on 
September 11, 2001.
    And I'd be happy to answer any questions. Thank you, sir.
    [The prepared statement of Captain Luckey follows:]

Prepared Statement of Captain Stephen Luckey, Chairman, National Flight 
             Security Committee, Airline Pilots Association
    Good morning. I am Captain Stephen Luckey, chairman of the Airline 
Pilots Association International's National Flight Security Committee. 
ALPA is the nation's largest pilot union, representing more than 67,000 
pilots who fly for 43 airlines in the U.S. and Canada. We are 
appreciative of the Committee's interest in the subject of aviation 
security and for soliciting our views on it.
    It is no secret that the Transportation Security Administration is 
struggling to perform the job that it has been assigned by Congress. 
The tasks of building a new security agency and complying with the 
numerous mandates given it are monumental. However, the work has been 
greatly hampered by the agency's demonstrated unwillingness to 
coordinate and work with the aviation industry on virtually anything. 
The recent resignation of the Transportation Security Administration's 
(TSA's) Under Secretary, John Magaw, undoubtedly creates greater short-
term turmoil. However, we are hopeful that under the guidance of the 
new Under Secretary, James Loy, the TSA will begin to initiate serious 
efforts to build partnerships with the aviation industry that will lead 
to genuine progress on needed security reforms.
    In my testimony today, I would like to speak to three specific 
issues that are important to our members, namely, the federal flight 
deck officer program, access control and identity verification systems, 
and cargo security.
Federal Flight Deck Officers
    The subject of arming pilots is one that has generated significant 
public debate and no small amount of misunderstanding. I am confident 
that we can build a strong case for our position today, which ALPA was 
the first to recommend to Congress last September, and at the same time 
help to clear up some pervasive misconceptions surrounding this topic.
    My further remarks contain rebuttals to some of the more common 
arguments raised against arming pilots, but I would at this time like 
to rebut the most politically charged argument voiced against this 
program. That argument says that pilots should not be armed because 
doing so would introduce tens of thousands of new weapons into our 
society. This statement is both specious and misleading because the 
individuals who will bear those arms will be sworn law enforcement 
officers who are armed for the defense of their limited, cockpit 
jurisdiction and, ultimately the protection of the passengers for whom 
they are responsible. We doubt that the proponents of such an argument 
have given due consideration to its full ramifications, but suffice it 
to say that we see no point in comparing the arming of sworn federal 
agents with the arming of the general population.
    I would like to offer a perspective on the need for arming pilots 
that perhaps you have not considered. Eight pilots were killed on 
September 11th. The deaths of those eight pilots resulted in the 
transfer of aircraft control from authorized crewmembers to terrorists 
bent on destroying our country and its people. More than 3,000 people 
were murdered, billions of dollars of property damage was incurred, the 
nation's economy was rocked and is still suffering, thousands of people 
were laid off, and billions of dollars of new spending will be 
allocated to security both in this country and around the globe for 
years to come--all because eight pilots were killed. It is obvious, or 
should be, that protecting the flight deck and its occupants against 
hijackers is now tantamount to protecting our national economy. We are 
convinced that the ailing airline industry, which is still profusely 
hemorrhaging red ink, could virtually disappear if another successful 
attack is launched against us. If the airline industry takes another 
downward spiral, it most certainly will harm hundreds of businesses as 
well.
    The real tragedy in all of this is that the hijackings of September 
11th were avoidable. More than 40 years ago, during the height of the 
Cuban hijacking crisis, we called for strengthening flight deck doors 
and arming pilots, among other measures. In 1961, the FAA amended 
federal aviation regulations, with Congressional support, to permit 
pilots to be armed with the consent of their airline but the agency 
removed that regulatory language in July 2001. Senate bill S. 2554 will 
restore the framework of, and improve upon, what was so recently 
removed from federal regulations.
An Ongoing Threat
    To underscore the risks that we face, I would like to pose three 
questions and follow them with the answers. First, is there still a 
risk of terrorists assuming control of an airliner and crashing it into 
a building? The answer that we are hearing from the Justice Department, 
the Office of Homeland Defense, the TSA and numerous other sources is 
an emphatic ``yes.'' Transport aircraft, regardless of whether they 
carry passengers or cargo, must from now on be viewed as potential 
human-guided missiles if they fall into the hands of a suicidal 
terrorist. Osama bin Laden's henchmen were remarkably patient, 
thorough, as well trained as any special operations unit in the world, 
and employed surprise attacks to great advantage using relatively 
innocuous weapons that they knew would go unchallenged through security 
checkpoints. From their perspective, the operation was a great success, 
not only in terms of damage, but also with respect to the amount of 
global media attention their acts garnered. History has shown that 
terrorists endeavor to repeat successes, so we must prudently assume 
that our enemies are planning for yet another airliner attack.
    Second, if terrorists board an aircraft with the intention of 
hijacking it, will they be armed only with box cutters as they were 
before? We think that the answer to that is ``probably not.'' The 
element of surprise from a box cutter-type attack is gone and small 
knives are now confiscated at security checkpoints, so we must assume 
that terrorists will be armed with some other weapons, which could 
include guns not taken through screening checkpoints and/or undetected 
explosives.
    We have an unfortunate habit in this country of preparing for the 
type of security breach that most recently occurred--this is the 
equivalent of locking the barn door after the horse has been stolen. 
What we must do instead is address, to the best of our knowledge and 
ability, all of the potential threats that exist, not just those that 
we have most recently experienced. Many in the airline industry and 
some in government seem to believe that we should not prepare to 
counter anything but close-quarters combat by unarmed assailants. Such 
tunnel vision is foolhardy and leaves us pitifully unprepared for the 
various types of hijacking attempts that may well lie ahead.
    Lastly, do we possess the will to do all that we can to avoid 
another catastrophe? I can tell you without equivocation that many 
pilots are willing and prepared to assume the responsibility for 
training and carrying a weapon. They are willing to do so as both a 
deterrent against hijacking attempts and as a means of preventing an 
attempt from becoming successful. The U.S. House of Representatives has 
demonstrated with its vote on H.R. 4635 that it is resolved to avoid 
another catastrophe. We believe that the Senate should also take such a 
stand, which will have a strong deterrent effect against future 
hijackings and help restore the confidence of the traveling public in 
aviation.
    You may be interested to know that I am one of about a dozen pilots 
selected in the mid-1970's to be trained by the FBI to carry a firearm 
while performing my duties as a pilot. My airline's president and the 
FAA approved that carriage to protect against the hijackings that were 
prevalent then. From my personal experience, I can tell you that I did 
not particularly enjoy being armed during the 15 years that I carried a 
firearm--but it was a duty that I voluntarily undertook. The weapon was 
worn at all times, which is an inconvenience, and there was definitely 
an increased level of responsibility and restriction of my activity 
that went with being armed. However, I thought that it was necessary to 
be armed then, and I believe that it is even more necessary for 
qualified and properly trained pilots to be armed now. We could wish 
that our threat situation was such that it would be unnecessary for 
pilots to be armed, but the events of September 11th and the ongoing 
threat of further violence against airlines make it a necessity, in our 
view.
Misconceptions
    There are many misconceptions about the provisions of S. 2554, 
although there are fewer now than when we first proposed the arming of 
pilots. It should be common knowledge, but in case it is not, we have 
never recommended arming all pilots or making the arming of pilots a 
condition of employment. Rather, the federal flight deck officer 
program requires that pilots:

  <bullet>  Volunteer to participate. Only pilots who volunteer to 
        subject themselves to individual scrutiny, intense security 
        training, proficiency testing, and the responsibility that goes 
        with carrying a firearm would be allowed to enter the program. 
        Having carried a firearm on the flight deck, I know the 
        challenges that must be met in order to make this program work. 
        Stated another way, however, I know from firsthand experience 
        that arming pilots can work and that doing so in 2002 will 
        merely build on what has been done successfully before.

  <bullet>  Be selected for training only after meeting strict, federal 
        qualification standards. Each pilot who volunteers to become a 
        federal flight deck officer would be professionally evaluated, 
        like other federal law enforcement officer candidates, to 
        determine aptitude for carrying and firing a weapon, exercising 
        judgment, using lethal force against an attacker, and other 
        abilities. We do not expect that everyone who desires to be 
        armed will be armed, due to the need to meet the very highest 
        law enforcement standards. However, many in our ranks are 
        former military and law enforcement officers, or have other 
        pertinent qualifications, and are quite familiar and 
        experienced with firearms. Those individuals will make 
        excellent candidates as federal flight deck officers.

  <bullet>  Undergo training, provided by a federal law enforcement 
        agency, specific to protecting the flight deck. Candidates 
        should be provided approximately 48 hours of comprehensive 
        training on all subjects pertaining to defense of the flight 
        deck. These would include lessons on the law, the continuum of 
        force, firearms training from a seated position and at close 
        range, tactics and other related topics. We have recommended 
        setting the shooting proficiency standard at 100 percent, 
        higher than any law enforcement officer is required to meet. 
        Doing so will provide a very high confidence level by the TSA 
        and the flying public that the federal flight deck officer is 
        prepared to protect the flight deck in the safest manner 
        possible.

  <bullet>  Be deputized as federal officers with jurisdiction 
        restricted to the flight deck. Pilots would be given 
        jurisdiction only to make arrests and take defensive actions 
        for acts of interference with, or assault upon, the flight crew 
        in the flight deck. Pilots will not be trained to nor tasked 
        with discharging their weapon in the cabin.

Reasons to Protect the Flight Deck with Federal Flight Deck Officers
    Reasonable people may disagree about the need for arming pilots to 
protect the flight deck, but we are convinced that very strong 
arguments can be made in favor of creating the federal flight deck 
officer program:

  <bullet>  It would protect aviation's most important zone of 
        defense--the flight deck. The U.S. Secret Service provides 
        protection to VIPs using what they refer to as zones of 
        defense. A VIP is protected by the most concentrated forces 
        within the innermost zone. The flight deck is the inner, and 
        most important, zone of defense for aviation security. Security 
        measures are needed to protect the outer zones, such as 
        explosive detection equipment and better training, but they are 
        not a substitute for protecting the inner zone. Ultimately, if 
        a terrorist is able to penetrate other zones of defense and 
        enter the flight deck, the pilots need the proper resource--in 
        this case, a firearm--to respond forcefully and successfully to 
        such a life-threatening emergency.

  <bullet>  It may prevent the need for a U.S. fighter airplane to 
        shoot down an airliner full of innocent passengers and 
        crewmembers. An illogical conundrum has been unintentionally 
        created by the Administration's failure to act decisively to 
        arm pilots. Pilots are not empowered to defend themselves 
        against hijackers, but our own fighter aircraft, sometimes 
        flown by military reserve airline pilots, will be dispatched to 
        shoot down an airliner if hijackers gain control of it. We 
        believe that our pilots should be provided the resources that 
        they need to defend themselves against terrorists so that they 
        and their passengers are at less risk of being shot down by our 
        own military.

  <bullet>  It will create a high level of deterrence. Once terrorists 
        learn that the U.S. has decided to begin arming pilots, 
        commercial aviation becomes a much less inviting target, which 
        is exactly what is needed. Even if only a fraction of the 
        flights have one or more armed flight deck officers, terrorists 
        will be unable to determine which ones are not protected. 
        Ultimately, this deterrence will also reduce the likelihood 
        that a pilot will ever need to fire a weapon while on the 
        aircraft.

  <bullet>  The program will be highly effective and efficient. The 
        flight deck officer program will not require the creation of a 
        new, paid workforce. We can think of no other countermeasure 
        against hijackings that comes close to the effectiveness and 
        efficiency of using pilots to defend their own workplace. No 
        one has a greater interest in doing so, and no one will take it 
        more seriously.

  <bullet>  Pilots are exceptionally well-suited for protecting the 
        flight deck. We believe that no one is more highly qualified 
        for protecting the flight deck than pilots. Pilots are 
        undoubtedly the most highly scrutinized employees in the work 
        force, submitting to a battery of pre-employment evaluations, a 
        flight physical every six months, random drug and alcohol 
        testing, and a criminal history records check, among other 
        formal examinations. Additionally, pilots are constantly 
        interacting with and undergoing de facto monitoring by their 
        airline's management, their peers, FAA personnel, and others.

    Pilots' high level of discipline, attention to detail and ability 
to adhere to strict, standardized protocols lend very favorably to 
proficiency in safe, firearms handling. Furthermore, many pilots have 
former law enforcement or military backgrounds. We doubt that anyone is 
prepared to raise a reasonable concern about arming an airline pilot 
who formerly served as an FBI special agent or decorated special forces 
operative--these are the kinds of individuals who are prepared to serve 
as federal flight deck officers.

  <bullet>  The public supports it. Numerous polls of the general 
        public have been taken to gauge support for arming pilots. Each 
        of the polls that we have seen has indicated a high level of 
        approval for letting pilots defend themselves in their 
        workplace. This is in spite of the fact that the citizenry has 
        little, if any, knowledge of the safeguards that will be built 
        into this program. Returning the airline industry to strong 
        profitability and growth depends on bringing passengers back to 
        the airplanes. Passengers are unlikely to return to pre-
        September 11th traffic levels unless and until they are 
        confident about security. The passengers will not gain that 
        confidence until they see evidence that pilots express the view 
        that they are well equipped to counter any hijacking attempt.

Rebuttals to Arguments Against Arming Pilots
    It has been our experience that the more an individual knows about 
the federal flight deck officer program, the more likely they are to 
support it. We have found this to be true even within our own ranks. 
Those who are less familiar with the program have raised several 
arguments against arming pilots that deserve to be addressed. Following 
are a few of the more commonly raised arguments against a flight deck 
protection program, and our answers to them.

  <bullet>  New cockpit doors make arming of pilots unnecessary. The 
        newly designed, enhanced-security doors that are required by 
        the FAA are not yet installed on the U.S. airline fleet, and 
        that task will not be completed until at least April 2003. 
        Neither the current cockpit doors (with interim measures in 
        place to strengthen them) nor the new cockpit doors are 
        impenetrable, and we are convinced that a team of trained 
        terrorists could well decide to prove that point.

    Furthermore, airliners will have only one hardened cockpit door--a 
door which must be opened during flight to enable the pilots to use the 
lavatory and gain access to the passenger cabin as required for other 
purposes. Any passageway into the cockpit, no matter how well 
fortified, still holds the potential of a threat to the flight deck.

  <bullet>  It is worth noting that the respected airline El Al uses 
        two doors on all of its aircraft to protect the flight deck, 
        along with a team of air marshals on each flight and an armed 
        guard who protects an entrance zone in front of the door near 
        the passengers. Per El Al procedures, the doors are never 
        opened simultaneously to help ensure that unauthorized access 
        to the flight deck is denied. While we strongly support the 
        installation of a new, hardened flight deck door on U.S. 
        aircraft as an additional layer of security, we should not fool 
        ourselves into thinking that they are sufficient to protect the 
        flight crew under all circumstances.

  <bullet>  The cost of arming and training pilots is too high. There 
        is no question that there will be some expense associated with 
        training pilots and equipping them with firearms. The program 
        that we envision would require 48 hours of intensive training 
        and recurrent proficiency training. However, from the research 
        that we have done on this issue, the cost of training and 
        equipping pilots to carry firearms is the most efficient and 
        cost-effective measure that the airlines can take to guard 
        against further hijackings, bar none. In fact, these costs will 
        be a mere fraction of the billions proposed for other, less 
        effective security enhancements. S. 2554 even proposes that the 
        government pay the cost of training, which relieves the 
        airlines from any cost concerns. Lastly, we must consider how 
        many billions of dollars have been drained, and will be 
        drained, from the national economy because airline pilots were 
        not armed on September 11, 2001.

  <bullet>  Airlines face liability if an armed pilot makes a mistake. 
        This concern is satisfactorily addressed in S. 2554 by pre-
        empting liability of the carriers and pilots for actions 
        relating to protection of the flight deck.

  <bullet>  Pilots are too busy flying the aircraft to use a gun. 
        Pilots are trained to do numerous tasks simultaneously--
        individuals who cannot do so are unable to become airline 
        pilots. One of the tasks that they must be prepared to perform 
        is using fire extinguishers if a fire breaks out in the 
        cockpit, regardless of other pressing duties. A suggestion that 
        pilots should ignore the fire and continue to fly the aircraft 
        would be ludicrous; yet some have suggested that pilots should 
        ignore terrorists breaking into the cockpit and continue to fly 
        the aircraft. To be blunt, it is very difficult to fly an 
        airplane when someone is actively trying to kill you, and 
        impossible if they are successful.

  <bullet>  An accidental discharge could damage the aircraft and/or 
        injure someone. This country made a decision approximately 40 
        years ago that use of firearms by airborne federal officers was 
        necessary to protect against hijackings. Some of the arguments 
        that have been raised against arming pilots must, to be 
        consistent, also be raised against armed Federal Air Marshals 
        (FAMs), namely: bullets could pierce the fuselage and cause 
        rapid decompression; an accidental discharge could injure or 
        kill someone; or, an aircraft system could be damaged by 
        gunfire. We have, rightly so, made a decision to accept those 
        potential outcomes as manageable risks because there is a need 
        for an armed law enforcement presence onboard the aircraft. No 
        one has more knowledge of what can happen on the aircraft, nor 
        will anyone be more conscientious about using a firearm 
        onboard, than the pilot.

    Further, contrary to Hollywood movie depictions of aircraft 
exploding in midair as a result of the discharge of a firearm in the 
cabin, virtually no danger exists that multiple gunshots could cause 
rapid decompression of a transport-category aircraft. The shooting 
proficiency that we recommend for the flight deck officer program 
exceeds that of federal law enforcement agents in order to minimize the 
possibility of a stray round hitting an innocent passenger or 
crewmember. If a weapon did cause rapid decompression during a struggle 
for control of the aircraft, that event would pale in comparison to the 
plane crashing into a building and killing all on board.

  <bullet>  Federal Air Marshals (FAMs) on airliners make arming pilots 
        unnecessary. ALPA has historically been a strong supporter of 
        the FAM program, and we envision the flight deck officer 
        program as an extension of the FAMs. However, the number of 
        FAMs is limited and will certainly never be sufficient to 
        provide protection on each flight. Furthermore, a large band of 
        terrorists could overpower the FAM team--difficult though that 
        might be--and turn its attention to the flight deck, using the 
        FAMs' weapons. Ultimately, the flight crew must be able to 
        defend the cockpit regardless of what other resources may be in 
        the cabin.

  <bullet>  We need to keep guns out of airplanes. Incredibly, even a 
        former high-ranking transportation official recently expressed 
        this view on television. The truth is that law enforcement 
        officers carry many weapons on our airplanes every day of the 
        year with very few problems. Furthermore, a significant 
        percentage of our members are former military and/or law 
        enforcement officers who have defended this country and its 
        neighborhoods using firearms. To suggest that these brave men 
        and women should not be entrusted with lethal means to defend 
        the flight deck against a lethal threat is, intentional or not, 
        highly insulting to them. The argument to keep guns out of 
        airplanes is also nullified by our nation's decision to place 
        armed FAMs on flights, as we have already said. To reiterate 
        another previous point, the debate about arming pilots is 
        really one about arming sworn federal officers who are 
        responsible for flying the aircraft.

  <bullet>  No more terrorist attacks like those experienced on 
        September 11th will occur. This sentiment is merely wishful 
        thinking and cannot be substantiated. In fact, the intelligence 
        community and the TSA strongly indicate that the threat to 
        aviation is still very high.

Federal Flight Deck Officer Program Specifics
    S. 2554 recognizes that an evaluation of the specifics of this 
program is needed, to include selection of the best alternative from 
several feasible options in the areas of selection and training, 
tactics, and weapon carriage and stowage. In anticipation of the 
program's development, we would like to offer some preliminary 
recommendations on these issues, some of which are addressed in the 
pending bill.
Selection and Training
  <bullet>  In concert with ALPA's One Level of Security goal, the 
        program should be available to every commercial airline pilot, 
        regardless of the size of the aircraft or whether it carries 
        passengers or cargo. No arbitrary limits should be placed on 
        the number of pilots allowed to fly armed.

  <bullet>  Weapon custody policy should be designed to be as practical 
        as possible, while accomplishing the goal of effective lethal 
        force cockpit protection.

  <bullet>  Pilots volunteering for the program should be chosen in a 
        manner similar to that used to select any federal law 
        enforcement officer, including suitability for application of 
        lethal force.

  <bullet>  Training should include instruction on basic safety, weapon 
        maintenance, retention, liability, force continuum and other 
        appropriate subject matter, as is provided to federal law 
        enforcement agents.

  <bullet>  Training should be limited to the scope of protecting the 
        flight deck.

  <bullet>  The live-fire portion of training should be designed for 
        the surgical application of lethal force at distances 
        appropriate to protecting the flight deck.

  <bullet>  Flight deck-specific Fire Arms Training Scenarios (FATS) 
        should be created to provide virtual shoot/no-shoot exercises 
        to help teach the student judgment concerning use of the 
        weapon.

  <bullet>  Simunitions (i.e., high-tech paint balls shot from a 
        firearm) training, which is used by the FAM program, should be 
        provided for live ``perpetrator'' assaults in a cockpit 
        simulator using modified versions of the officer's actual 
        firearm. This realism would be an excellent tool for building 
        confidence and teaching judgment.

  <bullet>  All training required by the program can be accomplished in 
        a week, with approximately 48 hours of instruction. A longer 
        program will pose increased scheduling difficulties for the 
        pilots and airlines involved.

  <bullet>  The firearm should be individually issued and available for 
        training and proficiency. Pilots will be encouraged to maintain 
        proficiency on their own time. Shooting proficiency re-
        qualification should be conducted at least annually, but semi-
        annually or more frequently is preferred.

  <bullet>  The care of the firearm should be the responsibility of the 
        individual, with the exception of parts replacement and other 
        periodic armory maintenance.

Tactics

  <bullet>  The firearm is viewed as an additional, essential piece of 
        emergency equipment. The pilot should be trained to a 
        demonstrated level of proficiency.

  <bullet>  The firearm will be deployed in the same fashion as any 
        other piece of emergency equipment. In accordance with standard 
        operating procedures, the pilot not flying (PNF) will be 
        responsible for responding to a terrorist attack and the pilot 
        flying (PF) will fly the aircraft.

  <bullet>  The firearm will be used exclusively to defend the flight 
        deck.

  <bullet>  Training will include different types of tactical 
        responses, to reflect the types of assaults that may be 
        encountered.

  <bullet>  Lethal force will be used with surgical precision against 
        assailants who are at very close range. Multiple assailants 
        wearing some type of body armor will be expected and tactics 
        appropriate to defend against such individuals will be 
        deployed.

Weapon Carriage and Stowage

  <bullet>  There are many types of holsters and other retention 
        devices available, depending on the selected tactical approach. 
        The chest pack appears to be a practical solution for rapid 
        deployment and comfort. There is an accommodation for an 
        additional magazine in this device.

  <bullet>  The standard method of weapon custody by law enforcement 
        agencies calls for the individual to carry the weapon on his 
        person at all times. This may not be the most practical 
        approach for pilots, considering the limited scope of flight 
        deck protection and the implication of carrying the weapon 
        frequently while deadheading. ALPA has suggested that firearms 
        could be stored on the aircraft, in airline flight operations 
        areas or carried at all times. Airlines, with pilot input, 
        should determine what type of weapon carriage works best for 
        their operation. This may be dependent on the type of aircraft 
        flown and other variables.

  <bullet>  FAMs use a locked box to store their weapons while laying 
        over on international flights. Such a storage paradigm may be 
        useful for airline pilots, who already store their flight bags 
        in operations facilities at overnight airports.

  <bullet>  Protection against accidental discharges (ADs) is a primary 
        consideration and must be kept foremost in mind for purposes of 
        training, weapon selection and stowage decisions.

  <bullet>  Most ADs occur when the status of the weapon is checked or 
        changed, primarily when loading and unloading. Maintaining the 
        weapon in operational status has historically proven to be the 
        safest option.

  <bullet>  The firearm should be available for practice and 
        proficiency training for the pilot.

  <bullet>  There are several options available to address the 
        challenges inherent in weapon carriage. There are devices that 
        render the weapon into non-gun status, plus locks and 
        containers designed to limit access to them by unauthorized 
        persons.

  <bullet>  International operations require separate considerations. 
        Some or all of these may be solved by means of bilateral 
        agreements currently in place and used by FAMs.

Access Control and Identity Verification Systems
    ALPA has been promoting the need for positive, electronic 
verification of identity and electronic airport access control systems 
since 1987--shortly after the downing of PSA flight 1771 by an armed, 
disgruntled, former airline employee. This mass murder, which bore 
similarities to the hijackings of September 11th, was attributable in 
large measure to identity-verification inadequacies that have yet to be 
addressed 14 years later.
    At ALPA's urging, the FAA required approximately 200 of the largest 
commercial airports to install computerized access control systems in 
the late 1980's and early 1990's. However, in spite of the entire 
aviation industry's arguments to the contrary, the agency failed to (1) 
create a detailed set of performance standards for use by the airport 
operator community and (2) provide for the access control and 
identification needs of the transient airline employee population. As 
confirmed by the GAO in a 1995 report, this mismanagement was, and 
still is, expensive for the airports and airlines--the initial estimate 
of about $170 million for access controls actually rose to more than 
$600 million, and the figures continue to climb. There are also 
numerous costs that are difficult or impossible to compute stemming 
from the inefficiencies related to transient airline employee's lack of 
access at airports.
    In the mid-1990's, the FAA, at ALPA's urging and with congressional 
funding, conducted a test of what came to be called the Universal 
Access System (UAS). Two million taxpayer dollars were spent on those 
tests involving two major airlines and four large airports. For all 
practical purposes, those funds were wasted. Although the FAA completed 
successful tests of the UAS and standards were finalized for the system 
in 1998, there was no implementation by any airline of the system, per 
stated congressional intent. This failure came as a result of an FAA 
policy to leave UAS implementation to the sole discretion of the 
carriers.
    Although magnetic stripe technology was used as the basis for UAS 
tests, there are now several advanced, mature technologies that could 
be used to positively identify authorized personnel. FAA last year 
completed a study of a smart card-based system for identifying armed 
law enforcement officers. The Department of Transportation (DOT) has 
begun the development of a multi-modal Transportation Worker 
Identification Card (TWIC) system that is also based on the smart card.
    Smart card technology is much more secure than magnetic stripe 
technology and has the additional capability of storing an extensive 
amount of data that can be used for both security and other types of 
uses. We have identified a number of applications for these cards 
within a UAS or TWIC system, including:

    Armed Law Enforcement Officer (LEO) identity verification. It is 
very disturbing that the TSA has failed to implement a system for 
positively verifying the identity of armed LEO's who travel on 
commercial aircraft. Because of this failure, it is impossible to know 
with confidence that each person who brings a firearm onto our aircraft 
are actually employed as a police officer, Federal Air Marshal or 
federal agent. News reports indicate that Al Qaeda has a copy of the 
GAO's 2000 report on access control deficiencies at federal office 
buildings and airports, so they are aware of our system's weakness in 
this regard. A smart card system, or its equivalent, is needed to 
address this ongoing hazard.
    Electronic manifest and positive passenger-bag match. Smart cards 
could also be used effectively to create an electronic manifest for 
each flight. The card would be presented by the traveler at the ticket 
counter, at which time flight and baggage data for a particular flight 
would be recorded on the card. The card would then be read at the gate 
as the passenger boards to create a highly accurate manifest and log a 
passenger onto the airplane.
    This information could also be used in connection with a positive 
passenger-bag match system to, among other things, (1) positively 
identify each person and bag on the aircraft (2) reduce the potential 
of boarding someone who has not been through screening (3) create a 
strong deterrence against fraudulent ticketing, and (4) quickly 
identify a bag(s) that must be removed in the event that its owner does 
not board the flight.
    Federal employee access control and identity verification. The 
President's budget for FY 1998 called for adoption of ``. . . smart 
card technology so that, ultimately, every Federal employee will be 
able to use one card for a wide range of purposes, including travel, 
small purchases, and building access.'' The General Services 
Administration has facilitated significant progress toward that goal 
for federal agency facilities. However, airports should also be 
equipped to enable smart card access by the tens of thousands of new 
federal employees of the TSA, current FAA and NTSB inspectors, and 
others.
    Positive access control for all employees who work at the airport, 
not just non-transients. Airline pilots and other transient employees 
currently rely on a very non-secure method of moving around airports, 
which creates the potential for security breaches. Specifically, they 
request airport-based, company employees to open doors for them as a 
courtesy based on their possession of an airline ID card. As we know, 
ID cards and uniforms can be fraudulently used to gain access, which 
underscores the need for electronic verification.
    Positive verification of identity at the screening checkpoint to 
enable transient employees to be processed more quickly. Airline 
passengers are enduring long lines at the security screening 
checkpoint. These lines are made longer by the screening of pilots, 
flight attendants and other individuals in positions of trust, who are 
often screened several times a day. The lack of equipment for 
positively identifying these individuals wastes limited screening 
resources and further inconveniences the traveling public.
    Identity verification of jumpseat riders. Use of the flight deck 
jumpseat by commuting pilots is an absolute necessity in today's 
airline environment. Unfortunately, that privilege has been severely 
curtailed since shortly after the terrorist attacks because there is no 
way to positively verify the jumpseat requester's identity and 
employment status.
    A platform for digital pilot licenses and medical information. 
Consistent with a provision in the Aviation and Transportation Security 
Act of 2001, we recommend that the UAS/TWIC card also be used by the 
FAA for containing a pilot's license and medical information. ALPA is 
working with FAA Flight Standards on this concept. Smart cards have 
more than sufficient memory for this purpose and others that the 
airlines may develop.
    This past March, eight of the major aviation organizations, 
including ALPA, wrote to the Director of the Office of Homeland 
Security and the Under Secretary for Transportation Security to 
recommend action on the TWIC program, which is languishing. 
Specifically, we recommended the establishment of an independent, not-
for-profit organization of stakeholders--TSA, OHS, other government 
agencies, airports, airlines, labor, equipment manufacturers, system 
integrators, et al.--which would be tasked with the development and 
testing of all necessary specifications, rules and principles, subject 
to final approval by the government. This concept is analogous to the 
coordinated entities which created the banking industry's ATM card 
system and the ongoing efforts of the non-profit RTCA to develop 
specifications minimum operating standards for commercial aircraft 
avionics.
    No response has been received to this letter to date, but we are 
convinced that our recommendation to create a standards organization is 
a very valid one. We are greatly concerned that the TSA's current 
direction on TWIC will produce a massive government system that will be 
very cumbersome, expensive and unresponsive to aviation's needs. We 
strongly solicit the Committee's support in our endeavor to create a 
policy and technical standards organization for the TWIC.
Cargo Security
    A few years ago, ALPA embarked on a successful campaign to achieve 
One Level of Safety for all commercial airlines. We are currently 
promoting a similar objective, One Level of Security, to obtain an 
equivalent security environment for all commercial operators, 
regardless of the size of aircraft they fly or whether they transport 
passengers or cargo. The Aviation and Transportation Security Act's 
provisions were mainly directed toward passenger operators, however, we 
believe that additional consideration needs to be given to cargo 
operators. The TSA has noted that ``the events of September 11, 2001, 
demonstrate the ability to use aircraft to endanger persons on the 
ground. An aircraft so used is just as dangerous whether it holds cargo 
or passengers.''
    We believe that serious security vulnerabilities exist in the cargo 
sector of the transportation system. The TSA recently required all-
cargo operators to adopt a security program, which is a step in the 
right direction. However, those operators who had maintained a 
voluntary security program under FAA oversight were ``grandfathered'' 
into a ``limited'' security program which provides the lowest level of 
security cited in the regulations. Conspicuously absent in the limited 
security program for cargo operators is any kind of requirement 
governing acceptance and screening of cargo, as an example.
    Some of our other primary concerns that are specific to cargo 
security include:
    Captain's authority. Some cargo operators allow their employees to 
ride in seats located outside the flight deck as a means of saving 
money on airfares, and as an employee benefit. The management of one 
large cargo airline is currently challenging the captain's authority to 
determine whether employees may be prohibited from carriage on his 
airplane due to security concerns.
    Carriage of employees and other personnel. Related to the issue of 
captain's authority, cargo airlines may carry non-employees in the back 
of the aircraft to perform certain duties. An example of such non-
employees would be animal handlers, who may board the aircraft with 
firearms, large hypodermic needles and other items that could 
conceivably be used against the flight crew. Some carriers' procedures 
call for the captain to leave the door unlocked (on those aircraft that 
have doors installed) when a flight crewmember leaves the flight deck 
to visit the lavatory or galley. There are frequently no known, trusted 
individuals onboard the aircraft to assist the flight crew by securing 
the door in such cases.
    Security Identification Display Area. The airport operators, in 
consultation with passenger airlines and with the approval of the TSA, 
creates SIDA boundaries inside of which everyone is required to wear an 
identification badge and be subject to challenge if such badge is not 
visible. Cargo operations are not normally included within the SIDA, 
unless they happen to be conducted inside of passenger airline 
operational areas. Access to these aircraft on isolated parts of the 
airport is easily accomplished-- reports from our pilots indicate that 
security monitoring, surveillance and screening procedures around cargo 
aircraft are minimal at best. This creates the potential for terrorist 
sabotage, hijackings, and other types of security violations.
    Cargo screening. There is no requirement for items carried aboard 
cargo airliners to be screened--these operators implement the ``known 
shipper'' concept instead. This fact gives rise to the potential for 
numerous ways in which security may be breached, which includes the 
carriage of explosive devices. One scenario that we have envisioned is 
for terrorists hidden in a container to be boarded on a cargo aircraft, 
without knowledge of the crew. Another problem is that screening is not 
conducted for chemical or biological agents, like anthrax. We are aware 
of a shipment of a radioactive substance from Sweden to Louisiana 
earlier this year that emitted radiation through its container at very 
dangerous levels.
    While we recognize the financial and logistical implications of 
screening all cargo, there is surely a reasonable and practical 
approach to enhancing this area of security that can be applied to 
begin improving the status quo. Cargo operators that rely heavily on a 
``known shipper'' concept as a single prevention and deterrence 
strategy ignore the fact that such a system may be compromised by 
fraudulently obtaining a bona fide customer account number.
    Accordingly, we offer our support for S. 2656, a pending bill that 
would require the TSA to develop and submit a detailed plan on cargo 
security. We recommend that this bill include a provision for 
consultation with pilots and others who have direct knowledge of cargo-
related security needs in the development of this plan. We also support 
S. 2668, another pending bill that addresses the security of cargo 
carried by passenger and all-cargo operators.
Pending Senate Bills
    Following are some brief comments on several pending bills before 
this Committee.
    S. 1980, Training program for all airline personnel responsible for 
checking passenger identification, and for other purposes--We 
wholeheartedly endorse the concept of positive verification of 
passenger's identification. However, there are so many forms of 
identification, and so many ways to easily create fraudulent 
credentials, that we believe that it is practically impossible to 
create a training system that will produce the kinds of results that 
are desired. A trusted traveler program, whereby an individual 
voluntarily submits to background checks and identity verification, is 
an alternative concept for this same objective and it is being pursued 
by numerous airlines.
    We also endorse the concept of using biometrics for identifying 
passengers, but we believe that such technology should first be used 
for employees, as they have much greater access to secured areas than 
do passengers.
    S. 2497, To prohibit the opening of cockpit doors in flight--In 
order to comply with various federal aviation regulations, and meet 
physiological needs, it is necessary for flight crews to open cockpit 
doors while in flight. The bill's provision for a mantrap, therefore, 
is certainly one that ALPA supports in order to enhance flight deck 
security and the security of flight crewmembers.
    S. 2554, Arming Pilots Against Terrorism and Cabin Defense Act of 
2002. As discussed previously, ALPA fully supports this bill and urges 
the Committee to ensure its passage by the full Senate.
    S. 2642, Background checks of alien flight school applicants. We 
support the intent of this bill to require background checks for alien 
student pilots.
    S. 2656, Cargo security. We support the intent of this bill, as 
noted previously, and recommend the inclusion of a requirement for the 
TSA to consult with affected pilot organizations in the development of 
the security plan required in this bill.
    S. 2668, Air cargo security act. ALPA supports the intent of this 
bill, as noted previously.
    S. 2686, Airport employee whistleblower protection. We endorse the 
broadening of whistleblower protection to cover certain additional 
classes of employers, including the federal government, of security 
screeners.
    Thank you for the opportunity to present this testimony. I would be 
pleased to respond to any questions that you may have.

    The Chairman. Thank you very much.
    Mr. Coy?

      STATEMENT OF CRAIG P. COY, CHIEF EXECUTIVE OFFICER, 
                  MASSACHUSETTS PORT AUTHORITY

    Mr. Coy. Yes, sir.
    Chairman Hollings and Members of the Committee, for the 
record, my name is Craig P. Coy, chief executive officer of the 
Massachusetts Port Authority, owner and operator of Boston's 
Logan International Airport.
    The Transportation and Aviation Security Act, which you 
passed last November, represents an extraordinary commitment by 
this nation to the safety and security of everyone who travels. 
In its scope and urgency, this new act, with its historic 
mandate to screen every piece of baggage that goes on a 
commercial airliner, belongs with those other celebrated 
actions America has taken in our past when foreign attacks have 
forced this nation to mobilize quickly for war.
    As the new head of MassPort and Logan Airport, I took this 
mandate for one-hundred percent baggage screening as a rallying 
cry. It represents a stretch goal around which all of our 
employees and the citizens of Boston can identify and point to 
achieving with pride. Every airport is unique with it's own set 
of circumstances. The MassPort board of directors and I 
believed, in no uncertain terms, that we would lead the way.
    And since I assumed this position at the Massachusetts Port 
Authority about four months ago, my top priority has been to 
make sure we are doing everything we can to work with the TSA 
to encourage them to make--meet all of their mandates, 
including the one-hundred percent baggage-screening program.
    My analogy is that TSA was handed the ball on the baggage 
screening. They've pitched the ball to us, and we've hit a long 
shot to center field. We're running hard to first base. It's a 
long way to home plate, and we're not yet sure we'll get there 
to score the winning run. However, there's one thing I know. In 
sports, in life, or in public policy, we will never succeed 
unless we try.
    This security precaution is long overdue, and the designing 
and building a system to screen more than a billion pieces of 
luggage that fly domestically every year is an enormous 
challenge for this nation. I knew Logan would never have a 
chance to make this deadline unless we committed one-hundred 
percent to the effort. We put our best people on the project, 
and we hired the very best consultants from around the world, 
the same consultants, in fact, as those hired by the TSA.
    Because of the role Logan played on the attacks on 
September 11th, MassPort has been very aggressive on this 
project. So rather than back away from the challenge, we asked 
the TSA to accelerate our plans instead. We were polite, we 
were professional, but we were persistent. We worked closely 
with the TSA, early and often, maybe earlier and more often 
than they really appreciated. We called them on their cell 
phones and at home. We made numerous trips to Washington to 
present our plan. When there wasn't a conference room 
available, we rented one at a nearby hotel. And on June 14th, 
Logan became the first major airport in the country to receive 
federal approval for a baggage screening plan.
    I can't say enough about the help we received from Senator 
Kerry, Senator Kennedy, and the entire Massachusetts 
congressional delegation in moving this project forward. I also 
want to say that the cooperation MassPort has received from the 
TSA in our joint efforts to make sure Logan meets this 
important deadline has been outstanding, and it will only get 
stronger with my friend, Jim Loy, at the helm.
    George Nacara, the TSA security director for Logan, is 
onboard, and our staffs could not be working more closely 
together. Last week, we met together with two Massachusetts 
firms that manufacture the screening equipment to impress upon 
them the urgency of stepping up production. As local 
Massachusetts companies, we are glad to have them as part of 
our team, and they have assured us that they are fully 
committed to making Logan's effort a success.
    Once we got the go-ahead from TSA, we have pulled out all 
the stops to have an in-line hold baggage screening system at 
all our active terminals by December 31st. Because of Logan's 
severe land constraints, high passenger volume, and the 
advanced age of our facilities, it is arguably more difficult 
to build these screening facilities at Logan than any airport 
in the country.
    What helped immensely was the comprehensive, complex 
computer model that we used at the outset of the project that 
allowed us to see how different baggage screening systems would 
interact with the rest of the airport. Right from the start, we 
were able to rule out the interim lobby solution because our 
computer model showed us we simply didn't have the room.
    We've also been able to design our facilities so they're 
flexible enough to accommodate new systems as they evolve. 
During peak times, Logan handles up to 5,000 pieces of luggage 
an hour. As designed, the in-line baggage screening system will 
accommodate both present and future capacity without delays at 
the check-in lines.
    On July 11th, just three weeks after getting TSA approval, 
MassPort broke ground on a project that includes the renovation 
of 11 bag rooms, major building additions at seven locations, 
and the construction of five new substations to handle the 
electric load.
    Accelerated construction like this at an airport like ours 
must be choreographed to perfection. To get the work done, we 
are busing workers to secure areas, prefabricating sections 
offsite, pre-purchasing materials, and performing other amazing 
feats of engineering magic. My motto has always been, ``Every 
person counts. Every act counts.'' But on this project, the 
motto is, ``Every minute counts,'' because we none to spare. 
For the most part, we will be running double shifts six days a 
week and, at times, working around the clock all week long.
    Another important benefit was the waiver we received from 
the State on certain public procurement laws, which was 
supported from Governor Swift on down. It paired the normal 
two- or three-month bidding process down just to ten days, and 
we're still doing competitive bids. Contractors bring a signed 
copy of our proposed contract to the bid opening. And if they 
are the low bidder, our construction manager signs the contract 
right on the spot and they can start that day. In public 
construction, this is unheard of.
    Being first is a double-edged sword. There were no rules to 
slow us down, which is a good thing; but neither are there 
guidelines to help steer the way. And the schedule for 
completing this monumental task leaves no room for error. Over 
the next five months, MassPort will remain vigilant and 
focused, because any slippage in the project can push the 
completion date beyond the new year.
    Progress on the whole baggage screening is just one of a 
number of security firsts for MassPort. Again, because a group 
of evil men stole two airplanes from Logan Airport on September 
11th with 177 innocent people onboard, MassPort feels a special 
obligation to be a national leader for airport security as well 
as port security for our maritime facilities.
    For the past several months, we've been working with the 
TSA as one of 15 airports to establish security procedures and 
protocols for all 439 commercial airports in this country. 
Logan has also volunteered as a test site for the development 
of promising new security technologies, including the first-in-
the-nation facial-recognition program, handheld wireless 
devices that let security personnel access the National Crime 
Information Center while walking the beat, as well as 
technology that can detect fake passports and other bogus 
identification.
    MassPort is aggressively pursing these programs along with 
the hundred percent baggage screening program. We are committed 
to providing our passengers with the best possible security as 
quickly as possible.
    We have opened up our wallet, and we've spent a lot of 
money to do the job right and to do it fast. Six days after 
getting TSA approval for the baggage screening plan, and with 
no written guarantee of federal reimbursement, MassPort 
committed $100 million to complete the project. I do not want 
to understate the enormous financial strain this unfunded 
federal mandate puts on MassPort and all airports seriously 
impacted by the attacks on September 11th. We will continue to 
seek financial support for these federal mandates, but are 
prepared to act now.
    Already September 11th has forced MassPort to cut $51 
million from our programs, layoff 15 percent of our workforce, 
and in the midst of our most aggressive program--building 
program in history, delay more than 37 percent of our capital 
projects. Nevertheless, we believe strongly in the promises 
made by this nation to the flying public when you passed and 
the President signed the Transportation and Aviation Security 
Act. We also fully support the new federal mandate to inspect 
every piece of luggage that flies out of our airport.
    MassPort has now stepped forward. It's done its part to 
help the federal government meet this mandate. Critically 
important to the continued success of this historic effort to 
protect the safety and security of the people who use America's 
airport is the assurance, which all airports need, that the 
federal government's commitment remains just as strong.
    Thank you for the honor and the privilege to be here, and I 
will be happy to take your questions, sir.
    [The prepared statement of Mr. Coy follow:]

     Prepared Statement of Craig P. Coy, Chief Executive Officer, 
                      Massachusetts Port Authority
    Chairman Hollings and Members of the Committee.

    For the record my name is Craig P. Coy, Chief Executive Officer of 
the Massachusetts Port Authority, owner and operator of Boston's Logan 
International Airport.
    The Transportation and Aviation Security Act which you passed last 
November represents an extraordinary commitment by this nation to the 
safety and security of everyone who travels.
    In its scope and urgency, this new act--with its historic mandate 
to screen every piece of baggage that goes on a commercial airliner--
belongs with those other celebrated actions America has taken in our 
past when foreign attacks have forced this nation to mobilize quickly 
for war.
    As the new head of Massport and Logan Airport, I took this new 
mandate for 100 percent baggage screening as a rallying cry. It 
represents a stretch goal around which all of our employees and the 
citizens of Boston can identify and point to achieving with pride. 
Every airport is unique, with its own set of circumstances. The 
Massport Board of Directors and I believed in no uncertain terms that 
we would lead the way.
    Since coming to the Massachusetts Port Authority about three months 
ago my top priority has been to make sure we are doing everything we 
can to work with the TSA to encourage them to meet all their mandates--
including the 100 percent baggage screening program.
    My analogy is that TSA was handed the ball on baggage screening. 
They've pitched the ball to us and we've hit a long shot to 
centerfield. We're running hard to first base. It's a long way to home 
plate and we're not yet sure we'll get there to score the winning run. 
However, there is one thing I know: in sports, in life, or in public 
policy, we will never succeed unless we try.
    This security precaution is long overdue, and designing and 
building a system to screen more than a billion pieces of luggage that 
fly domestically every year is an enormous challenge for this nation.
    I knew Logan would never have a chance to make this deadline unless 
we committed 100 percent to the effort. We put our best people on the 
project and hired the very best consultants from around the world--the 
same consultants, in fact, as those hired by the TSA.
    Because of the role that Logan played on the attacks on September 
11 Massport has been very aggressive about this project. So, rather 
than back away from this challenge, we asked the TSA to accelerate our 
plans instead.
    We were professional and polite--but persistent. We worked closely 
with the TSA, early and often--maybe earlier and more often than they 
really appreciated. We called them on cell phones and at home.
    We made numerous trips to Washington to present our plan. When 
there wasn't a conference room available, we rented one in a nearby 
hotel.
    And on June 14, Logan became the first major airport in the country 
to receive federal approval for a hold baggage screening plan.
    I can't say enough about the help that we received from Senator 
Kerry, Senator Kennedy, and the entire Massachusetts Congressional 
Delegation in moving this project forward. I also want to say, that the 
cooperation Massport has received from the TSA, in our joint efforts to 
make sure Logan meets this important deadline, has been outstanding.
    George Naccara, the TSA security director for Logan, is on board 
and our staffs could not be working more closely together. Last week, 
we met together with two Massachusetts firms that manufacture screening 
equipment to impress upon them the urgency of stepping up production. 
As local Massachusetts companies, we are glad to have them as part of 
our team, and they have assured us they are fully committed to making 
Logan's effort a success.
    Once we got the go-ahead from the TSA, we have pulled out all the 
stops to have an inline Hold Baggage Screening system at all our active 
terminals by December 31.
    Because of Logan's severe land constraints, high passenger volume, 
and the advanced age of our facilities, it is arguably more difficult 
to build these screening facilities at Logan than at any other airport 
in the country.
    What helped immensely was the comprehensive, complex computer model 
we used at the outset of the project that allowed us to see how 
different baggage screening systems would interact with the rest of the 
airport.
    Right from the start we were able to rule out an interim, lobby 
solution because our computer models showed us we simply didn't have 
the room. We have also been able to design our facilities so they are 
flexible enough to accommodate new systems as they evolve. During peak 
times, Logan handles up to 5,000 pieces of luggage an hour. As 
designed, the inline bag screening system will accommodate both present 
and future capacity without delays at the check-in lines.
    On July 11, just three weeks after getting TSA approved, Massport 
broke ground on a project that includes the renovation of approximately 
eleven bag rooms, major building additions at approximately seven 
locations, and the construction of five new substations to handle the 
electrical load.
    Accelerated construction like this, at an airport like ours, must 
be choreographed to perfection. To get the work done we are busing 
workers to secure areas, prefabricating sections offsite, pre-
purchasing materials, and performing other amazing feats of engineering 
magic.
    My motto has always been, every person counts, every act counts. 
But on this project the motto is: every minute counts, because we have 
none to spare. For the most part we will be running double shifts six 
days a week, and at times working around the clock all week-long.
    Another important benefit was the waiver we received from the state 
from certain public procurement laws, which was supported from the 
Governor on down. It pared the normal two to three month bidding 
process down to just ten days. And we are still doing competitive bids.
    Contractors bring a signed copy of our proposed contract to the bid 
opening, and if they are the low bidder, our construction manager signs 
the contract right on the spot so they can start that day. In public 
construction, this us unheard of.
    Being first is a double edge sword. There are no rules to slow us 
down, which is a good thing. But neither are there guidelines to help 
steer the way. And the schedule for completing this monumental task 
leaves no room for error. Over the next five months Massport will 
remain vigilant and focused because any slippage in the project can 
push the completion date beyond the new year.
    Progress on hold baggage screening is just one of a number of 
security firsts for Massport. Again, because a group of evil men stole 
two airplanes from Logan Airport on September 11 with 177 innocent 
people on board, Massport feels a special obligation to be a national 
leader for airport security, as well as port security at our maritime 
facilities.
    For the past several months, we have been working with the TSA as 
one of 15 airports helping to establish security procedures and 
protocols for all 439 commercial airports in this country.
    Logan has also volunteered as a test site for the development of 
promising new security technologies, including a first-in-the-nation 
facial recognition program, hand-held wireless devices that let 
security personnel access the National Crime Information Center while 
walking the beat, as well as technology that can detect fake passports 
or other bogus identification.
    Massport is aggressively pursuing these programs along with 100 
percent hold baggage screening. We are committed to providing our 
passengers with the best possible security, as quickly as possible. We 
have opened our wallet and spent a lot of money to do the job right and 
do it fast. Six days after getting TSA approval for the baggage 
screening plan, and with no written guarantee of federal reimbursement, 
Massport committed $100 million to complete the project.
    But I do not want to understate the enormous financial strain that 
this unfunded federal mandate puts on Massport, and all airports, 
seriously impacted by the attacks on September 11. We will continue to 
seek financial support for these federal mandates, but are prepared to 
act now.
    Already, September 11 has forced Massport to cut $51 million from 
our programs, lay-off 15 percent of our workforce, and, in the midst of 
our most aggressive building program in history, delay more than 37 
percent of our capital projects.
    Nevertheless, we believe strongly in the promises made by this 
nation to the flying public when you passed, and the President signed, 
the Transportation and Aviation Security Act, We also fully support the 
new federal mandate to inspect every piece of luggage that flies out of 
our airport.
    Massport has stepped forward and done its part to help the federal 
government meet this mandate. Critically important to the continued 
success of this historic effort to protect the safety and security of 
the people who use America's airports is the assurance, which all 
airports need, that the federal government's commitment remains just as 
strong.

    Thank you and I will be happy to take questions.

    The Chairman. Thank you.
    Mr. Stephens?

 STATEMENT OF RICHARD D. STEPHENS, VICE PRESIDENT AND GENERAL 
  MANAGER, THE BOEING COMPANY, HOMELAND SECURITY AND SERVICES

    Mr. Stephens. Chairman Hollings and Members of the 
Committee, I am Rick Stephens, vice president and general 
manager of the Boeing Company's Homeland Security and Services 
Business. I'm pleased to have the opportunity to present a 
status of our team's work to deploy checked-bag screening 
equipment to American airports.
    The Boeing Company, its partner, Siemens, and our supplier 
team understand very clearly that this is a national priority. 
Success in completing this program will help strengthen 
security in our transportation and support growth in both air 
travel and our national economy.
    Boeing was awarded the contract to install the explosive 
detection systems and train baggage-screen employees on June 
7th, 49 days ago. The task requires airport studies of 
passenger movement, architectural designs, structural changes, 
and the coordinated supply of 1100 EDS machines and 
approximately 4600 explosive freight detecting devices. 
Following completion of deployment tasks, the contract includes 
five one-year options for support and continuous evaluation of 
improvement.
    Our team was in motion within hours following contract 
award, responding to TSA planning and organizational requests. 
One of our first actions was deploying survey teams to 66 
airports on July 1st. Deployment has continued throughout July. 
As of today, 153 airports have been or are being surveyed for 
data such as passenger and baggage characteristics, existing 
physical and operational conditions, and airport information 
such as terminal area development plans, local building codes, 
airline plans for operational areas, and preferences for future 
operations. All designated U.S. airports will have received 
site-assessment survey teams by August 21st.
    Let me please describe our approach. We are collaborating 
with airports, airlines, federal security directors, and other 
TSA officials to develop effective checked-baggage screening 
solutions for individual airports for implementation by the end 
of the year. The challenge is not simply meeting a deadline; it 
is providing the most secure and efficient checked-baggage 
screening solutions within the time constraints established by 
Congress.
    A one-size-fits-all configuration for all airports is 
clearly inappropriate. When you have seen one airport or when 
you have not seen--you've only seen one airport. Each airport 
terminal has different characteristics that will drive the most 
appropriate solution.
    A single approach for all airport terminals would result in 
higher implementation costs and decreased levels of customer 
service. The best way to avoid this outcome is for the Boeing 
team to work closely with the airports and airlines throughout 
the process. The first step in our approach is to send out a 
site assessment team to meet with airport and airline officials 
and other key stakeholders. The primary goal of the site 
assessment team is to establish an EDS/ETD concept plan that 
can be implemented by December 31st, 2002, and is acceptable to 
the airlines, the airports, and the TSA.
    Following the site assessment, design survey teams then 
deploy to the airport to evaluate the design and construction 
requirements. These teams will also meet with airport and 
airline officials and other key stakeholders. Our data 
collection is continuing. Analysis and assessments are underway 
and will continue for some weeks yet.
    Conditions, characteristics, and expectations at airports 
have varied widely. I will try and generalize findings so far. 
First, 160 days are left to complete the task by December 31st, 
2002; 150 assessment teams have been mobilized; 153 assessments 
are underway or completed. In addition, 33 airport assessment 
site visits have been initiated this week.
    Of the site-assessment tasks scheduled to have occurred to 
this date, we have been delayed by one week or more in 18 tasks 
due to weather and other factors. In order to maintain 
schedule, 20 tasks have been accelerated, and we expect to be 
back on schedule for the delayed tasks in the first week of 
August.
    The airlines have been eager to engage in the process. And 
Boeing and TSA are engaging them and their representatives 
through existing relationships and airline associations. Boeing 
and our contractor team are completely committed to the 
successful execution of our contract and to respond to the 
needs of TSA, the Congress, and the American people.
    Let me conclude on a more personal note. We, at the Boeing 
Company, were deeply affected by the use of our products as 
weapons of terror on September 11th. We realize the importance 
of air travel security to our national security and to our 
country's economic health. Boeing appreciates the significant 
challenges ahead in equipment delivery, airport facilities 
modification, and the implementation of full baggage screening 
procedures. However, the safety of the American public and the 
health of the airline industry demand that we press forward 
with this task. We look forward to working together with all 
stakeholders as we continue to do our work for the American 
public.
    Thank you, Mr. Chairman, and I look forward to responding 
to your questions.
    [The prepared statement of Mr. Stephens follows:]

 Prepared Statement of Richard D. Stephens, Vice President and General 
      Manager, The Boeing Company, Homeland Security and Services
    Chairman Hollings, Ranking Member McCain, and members of the 
Committee, I am Rick Stephens, Vice President and General Manager of 
The Boeing Company's Homeland Security and Services business. I am 
appearing before you today in my capacity as the executive responsible 
for the airport checked baggage Explosives Detection System (EDS) and 
Explosives Trace Detection (ETD) equipment deployment contractor team 
led by Boeing.
    I am pleased to have this opportunity to present a status of our 
team's surveys and preparations to deploy checked baggage screening 
equipment to American airports. The Boeing Company, its' partner 
Siemens and supplier team understand very clearly that this is a 
national priority. Success in completing this program will help 
strengthen security in air transportation, and support growth in both 
air travel and our national economy. Boeing was awarded the contract by 
the Department of Transportation on June 7, 2002 to install explosives 
detection systems for screening checked baggage at all U.S. airports 
with scheduled commercial service by December 31, 2002.
    The contract, managed by the Transportation Security Administration 
(TSA), also calls for the training of baggage screening employees. This 
task requires airport studies of passenger movement, architectural 
designs, structural changes, and the coordinated supply of 1,100 
explosives detection system (EDS) machines and approximately 4600 
explosives trace detection (ETD) devices. Following completion of the 
deployment task the contract includes five, one year options for 
support and continuous improvement.
    The Boeing team includes the Siemens Corporation, a world leader in 
baggage handling systems and computed tomography technology; The 
Preston Group, a Boeing subsidiary, and TransSolutions, both providing 
aviation infrastructure simulation and modeling; CAGE Inc., which 
develops cost-effective designs and operational policies for airports; 
Flight Safety Boeing, AIS, and TMG for training delivery systems; 
Turner Construction, supported by Hanscomb, will manage airport site 
preparation; and aviation industry architectural and engineering firms 
Leo A. Daly, Corgan Associates and DMJM Aviation.
    Our contractor team was in motion within hours following contract 
award responding to TSA planning and organizational requests. One of 
the first actions was the planning for and deployment of survey teams 
to 66 airports on July 1st. This process of planning and deployment has 
continued throughout July. As of today 153 airports have been or are 
being surveyed for data such as passengers and baggage characteristics, 
existing physical and operational conditions, and airport information 
such as terminal area development plans, local building codes, 
airlines' plans for operations areas, and preferences for future 
operations. All designated U.S. airports will have received site 
assessment survey teams by August 21.
    Let me describe our approach and the process:

    First, our approach is to work collaboratively with airports, 
airlines, Federal Security Directors, and other TSA officials to 
develop effective checked baggage screening solutions for individual 
airports for implementation by the end of the year. We understand that 
the challenge is not simply meeting a deadline--it is providing for the 
most secure and efficient checked baggage screening solutions within 
the time constraints established by Congress.
    A ``one-size-fits-all'' EDS/ETD configuration for all airports is 
clearly inappropriate--each airport terminal has different 
characteristics that will ``drive'' the most appropriate solution. A 
single approach for all airport terminals would result in higher 
implementation costs and decreased levels of customer service. The best 
way to avoid this outcome is for the Boeing Team to work closely with 
the airports and airlines throughout the process so that their in-depth 
understanding of their terminal facilities and passenger 
characteristics is incorporated in the planning process. In addition, 
we know that a number of airports and airlines have already developed 
100 percent checked baggage screening plans. We have and look forward 
to continued review of any plans available.
    The first step in our process has been to send out a site 
assessment team to meet with airport and airline officials and other 
key stakeholders. During this initial visit, the site assessment team 
(1) gathered general information required to estimate EDS/ETD equipment 
requirements and to develop preliminary concept plans, and (2) refined 
the concept plans based on a thorough analysis of the operational data 
and passenger characteristics collected. The primary goal of the site 
assessment team has been to establish an EDS/ETD concept plan that can 
be implemented by December 31, 2002 and is acceptable to the airport, 
airlines, and the TSA.
    Following the site assessment, design survey teams then deploy to 
the airport to evaluate the design and construction requirements (e.g., 
mechanical, HVAC, electrical, structural) for the EDS/ETD concept plan 
established by the assessment team. While on-site, the design survey 
team reviews architectural, structural, electrical, mechanical, and 
other considerations involved in the equipment installation. In 
addition, the design survey team meets with airport and airline 
officials and other key stakeholders to review the design and 
construction drawings. Final construction drawings will be submitted 
for their review prior to beginning the installation.
    Given the technical complexity of this challenge the Boeing Team is 
using state-of-the-art simulation models to help develop and refine 
EDS/ETD concept plans and designs.
    Simulation models for EDS/ETD concepts previously prepared by the 
airports, if available, are used if possible as baselines for our 
efforts.
    Our data collection is continuing, analysis and assessments are 
underway and will continue for some weeks yet. Conditions, 
characteristics and expectations at airports have varied widely. But I 
will try and generalize some findings so far as follows:

  <bullet>  162 days are left to complete the task;

  <bullet>  150 assessment teams have been mobilized;

  <bullet>  153 airport assessments are underway or completed, and 10 
        assessment packs are under review by TSA prior to transmission 
        to those 10 airports;

  <bullet>  In addition, 33 airport assessment site visits have been 
        initiated this week, and 49 assessment packs are being 
        delivered to TSA for future airport survey visits;

  <bullet>  Of the site assessment tasks scheduled to have occurred to 
        this date we have been delayed by one week or more in 18 tasks 
        due to weather, flights in Alaska, and holiday/vacation 
        schedules of airport staff preventing their support of the 
        visit;

  <bullet>  In order to maintain schedule, 20 tasks have been 
        accelerated and we expect to be back on schedule for the 
        delayed tasks in the first week of August.

  <bullet>  The airlines have been eager to engage in program process, 
        and Boeing and TSA are engaging them and their representatives 
        through existing relationships and airline associations.

  <bullet>  The Boeing team is fully engaged with the TSA in 
        performance of our contract.

  <bullet>  Boeing and our contractor team are completely committed to 
        the successful execution of our contract in response to the 
        needs of TSA, the congress and the American people.

    I will conclude this prepared testimony by relating a personal 
note. We at The Boeing Company were deeply affected by having our 
products used as weapons of terror on September 11. Boeing feels 
obligated to take this mission on because of its importance to the 
United States, the airline industry, to this country's airports, and to 
the flying public. We realize the importance of air travel security to 
our national security, and to our country's economic health. We are all 
aware that the events of 9/11 have had a devastating effect on air 
travel and the airline industry in particular. Every day we are made to 
understand that a rise in costs and the hassle-factor associated with 
increased air security will further hurt the industry. Boeing 
appreciates the significant challenges ahead in equipment delivery, 
airport facilities modification, and the implementation of full baggage 
screening procedures. However, the health of the air travel industry 
and the safety of the American public demand that we press forward with 
this task, and no company is as well-suited to the job as Boeing. Our 
knowledge of the air transport system, our understanding of and strong 
relations within the airline industry, our expertise in complex systems 
integration, and the specialized strengths of our team members give us 
the capacity to accomplish this mission. We look forward to working 
together with all stakeholders as we go to work for the American 
public.

    Thank you Mr. Chairman.

    The Chairman. Thank you.
    Go right ahead. We appreciate you presiding.
    Senator Burns. Thank you very much for your testimony 
today. And I'm going to--again, we've heard a lot of talk about 
airport security. We didn't do TSA right. And I'm not going to 
go down that debate with you today. But, nonetheless, we really 
had an opportunity to do that.
    I included an amendment in the TSA bill that would have put 
the enforcement over in the Department of Justice, because I 
felt like that's where it ought to be. That was stripped out in 
conference.
    And we've still got the situation with security of the 
airplane after it gets off of the ground. No matter how good of 
work you do, you've got screening weaknesses, and we know that. 
It's all over the country. And as long as we've got those 
weaknesses, I want the last line of defense.
    Mr. Davidson, until 1987 pilots were allowed to carry 
firearms in the cockpit. And you know what? With no training. 
And since the inception of the aviation of--until 1987, there 
have been recorded accidents of a pilot's accidentally 
discharging a weapon. I want to bring that up.
    Now, I've got a question for Mr. Luckey. This is a two-part 
question. Can you please describe the FBI's cockpit protection 
program and tell us what you think about the program? And, (b), 
what is the cost of this program in comparison to the 
statements that's been made by others?
    Captain Luckey. First of all, sir, right after the 9/11 
incident, I went down to Quantico, because that's where my 
roots are in aviation security. I have greatest respect for the 
capabilities of the FBI academy down there. I think they're the 
finest law-enforcement group in the world. And they're charged 
formally with crimes aboard aircraft and their enforcement.
    I had a retired agent poll the Retired FBI Agents 
Association, and we got a hundred affidavits from retired FBI 
agents, 80-some percent of which supported arming the pilots in 
the cockpit.
    I then went down there and asked informally, and we were in 
a hurry. I just took for granted that since I carried a firearm 
in the 1970s and 1980s that this would be a normal deal.
    This seemed like a no-brainer to me, so I went down there 
to expedite the process and got a hold of some friends of mine 
and asked them if it was feasible and what kind of a program 
they would develop. So these people, who are experts--they do 
this every day, they work in the firearms training unit down 
there, they train law-enforcement groups all over the world--
they looked at this, and they took the regular agent criteria, 
and we--they took the things out that we don't need. We don't 
need felony warrants, felony arrests, investigations, driving. 
All of those things, we took out. We left the most important 
things in, starting with safety, going through the force 
continuum, the law, all the tactical stuff. Terrorism is a 
tactic. It's a method of attack. And we looked at that foremost 
in what we needed to do to do this.
    We figured out that within 48 hours, we could adequately 
train a pilot to have all of the qualities of a federal agent 
as long as he was limited to the environment of the cockpit. 
The authority doesn't extend outside there; neither does the 
tactical expertise.
    We've heard all the arguments about distractions and 
everything else. I mean, how can you fly, how can you function, 
how can you think, how can you be safe when somebody's busting 
down the door trying to kill you, or how do you fly when your 
throat's cut? These are things that we really have to face in 
this business.
    So we looked at that. And I think it's a very good program. 
We ran the cost of this thing right down to the coffee break. 
Now, again, this wasn't an authorized program. This was 
something that we did down there, very professionally. We did 
it in a hurry, but we did it with great attention to detail.
    And the costs--in answer to your second question, sir--were 
about--I'd say in the neighborhood of 50 percent of what the 
costs that I have seen here today.
    I also might add that, sure there's 95,000 commercial 
airline pilots in the United States. Only, say, 80 percent of 
them support this program. Probably out of that, there's going 
to be a much smaller number that are going to volunteer for 
this. And out of our very strict recruitment and selection and 
training process, I believe we're going to have in the 
neighborhood of 25- to 30,000 pilots that we're looking at in 
this thing, so the costs will be substantially lower, and it'll 
be quality instead of quantity, sir.
    Senator Burns. Should the airlines be allowed to opt out of 
this program to arm pilots?
    Captain Luckey. I think we have a problem with that. I 
think if we do that, it's not going to exist, because they're 
all going to opt out of it. They're broke. They don't have any 
money, and they're afraid of the relative incurred costs. I 
also think that if one airline decides to opt out and the other 
one doesn't, then the public gets cheated out of a 
standardization of the same level of security on all the 
airlines. I think we deserve that.
    The bill includes a lot of protections from liability, and 
I think if a carrier gets into opting out, they're going to 
have some influence on it, and they're going to lose that 
protection for liability. I think these are very important 
factors.
    Senator Burns. As you know, the original House bill to arm 
pilots was a two-year bill allowing 1400 pilots to carry 
weapons, and it would be subject to repeal by the director of 
the TSA after two years was up. Do we know what we need to know 
about pilots carrying weapons at this point, or do we need 
another pilot program?
    Captain Luckey. When I was down at Quantico, we talked 
about this, and we decided that that a good sample program 
would be to take 50 airline pilots on this weekly--put them 
through the weekly course we had--40 of which would be people 
with a lot of prior experience, like myself and others, and the 
special ops people and former policemen, former FBI agents--put 
them in there with ten people who have never fired a weapon 
before, are not really gun people, and the 40 could see how 
these ten progressed, and we could see if this was an efficient 
system, if it was cost effective and if the training were--it 
was appropriate to our needs. The course would include 
somewhere between 1,700 and 2,000 rounds of live fire, 
simunitions, force continuums, FATS, or Firearms training 
scenarios, for shoot/no-shoot drills, open-hand self-defense 
tactics, and things germane to the mission exclusively.
    And I think that they did an excellent job, and I think 
that a study like this--it doesn't take months, years to do 
something like this. We already know how guns work. They work 
very well when they're--with the surgical application of lethal 
force in this intimate tactical environment, it's very easy to 
employ a weapon very effectively. And I think that this could 
be--I think a test like this would be a very good one, and I 
think it would be something where we could get our feet on the 
ground and get our teeth into this one and see if it works.
    Senator Burns. Captain Davidson, you used a figure awhile 
ago that 21 percent of the--of our law enforcement people were 
lost because of--because they were shot with their own weapon. 
Our figures show 2.1 percent. Is that a correct figure, or are 
we reading the wrong statistics?
    Captain Davidson. Mr. Chairman, Senator Burns, I'm reading 
from a submission, I think, that was made to this Committee, 
perhaps, from the Violence Policy Center--I think it was made 
to the Federal Aviation Administration--on the use of firearms 
in commercial air flights. Their citation was 21 percent of 
officers were killed with a handgun, and it was their own 
service weapon.
    Senator Burns. Well, it--the real figure is 2.1 percent. 
We'll--and we'll take a look at that.
    I would look at this--and I know there's--that not all 
pilots are going to want to carry a firearm. What do you think 
the value of a deterrent is? Do you think it acts as a 
deterrent? Do you think--do you think having armed marshals on 
an airplane is a deterrent?
    Captain Davidson. Sir, is that for the older captain to 
answer or the younger captain?
    [Laughter.]
    Senator Burns. I want to ask the younger captain right now, 
you know, the one that has hair, you know.
    [Laughter.]
    Captain Davidson. Actually, I believe he is actually senior 
to me.
    Senator Burns. Okay.
    [Laughter.]
    Senator Burns. All right, you guys.
    Captain Davidson. In answer to your question, Senator, we 
think the question needs to be framed more along what the 
Chairman mentioned in his opening remarks. To us, we are very 
pleased with the fact that this Senate Committee and the Senate 
and the Congress looked forward and was forward-thinking enough 
to understand that the flight-deck door is the impenetrable 
shield that we need to maintain the fact that we are going to 
be able to control that aircraft from the time any problem 
arises in flight until we can get it on the ground. We think 
that is the way to move ahead in this industry, and that adding 
the potential safety and cockpit distractions of firearms is 
not in our best interests or in the interests of our passengers 
and your constituents.
    Senator Burns. I couldn't agree with you more on the door, 
but it ain't there, and it's not gonna get there very quickly.
    Mr. Luckey?
    Captain Luckey. Yes, sir. In answer to that, let me throw 
out a scenario here briefly. You know, I was an international 
captain, as is Captain Davidson. Suppose we're three hours out 
over the water, and all of a sudden the group of terrorists 
that got under the aircraft through our porous security 
systems, or a foreign one, were to take over the cabin of the 
aircraft. They have three hours out there, and we don't have 
any way to protect our cockpit. Do you think in three hours, 
with the food carts and the capabilities and the innovation 
that they have as specially trained tactical-operations people, 
do you think the pilots would have a chance to defend that 
cockpit without the appropriate tools, the tactical knowledge, 
and the training to meet that challenge effectively?
    Senator Burns. Are you asking me?
    Captain Luckey. Well, yes, sir, anyone.
    [Laughter.]
    Captain Luckey. No, I--this is just food for thought. This 
is--these are real scenarios that we face on a daily basis. 
We're three hours out, we don't have any tools. It's kind of 
tantamount to being down in the bad part of town and they did 
away with lug wrenches because--made them illegal because there 
was enough gas stations, and you ran out of gas--or not ran out 
of gas--you had a flat tire, and you needed to change your 
tire, but you didn't have a lug wrench. All the gas stations 
are closed. So you decide to take a walk. And guess what 
happens to you in the bad part of town? You get mugged, they 
kill you, steal your car, strip it, just because you don't have 
the lug wrench.
    We need that tool. It's another piece of emergency 
equipment that we desperately need to meet a demonstrated 
challenge that's very real.
    Senator Burns. Mr. Luckey, the training that they would 
have to go through in order to carry a weapon----
    Do you want to--have you got any questions?
    The Chairman. Well, I'm going to have--when you get 
through. Go ahead.
    Senator Burns. The training that you--that was going to be 
required in order for the captain to be authorized to carry 
this weapon, do you do a psychological test?
    Captain Luckey. Yes, sir.
    Senator Burns. Physical test?
    Captain Luckey. Yes, sir.
    Senator Burns. Shoot or no shoot?
    Captain Luckey. Yes, sir.
    Senator Burns. Understanding the weapon?
    Captain Luckey. Very much so, sir.
    Senator Burns. Understanding the enemy?
    Captain Luckey. Very much so.
    Senator Burns. And what else needs to be done than what I 
mentioned?
    Captain Luckey. First of all, the mission safety, we start 
out with that. We start out with custodial responsibility--in 
other words, weapons retention.
    In reality, the cockpit is the only tactical place on the 
aircraft that favorably--favors the defender. In other words, 
it's a channelized, narrow avenue of a predictable approach. 
They can only go through that door one at a time. We're talking 
about surgical application of lethal force probably at a 
professional individual that's wearing body armor. That means 
we have to do a specific shot in a specific critical area of 
the body. This can be done much better in the cockpit because 
of the intimacy of the very close range. This is like you're 
reaching out and touching someone.
    We train at five, ten, and fifteen feet, instead of seven 
and fifty yards that the normal agents train at. Our 
performance requirements exceed the federal agents. The federal 
agents qualify at 80 percent. The program that I was 
responsible in working with had a qualification score in excess 
of 95 percent due to the tactical intimacy and the close 
proximity of the target and the threat.
    Senator Burns. Senator Hollings?
    The Chairman. Let me, on behalf of the Committee, thank 
each of the members of the panel. They've been very, very 
helpful and very valuable to the Committee.
    Captain Luckey, with respect to the emergency equipment or 
having that one tool that's needed, you see, I've got a 
different view of it. That's the door. My friend, Senator 
Burns, says we're not going to have it. Well, we're not going 
to have the pistols or anything else right there and the 
training and where to put it and the money and everything else 
like that. We're behind the curve.
    But the whole idea is to make absolutely certain that that 
plane cannot be used as a lethal weapon. And to do that, we 
know of one airline--and I've sat right there where you are--so 
that chief pilot, and he impressed me. That chief pilot of El 
Al, he said, ``Senator, they can be assaulting my wife in the 
cabin. I go straight to the ground.''
    Now, the terrorists know that. They know that. And don't 
give me any of this stuff about that's a small airline. I've 
tried it out with pilots. Incidentally, my poll is about 50-50. 
I fly every week. I probably fly more than you do, because I 
know they ain't supposed to fly but half the month.
    [Laughter.]
    The Chairman. I have to fly every week, coming and going, 
so I've got as many hours almost as a pilot. And I love the 
pilots, and I love the planes, and I'm trying to figure out how 
do we solve this problem, because, as is just stated, the first 
line of defense is to shoot you down. That doesn't help us at 
all. I can tell you right now. A lot of people are saying, 
``I'm not getting on--I'm taking the--up to New York, because I 
don't fool around with getting shot down and everything else,'' 
and then they worry about the White House, taking off from 
Reagan, and they've got all of these other super-duper checks 
and in your seat before and after and everything else of that 
kind. And now we're onto a money argument. It solved as long as 
you get that secure door. That's the emergency equipment.
    And I want to make absolutely sure that the pilot doesn't 
have a responsibility to open up that door. He's got a 
responsibility only to fly and land it. That's what I want to 
make absolutely sure. Once I've got that as fixed in El Al and 
it's worked for 30 years and the door is impenetrable, then 
I've solved all the problems, because let's--you've got the 
pistols and you've got the training and you, and the Marines, 
and everything else of that kind, whoopie, do it your way, and 
you hear all that disturbance going on and everything else 
going on back there, get a call in to the pilot, they say, 
``Captain Luckey, come, come, come quick,'' and everything, are 
you going to----
    Captain Luckey. I'm not going back, sir.
    The Chairman. You're not going back? Well, then you agree 
with me. Keep the door locked and go down to the ground. Shoot, 
you done solved--Senator Burns, I just won.
    [Laughter.]
    Senator Burns. You just won? Don't talk yourself out of it, 
he's not----
    The Chairman. We're through with this hearing.
    [Laughter.]
    The Chairman. The man said he ain't going back.
    Senator Burns. That's right. Well, Mr. Chairman, I want to 
remind you that they might got them double doors----
    The Chairman. Oh, well, look----
    Senator Burns. Wait a minute. Wait a minute, now. Let me 
finish.
    The Chairman.--both got to agree. We're going to----
    Senator Burns. Oh, no, I agree on that.
    The Chairman. We're going to----
    Senator Burns. But I'm going to tell you something.
    The Chairman. We've got to have a secure door.
    Senator Burns. That's right. But I want to tell you, even 
though I said they had the double doors and the reinforced 
doors, their pilots carry a sidearm. They're armed.
    The Chairman. You don't have the responsibility of opening 
the door.
    Senator Burns. Well, it doesn't make any difference, but 
they've got a sidearm in case somebody takes a little bit of 
explosive or a penetrative explosive site that can bust those 
doors--and I've never seen one other than Fort Knox that you 
can't do that. And my banker--of course, my banker keeps me out 
of that safe all the time, but----
    [Laughter.]
    Senator Burns.--that's what I'm saying. He's not going to 
go back there and take care of that situation either.
    The Chairman. Captain Luckey is the nicest witness we've 
had----
    [Laughter.]
    Senator Burns. I know. And Captain Davidson is not going to 
go back there and take of that situation.
    The Chairman. That's right.
    Now, what the situation is, if you ever open that door, the 
team now--they've got four and five member teams with these 
Mohammad Atta's--and they're not coming with any--even card 
cutters or anything else. They're coming with judo, they're 
coming with all kind of karate and everything else like that. I 
can get four to five fellows that can take over your plane if 
you ever open that door.
    I can't get in the door. We've got to agree to that, but if 
I can start choking the stewardess and everything else so she's 
hollering, ``Open the door,'' and then once you open the door, 
with pistols, you might get the first of us--of the team, or 
even the second one or whatever it is, but I can get hold of 
that there plane, and I can keep the passengers and that little 
small place from every getting back, I can tell you that. And 
I've used that as a weapon of mass destruction, so I'm trying 
my best not necessarily to get pistols or not get pistols; I'm 
trying to get the door, because, either way, you've got to get 
the door. If you don't--if you're not going to have a secure 
cockpit----
    And I want to relieve those pilots of that responsibility. 
They've got the responsibility strictly to fly and take off and 
land, and that's all. And, of course, we've got the bathroom 
needs and everything else of that kind to work out, with 
eyesight, television so you can look back and know that you 
have to go to the ground as soon as possible and that kind of 
thing, what's going on in the cabin.
    Mr. Loy, when I heard your testimony--Mr. Coy, excuse me--I 
turned to the staff behind me. I said, ``Is that fellow telling 
the truth?'' I never heard such get up and go and dedication 
and hard charging, and that's exactly what I asked the White 
House for. They gave me a bureaucrat. I said this is really 
tough. This isn't easy. You're going to have to take on about 
50,000 people, you've got to get it geared up. We've got the 
door, we've got the pilots, we've got the airports, we've got 
the equipment. It's one royal headache, and what we need is a 
hard charger. And I thank you very, very much, specifically 
because that's the attitude. It's--we can't pass laws and get 
the thing done right. Only you folks can get it done.
    And that's what we're trying to do, is work with the 
Committee. I agree with Senator Burns. I voted, too, for it to 
go to the Justice Department, because I knew I could get some 
hard chargers over there. I've had difficulties over here at 
the Transportation Department getting anything moving.
    And literally, that's the figure we had, and that's what 
Mr. Daniel was telling us in the conference committee on the 
emergency supplemental, ``They can't spend the money.'' And 
here I'm having the Secretary coming up and saying, ``Oh, I 
need--I'm already shy a billion dollars for the next two 
months.'' Of course, you couldn't spend a billion dollars in 
two months, but, I mean, that's his testimony. And then the 
other committee is giving him 150 million more and that kind of 
thing.
    So each of you, you have really favored the Committee very 
much with your patience and sticking with us this long.
    Senator Burns, did you----
    Senator Burns. Did you want to respond to that door 
comment?
    Captain Luckey. Yes, sir, if you don't mind.
    Sir, with all due respect to your--and I respect your 
opinion very much, and your work and your dedication to the 
country over the years. But, sir, terrorism is a tactic. It's a 
method of attack. Counter-terrorism is just that, as well, and 
it's a method to repel an attack.
    I think there's some misconception here that in our 
tactical response--we have to open that door sometimes. And the 
safety of flight--and I think Captain Davidson will agree with 
me--we have to go back sometimes. We have to look at the wings, 
we have to look at the control services, we have to listen to 
noises, we have to do things that are only--they're specific to 
the pilots. Nobody else could do this. We couldn't delegate 
this responsibility to anyone else.
    And in the event of an assault, we don't open that door to 
get at the terrorists. We only utilize that piece of emergency 
equipment in the event that door is defeated. And that door can 
be defeated. Trust me, it can be defeated. There isn't a 
barrier in the world that can't be defeated.
    And when that door is opened, there's two methods of 
response, tactically. One, of course, is for an explosive entry 
that happens fast. The other, and this is probably 95 percent 
of the occurrences--you're going to have some premonition, some 
pre-indication or pre-warning so that you can take a tactical 
position on that particular perpetrator.
    So I think there's some misconception here in this door 
thing. You know, I know a lot of things that the Israelis have 
on their aircraft that we're not talking about in here today, 
for obvious reasons. They've got some very, very specific and 
very well-intended things that put the oil on the squeak, so to 
speak. They don't spend a lot of money on WD-40 and throw it up 
in the air and hope some of it lands on what's making the 
noise. They put it right where it needs to be, and that's where 
I'd like to see us go.
    The Chairman. Mr. Coy?
    Mr. Coy. Mr. Chairman, I would--not to comment on the door. 
I don't want to get into that discussion.
    [Laughter.]
    Mr. Coy. But just to comment on your kind remarks, I would 
be remiss if I didn't acknowledge that it wasn't just my work; 
it was the work of the very hardworking employees at MassPort. 
But if you're having any difficulty finding where to send 
money, you may send it here, and I can guarantee you we'll 
spend it.
    [Laughter.]
    The Chairman. And, Mr. Luckey, I've been flying for a good 
60 years, at least, and if I ever had the pilot coming back 
looking to see whether the wing's fallen off or something like 
that----
    [Laughter.]
    The Chairman.--I can tell you right now, I would try to get 
that thing down on the ground and start saying my prayers. You 
go from bad to worse, man.
    [Laughter.]
    Senator Burns. Well, then--no, really, seriously, Mr. 
Chairman, how many pilots have you seen come back through there 
and to be looking out the window?
    The Chairman. Yeah, they do that. There are rules--again, 
this is life and death.
    Senator Burns. No, but I'm--what I'm going to tell you, a 
lot of times when that pilot comes walking back through that 
cabin----
    The Chairman. Or they come back now to go to the bathroom.
    Senator Burns. No, no. They coming walk back through there, 
and they don't say nothing to anybody, ``Hi, how are you,'' but 
they're looking at something. They ain't back there because 
they want to be back there. Remember that.
    Thank you very much. Great hearing.
    The Chairman. Thank you, gentlemen, very, very much.
    The Committee will be in recess, subject to the call of the 
chair.
    [Whereupon, at 1:05 p.m., the hearing was adjourned.]
                            A P P E N D I X

    Prepared Statement of Hon. Robert T. Francis II, Executive Vice 
                President, Farragut International, LLC.
    I am pleased to submit this statement to the Senate Committee on 
Commerce, Science, and Transportation on the issue of permitting 
firearms in the cockpits of U.S. commercial air carriers. My aviation 
expertise and background comes from many years with the Federal 
Aviation Administration and as Vice Chairman of the National 
Transportation Safety Board. That experience has led me to concentrate 
on matters of aviation safety, particularly with respect to commercial 
aircraft operations. Therefore, in the debate of weapons in the 
cockpit, I will speak only to what I see as the over-arching aviation 
safety issue: distraction of the flight crew from their primary safety 
duties as a direct result of arming pilots. I have chosen not to deal 
with issues such as custody, storage, international and local gun 
restrictions, and criminal penalties and civil liability issues that 
likely can be solved with some reasoned thought.
    I have been thinking about the issue of weapons in the cockpit for 
pilots for some time--beginning shortly after the tragic attacks on 
U.S. civil aviation in September 2001. Attached to this statement is a 
copy of an article written for Aviation Week and Space Technology 
magazine and published in November 2001, outlining my concerns 
regarding the unintended safety consequences of quickly-enacted 
security measures taken shortly after the terrorist attacks.
    There is always a fine balance in the cockpit: the predictability 
of routine and safe operations delicately juxtaposed with the anarchy 
of unexpected, emergency situations. Predictability is a hallmark of 
our safe and efficient aviation system. Routine safety, and the 
checklists and training that lead to it, provide time and skill to deal 
with extraordinary and emergency situations that surprise us. 
Distractions in the cockpit upset what is routine, what has been 
trained, what will be the right decision and the safest action.
    The University of Texas has performed hundreds of safety audits of 
air carrier line operations over many years. An auditor sits in the 
cockpit and observes a flight crew's performance, noting threats and 
errors that occur during flight and actions taken to manage and resolve 
them. Those audits confirm that distraction is a prime threat to 
aircraft safety. It is a source of disarray that easily takes the crew 
out of a predictable routine and may put the aircraft in an undesirable 
and destabilized state.
    Research has shown that human beings are not good at focusing on 
more than one thing at a time. We are fairly good at moving our 
attention back and forth between competing distractions. But we focus 
only on one thing at a time, and are extremely vulnerable to mistakes 
where we must monitor one thing and do another. We may not see, or may 
see and correct, our mistakes until the distractions multiply and 
become so pervasive that the only result is failure for at least one of 
the tasks. The aviation community responds by providing a backbone to 
capture and mitigate error--procedures, processes, and checklists--to 
assist concurrent task management, ensuring routine, safe aircraft 
operations in the normal course. These procedures enable flight crews 
to mitigate the risk of short or even sustained interruptions; tasks 
deferred because of interruptions and distractions are now out of 
sequence and special attention is needed to return to routine 
operations. Essentially, flight crews become quite adept at switching 
focus and ultimately maintaining focus on one thing at a time until 
distractions disappear.
    If it is difficult to focus on more than one routine thing at a 
time, it certainly is much more difficult to focus on more than one 
extraordinary thing at a time. A crisis situation in the cabin of the 
aircraft introduces several layers of distraction for a flight crew. I 
believe that the introduction of weapons in the cockpit introduces 
another, unnecessary and multi-layered distraction that increases the 
total aviation safety risk. The safety equation is fragile at the best 
of times. Weapons in the cockpit increase the risk to critical piloting 
behavior and techniques. I sincerely believe that the armed defense of 
the cockpit will seriously and adversely distract pilots from the 
primary task of safely landing the aircraft. We should avoid making 
decisions emotionally and blindly, without regard to the unintended 
consequences of our actions on safety and ultimately security.
    It may be true that weapons in the cockpit could have prevented the 
use of commercial aircraft as terrorist tools on September 11, 2001. We 
will never know that. However, arming pilots to prevent another such 
attack--a likelihood that I find remote at best--is tantamount to 
fighting last year's war. Characterizing weapons in the cockpit as the 
last line of defense is illusory given our newly-acquired awareness of 
the constant threat to civil aviation and our continued security 
enhancements to our aviation security defenses. Arming pilots devalues 
many of our security measures, most notably the hardened cockpit door 
given the limited time that the door is open and the cockpit is 
accessible. And when you add ingenious procedures, such as of flight 
attendants blocking cockpit doors with carts during the short time that 
the cockpit door is open and exposed, you have provided cockpit defense 
without cockpit distraction.
    Arming pilots likely will address only the very low probability of 
the same or a similar horrific event--but admittedly, an event with 
very high impact and dire consequences. On the other hand, arming 
pilots certainly will facilitate a wide range of unanticipated events, 
some of which may have trivial outcomes but which could culminate in 
multiple and significant distractions with unknown outcome. Indeed, 
arming pilots may skew the unknown outcomes in favor of opening a 
strengthened cockpit door, exposing a sterile cockpit environment--
actions that could decrease both the safety and security of the 
aircraft. In essence, a weapon could bias the critical decision-making 
process during a now new and extraordinary phase of flight.
    Instead of moving forward from the terrible events of September 
11th, putting weapons in the cockpit seems to leave us in place. We all 
admit that the terrorists can be patient and that the possibility of 
infiltrating much of our society quietly and patiently is possible. 
Arming pilots and locking the cockpit door ensures that we have placed 
weapons in the hands of those in control of the aircraft--further 
raising the bar of perfection for the aviation security and 
intelligence community in this country. Instead, let's give our pilots 
the chance to do what they do best, what we entrust them to do day-in 
and day-out in our civil aviation system: fly the airplane.
                                 ______
                                 

Response to Written Questions Submitted by Hon. John McCain to Admiral 
                              James M. Loy
    Question 1. There are several bills before Congress that attempt to 
move the statutory deadline on the screening of all checked bags by 
explosive detection systems by the end of this year.

  <bullet>  What is the Administration's position on these provisions? 
        In other words, does the Administration support changing the 
        explosive detection deadline? If so, please explain why.

  <bullet>  If the Administration is uncertain whether the deadline 
        should be moved, when can we expect a decision?

    Answer. Congress' decision to cut the President's Emergency 
Supplemental budget request for TSA by at least $1 billion has forced 
us to launch a fundamental re-evaluation of what we can get done with 
the money at hand.
    TSA will cut some proposed projects, string out payments, and find 
savings wherever possible. The Administration will also ask for 
additional funds from Congress for TSA for the 2003 fiscal year, which 
starts October 1.
    We are evaluating whether we will have enough money to meet the 
baggage screening mandate set by Congress. We hope we will be given 
adequate funds in a timely manner, so that we can continue our work on 
meeting the baggage screening mandate.

    Question 2. Mr. Secretary, as you indicated, the conference 
agreement on the Supplemental Appropriations bill cut the President's 
request for TSA funding and tied up much of the money in earmarks or 
contingency funds that may never show up. Also, the appropriators put a 
cap on the number of full-time employees TSA may have.

  <bullet>  Can some of your concerns regarding funding be addressed in 
        an appropriations bill for fiscal year 2003, or is the problem 
        of such an immediate nature that aviation security will be 
        adversely affected in the short run?

    Answer. We do not believe that aviation security will be adversely 
affected in the short run. We have carefully reviewed our immediate 
requirements and believe we have sufficient funding to carry us into 
October 2002. However, we may be operating under a continuing 
resolution as we start fiscal year 2003, which would present a special 
set of challenges.
    The prorated share of our initial FY 2002 appropriation that we 
could receive for some portion of the new fiscal year would not provide 
a sustainable level of funding. We plan on working with the 
Administration and the Appropriation Committees' staffs to craft a 
customized continuing resolution that addresses these special concerns, 
including substantial up-front costs as we move toward deployment 
deadlines occurring in the first quarter of the new fiscal year.

    Question 3. Is the TSA reconsidering its earlier decision regarding 
the arming of pilots with guns? Please explain the rationale behind the 
initial decision to not allow pilots to have access to firearms in the 
cockpit.
    Answer. The TSA is reviewing its decision regarding the arming of 
pilots with guns. The initial decision was based on a detailed and 
thorough analysis of the costs and benefits of arming pilots. Our 
reasons for refusing to allow arming of pilots included the following:

  <bullet>  Pilots should focus on safely flying and landing the plane.

    <bullet>  We are implementing a revised strategy aimed at 
            protecting and securing the cockpit at all costs. This 
            strategy requires that pilots devote 100 percent of their 
            effort to controlling the aircraft and landing the aircraft 
            safely.

    <bullet>  Other means are in place to secure the aircraft, 
            including the expansion of the Federal Air Marshal (FAM) 
            program and the hardening of aircraft cockpit doors and 
            bulkheads.

  <bullet>  Allowing pilots to carry firearms on their persons creates 
        additional dangers.

    <bullet>  Arming airline pilots introduces firearms held by non-law 
            enforcement officers into sterile areas.

    <bullet>  Uniformed airline pilots are easily identifiable targets 
            for person seeking guns already in airport terminals, 
            secure airport concourses, airline gate areas, and onboard 
            aircraft.

    <bullet>  Pilots would be responsible for the care, maintenance, 
            storage and security of the firearm at all times.

  <bullet>  Storing firearms in the aircraft creates a host of 
        problems.

    <bullet>  Assuming that firearms stored on the aircraft are for 
            collective use, no individual control or accountability 
            will exist for any weapon. Further, if a storage box 
            containing the firearm is left unlocked and accessible 
            during flight, the potential exists that it will 
            accidentally be left unlocked after the flight, potentially 
            exposing the weapon to numerous individuals.
    <bullet>  If the pilot checks the readiness of the firearm in the 
            plane, there is a danger of an accidental discharge near 
            critical flight equipment or the wounding, disabling, or 
            death of crewmembers critical to the operation of the 
            aircraft
    <bullet>  Logistically, limited space exists to secure storage 
            containers within the cockpit and the placement of the box 
            must be aligned to accommodate both the pilot and/or the 
            co-pilot.

  <bullet>  Training pilots would be extremely time-consuming and 
        prohibitively expensive.

    <bullet>  TSA estimates that the total cost of arming all eligible 
            pilots, including training, purchasing of equipment, 
            conducting background checks and overall program 
            management, would exceed 900 million dollars.
    <bullet>  Training all eligible pilots would require approximately 
            3.540 sessions with 24 trainees per session at 148 sites, 
            52 weeks a year for 2 years.

  <bullet>  Liability Issues.

    <bullet>  The proposed legislation largely shields the air carriers 
            and pilots from liability. The United States would become 
            liable for certain acts of negligence despite having no 
            control over the air carriers and their pilots.

    Question 4. Will the TSA make a decision in the near future 
regarding the use of non-lethal weapons by pilots?
    Answer. TSA is now conducting a technical review of the use of non-
lethal weapons. This review is a top priority for TSA's Office of 
Aviation Operations and Office of Technology. The review will be 
completed by the beginning of September.

    Question 5. In the Statement of Managers for the supplemental 
appropriations conference report, the appropriators earmark money for 
the field testing of an aviation security technology that is clearly 
not ready for such testing. Just this month, the National Research 
Council (NRC) concluded an independent, objective assessment of this 
technology, which is called Pulsed Fast Neutron Analysis, or PFNA. The 
NRC stated unequivocally that PFNA is not ready for airport deployment 
or testing. Furthermore, only one company, Ancore Corporation of Santa 
Clara, California, had developed this technology. This earmark is a 
total waste of critical research money that should be contributing to 
our effort to increase aviation security. Because this directive is in 
the Statement of Managers, it will not become the law of the land. Do 
you intend to comply with this misguided directive?
    Answer. As a result of our own research and that of the NRC, TSA 
does not plan to begin testing or deploying any PFNA technology at 
airports.
    TSA, the Federal Aviation Administration (FAA), the Department of 
Defense (DOD) and the U.S. Customs Service (Customs) have invested 
considerable funds in recent years on PFNA technology for use as a 
potential inspection system. We have worked with Ancore. to develop a 
prototype PFNA system capable of demonstrating the feasibility of using 
PFNA to search for small explosives in air cargo containers. This 
technology is costly, and despite considerable financial support, only 
one prototype system exists at this point.
    Furthermore, while as an inspection technology PFNA provides 
content rich information, it has not proven capable of detecting at 
least one important kind of explosive at the threat mass and can take 
from minutes to hours for scans, depending on the type of article 
inspected. Because of these and other problems, we do not plan to 
deploy any PFNA system at airports. However, TSA, working in 
partnership with DOD and Customs, does plan to deploy a PFNA system at 
a port of entry in Texas next year.

    Question 6. The price tag for meeting the statutory deadlines 
regarding passenger and baggage screening is dearly beyond what many 
people initially envisioned when the law was enacted last year. in 
light of this substantial expense, are we being shortsighted in the 
effort to create a system that can provide a certain level of security 
by the deadline but be obsolete in a short time?
    In other words, are we truly going to have the world's most secure 
airports or are some better options not being considered for the sake 
of meeting deadline requirements.
    Answer. We are using the best technology currently available and 
are in no way compromising to meet deadline requirements.

    <bullet>  We are purchasing and deploying magnetometers that 
            represent the latest generation of metal-detection 
            technology. These machines can better differentiate between 
            harmless metals, such as pocket change, and metals used in 
            the manufacture of firearms.

    <bullet>  The EDS machines being installed are the best means to 
            detect explosives on the market today. We must continue to 
            aggressively deploy such equipment.

    <bullet>  TSA will continue to sponsor research and monitor 
            technological developments to ensure that we make use of 
            the best technology available.

                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Dr. Gerald Dillingham
    Question 1. The GAO has effectively laid out many of the pros and 
cons of arming pilots. Do you have any suggestion as to how we can get 
some hard data or analysis that we can use to judge this issue 
objectively?
    Answer. We are aware of one study, by the Boeing Company, on the 
damage to aircraft that resulted from the use of firearms, but this 
study does not address the ability of armed pilots to defend the 
cockpit against a terrorist attack. While a few hundred pilots might be 
armed to test their ability in this regard, we do not believe, given 
the infrequency of terrorist attacks, that such an effort would yield 
enough data to draw useful conclusions about the impact of arming 
pilots on aviation security. Scenario testing might provide data on 
matters such as pilots' reaction times, what might be hit by a seated 
pilot attempting to turn around and fire a weapon in the cockpit, what 
critical aircraft components might be damaged by stray bullets, and 
what kinds of training would be most appropriate for pilots if they 
were to be armed.

    Question 2. Are you aware of any so-called ``next generation'' 
passenger or baggage screening technologies that show great promise for 
improving security in the near future?
    Answer. We are aware of one such technology called Argus. Argus is 
a newer type of explosive detection equipment that is being tested by 
TSA. The equipment is smaller and less expensive than the current bulk 
explosive detection systems and may be able to screen a much greater 
number of bags per hour.

    Question 3. Is enough money being allocated to doing research and 
development that may produce technologies or systems that will improve 
the efficiency and effectiveness of aviation security efforts?
    It is difficult to say whether there is enough money being 
allocated to research and development. However, the Congress 
appropriated $126 million for aviation security research in fiscal year 
2002--more than twice as much as FAA received for this research the 
previous year. Whether this is enough money depends in part on whether 
the funds are being spent wisely on well-chosen projects. GAO has been 
asked to examine TSA's funding of research and development on aviation 
security and will be reporting on the projects TSA is funding and the 
efficacy of its processes and procedures for selecting research 
projects.

    Question 4. What are some of the pros and cons of a trusted or 
registered traveler program? If all air travelers must undergo some 
level of screening, what would be gained by the passenger? Is avoiding 
a more thorough, random screening an adequate incentive for travelers 
to participate? And, given the logistics of establishing and 
administering, is there a sufficient benefit in terms of security?
    Answer. Proponents argue that a trusted or registered traveler 
program would allow known travelers to move through the screening 
process quickly, thereby allowing security personnel to focus their 
resources on people who may pose greater security risks. Opponents 
typically argue that such a program would create a vulnerability in the 
aviation security system. After surveying the literature and completing 
some preliminary research, GAO has identified little information on the 
potential costs or benefits of a trusted traveler program. GAO has 
begun a study on the logistics, costs, and benefits of such a program 
and expects to report back soon.

    Question 5. Some people in the aviation community claim that the 
large, certified explosive detection systems (EDS) are too slow and 
have a high false positive rate. In other words, some critics claim 
that these systems are neither effective nor efficient, especially 
given their cost and the perceived difficulty in installing them at 
airports in a short time period. What is your objective assessment of 
the current EDS machines?
    Answer. Unquestionably, there are drawbacks to the use of bulk EDS 
systems. The specifics of those drawbacks cannot be discussed in a 
public forum. However, I believe they have a place in a layered 
approached to security and can play a positive role in improving 
aviation security. The cost-effective use of this equipment requires 
careful consideration of the unique physical and operational 
characteristics of individual airports. Moreover, the drawbacks of this 
equipment can be minimized by developing protocols to resolve alarms 
and expedite baggage flow during peak periods that also provide a high 
level of security. Bulk EDS is the best technology currently available.

    Question 6. Are there any lessons that TSA can learn from FAA's 
past attempts to procure and deploy sophisticated technologies that may 
be outdated or outmoded when they are finally up and running? Is TSA 
committing any mistakes in its attempt to field explosive detection 
equipment similar to ones committed by the FAA in its attempts to 
modernize air traffic control equipment?
    Answer. Yes, early in the ATC modernization program FAA attempted 
what was referred to as the ``big bang'' approach. This involved trying 
to put in place an entire system at once. Because of the variations in 
facilities, human factor challenges, the tremendous amount of software 
technologies involved, and the static nature of the systems, the 
modernization experienced significant slippages in its deployment 
schedule. By the time the program was restructured to accomplish its 
goal in an incremental fashion, some of the original technologies were 
outdated, and expensive interim solutions also had to be implemented.
    TSA could very well be headed toward making similar mistakes. For 
example, TSA is in the process of purchasing the current generation of 
EDS for all major airports. By the time this process is complete, a 
newer generation of technology--smaller, faster, and less expensive--
could very well be available. The current generation of EDS equipment 
is not very easy to shift down to smaller airports because of its size 
and how it is being integrated into airport operations. The current 
generation is also designed so that it is less able to be used as a 
platform for future upgrades than the new generation of EDS.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                       Captain Edward M. Davidson
    Question 1. What is your position regarding the use of non-lethal 
weapons such as TASER's?
    Answer. Northwest takes the position that the primary 
responsibility of the pilots in an airborne threat of any type is to 
fly the aircraft as safely and expeditiously as possible to the nearest 
airport where professional law enforcement officers can manage the 
situation. The company does not endorse the use of any type of weapon 
on the flight deck, as it will unavoidably distract pilots from that 
duty.
    A hand-held, non-lethal weapon such as the commercially available 
TASER has been consistently shown to be ineffective against multiple 
targets, has only one shot capability, is difficult to aim and fire 
accurately and must have the battery pack continually recharged to work 
with reliability. Additionally, recent high profile uses of the device 
that have been captured on video show that the TASER does not always 
subdue a suspect--particularly if the person is under the influence of 
drugs or wearing heavy clothing. The devices are easily pilferable and 
since they would not be provided to individual pilots, their security 
at times when the aircraft is not occupied is not assured.
    The cost of acquiring, certifying for flight deck installation, 
maintaining and continually training pilots on the use of the device is 
not reasonably expected to be offset by the risk of a breach of the new 
enhanced cockpit door.

    Question 2. Do you think September 11th would never have happened 
if the pilots on the hijacked planes had been armed with guns?
    Answer. No, there would have been no difference in the outcome.
    The procedures in place industry-wide on September 11th required 
pilots to acquiesce to hijacker's demands--not resist them. The 
conventional wisdom at the time was that hijackers primarily wanted 
either publicity for a political cause or transportation to another 
country. Had lethal weapons been available to the pilots at the time 
the likely outcome would have been their probable compromise and use 
against the flight deck crew, cabin crew or passengers. As a result of 
the September 11th tragedies, the current training provided to flight 
deck crews in the event of an in-flight incident emphasizes the role of 
the strengthened cockpit door as the primary line of defense. Aircrews 
are directed to focus on landing the aircraft as expeditiously and 
safely as possible. Armed resistance by a pilot will distract from that 
industry-accepted plan and increase the time necessary to achieve 
resolution of the incident.
    A companion question could easily be ``would September 11th never 
have occurred had currently installed hardened flight deck doors been 
on the hijacked aircraft''? Clearly, the answer is the same. The 
problem with this line of reasoning is that it presupposes a changed 
philosophical attitude toward hijackers that was not present at the 
time. We cannot evaluate the results of either supposition without 
assuming a procedural change had been effected concurrently in how the 
industry responded to hijackings in general. With the then existing 
procedural practices for hijacking, these types of hypothetical 
questions have little value and are merely exercises in second-
guessing.

    Question 3. Do you have any hard data to support your view that the 
risks of arming pilots outweigh the potential benefits?
    Answer. Northwest believes that the risks of accidental discharge, 
distraction to the crews from having to manage the logistics of the 
weapon and potential for loss or theft vastly outweigh the risks of 
future terrorist breach of the now hardened flight deck door.

    We submit the following:

        1. One study from 1989 reported in 1994 found that 21 percent 
        of professional law enforcement officers are killed with their 
        own weapon either during struggles with suspects or while 
        normally handling or cleaning the weapon.\1\ This high 
        percentage when applied to non-professional flight deck crews 
        may result in a number of accidental discharges in the 
        aircraft. Of concern are those that may occur on the flight 
        deck and damage critical navigation or flight control computer 
        systems. Of equal concern is an accidental discharge that may 
        wound or incapacitate a crewmember or compromise the structural 
        integrity of the cockpit windscreen.

    \1\ Garen Wintemute, ``Homicide, Handguns and the Crime Gun 
Hypothesis: Firearms Used in Fatal Shootings of Law Enforcement 
Officers, 1980-1989'', American Journal of Public Health, 84 (April 
1994) pg 561-564
---------------------------------------------------------------------------
        2. Poor lighting, night flight deck conditions, turbulence, 
        headset use and high background noise will limit the ability of 
        the pilot to use proper judgment on when and on whom to use 
        his/her weapon. Again, studies have shown that in the 
        experience of law enforcement officers, there is considerable 
        ambiguity present in most confrontations with suspects. This is 
        principally due to the dynamic conditions of the moment that 
        are not reproducible on the training range.\2\ These problems 
        are indicative of substantial risk that an armed pilot may 
        inadvertently fire on a passenger or fellow crewmember that may 
        only appear to be a physical threat to the aircraft--this is 
        particularly an issue at times of high stress and poor 
        environmental conditions.

    \2\ Tony Lesce, ``Instinctive Shooting'', Police Marksman, January/
February 1994, pg. 12.
---------------------------------------------------------------------------
        3. The impact of distractions and interruptions to the airline 
        pilot's mental flow of flying the aircraft has been proven in 
        many studies to have an unsafe impact on follow-on actions. A 
        study by the NASA Ames Research Center has determined that `` . 
        . . uncertainties, intrusions and general distractions can 
        quickly sidetrack any pilot and lead to potentially disastrous 
        mistakes . . . so insidious are these effects that pilots will 
        often express amazement when an error is made.'' Further, Ames 
        determined that ``. . . flows and checklists cannot possibly 
        anticipate all operational demands and are not designed to 
        accommodate them.'' \3\ The inherent distraction of managing 
        the logistics of the lethal weapon and the potential for 
        immediate, decisive and short reaction time responses of side 
        arms can have a dangerous effect on a pilots ability to prevent 
        errors in flying the aircraft for some period during and even 
        after an event--even if the event is not related to a hijacking 
        or terrorist takeover of the aircraft.

    \3\ Dr. Loukia Loukopoulos, ``Cockpit Interruptions and 
Distractions: A line Observation Study'', Abstract pg. 5.
---------------------------------------------------------------------------
        4. An incident at Newark International Airport in July 
        underscores the potential for loss or theft of lethal weapons 
        by pilots while on duty. A Federal Air Marshal left his carry-
        on bag unattended a few steps away while he recovered a checked 
        bag from the inbound luggage carousel. When he returned to the 
        spot where the carry-on had been left the bag was missing. 
        Inside were the Marshal's service weapon, considerable 
        ammunition and a Federal Marshal's badge. All were stolen. If 
        professionally trained law enforcement officers can 
        inadvertently lose their side arms it is reasonable to assume 
        that a significantly higher number of weapons could be stolen 
        or misplaced by airline pilots whose principal occupation is 
        not professional law enforcement. The increased number and ease 
        of recognition of uniformed pilots will only heighten this 
        possibility.

    It is therefore clear that the safety risks represented by well 
researched and documented problems seen in the use of handguns by law 
enforcement professionals as well as the flight safety impact of pilot 
distractions represents known, substantial risks that have a much 
higher probability of occurrence than the unknown and largely anecdotal 
assumptions regarding potential terrorist actions aboard aircraft.
    I appreciate the opportunity to provide these answers to the 
Committee and am available at any time for further discussions on this 
vital flight safety issue.

                                  <all>

</pre></body></html>
